<html>
<title> - JOINT REVIEW OF THE STRATEGIC PLANS AND BUDGET OF THE INTERNAL REVENUE SERVICE, 2005</title>
<body><pre>[Joint House and Senate Hearing, 109 Congress]
[From the U.S. Government Publishing Office]



 
                     JOINT REVIEW OF THE STRATEGIC
                        PLANS AND BUDGET OF THE
                     INTERNAL REVENUE SERVICE, 2005

=======================================================================




                                HEARING

                               before the

                      COMMITTEE ON WAYS AND MEANS
                      COMMITTEE ON APPROPRIATIONS
                     COMMITTEE ON GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                                and the

                          COMMITTEE ON FINANCE
                      COMMITTEE ON APPROPRIATIONS
        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       One Hundred Ninth Congress

                             First Session

                               __________

                              MAY 19, 2005

                               __________

                                JCS-6-05

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                                 _____



                 U.S. GOVERNMENT PRINTING OFFICE

23-854                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001













                      JOINT COMMITTEE ON TAXATION

                      109TH CONGRESS, 1ST SESSION
                                 ------                                
               HOUSE                               SENATE
WILLIAM M. THOMAS, California,       CHARLES E. GRASSLEY, Iowa,
  Chairman                             Vice Chairman
E. CLAY SHAW, Jr., Florida           ORRIN G. HATCH, Utah
NANCY L. JOHNSON, Connecticut        TRENT LOTT, Mississippi
CHARLES B. RANGEL, New York          MAX BAUCUS, Montana
FORTNEY PETE STARK, California       JOHN D. ROCKEFELLER IV, West 
                                         Virginia
                     George K. Yin, Chief of Staff
               Bernard A. Schmitt, Deputy Chief of Staff
               Thomas A. Barthold, Deputy Chief of Staff















                      COMMITTEE ON WAYS AND MEANS

William M. Thomas, California,       Charles B. Rangel, New York
    Chairman

                      COMMITTEE ON APPROPRIATIONS

Jerry Lewis, California, Chairman    David R. Obey, Wisconsin

                     COMMITTEE ON GOVERNMENT REFORM

Tom Davis, Virginia, Chairman        Henry A. Waxman, California
                                 ------                                

                          COMMITTEE ON FINANCE

Charles E. Grassley, Iowa, Chairman  Max Baucus, Montana

                      COMMITTEE ON APPROPRIATIONS

Thad Cochran, Mississippi, Chairman  Robert C. Byrd, West Virginia

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

Susan M. Collins, Maine, Chairman    Joseph I. Lieberman, Connecticut























                            C O N T E N T S

                              ----------                              
                                                                   Page
Press release of May 12, 2005, announcing joint review...........    VI
Press release of May 16, 2005, announcing joint review (change of 
  time)..........................................................   VII
Opening statements...............................................     2

                               WITNESSES

Internal Revenue Service, Hon. Mark W. Everson, Commissioner.....     6
Department of the Treasury, Hon. J. Russell George, Treasury 
  Inspector General for Tax Administration.......................    32
IRS Oversight Board, Hon. Raymond T. Wagner, Jr., Chairman.......    47
Internal Revenue Service, Ms. Nina E. Olson, National Taxpayer 
  Advocate.......................................................    60
U.S. Government Accountability Office, Mr. James R. White, 
  Director, Strategic Issues.....................................    70









[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



















  JOINT REVIEW OF STRATEGIC PLANS AND FISCAL YEAR 2006 BUDGET OF THE 
                        INTERNAL REVENUE SERVICE

                              ----------                              


                         THURSDAY, MAY 19, 2005

                          House of Representatives,
                               Joint Committee on Taxation,
                                                    Washington, DC.
    The Joint Committee met, pursuant to call, at 3:02 p.m., in 
room 1100, Longworth House Office Building, Hon. Jim Ramstad 
presiding.
    Present: Representatives Ramstad, Olver, Sweeney, Miller, 
and Beauprez.
    Senators Present: Senator Akaka.
    Representative Ramstad. The hearing will come to order.
    I want to welcome the witnesses and the Members from both 
the House and the Senate--Senator Akaka, it is always good to 
see you; and Ranking Member Olver, good to see you--to the 
joint hearing regarding the operations of the Internal Revenue 
Service.
    In 1998, Congress enacted the IRS Restructuring and Reform 
Act, fundamentally altering the way the IRS does business. That 
law also made a significant change to the way Congress oversees 
the IRS. The act required Congress to hold joint hearings with 
the six House and Senate committees invited here today.
    The joint review is enacted in part to address the finding 
of the National Commission on Restructuring the IRS that there 
was a lack--and I am quoting now--``a lack of coordinated focus 
on high-level and strategic matters,'' among committees 
responsible for IRS oversight.
    The views of the Commission, in fact, are reflected in a 
drawing that former Senator Bob Kerrey gave to then-
Commissioner Rossotti, depicting all the various entities 
overseeing the IRS, with arrows pointing to a bull's-eye. The 
caption reads, from Senator Kerrey: ``Good luck in the bull's-
eye.''
    The goal of the joint review is to replace all of these 
different arrows with one clear message. This will help 
Congress ensure that the IRS is pointed in the right direction.
    Today's hearing will focus on the strategic plans and 
budget of the IRS. The strategic plan reflects the service's 
complex responsibilities. The IRS is trying to improve taxpayer 
service while, at the same time, enhancing the enforcement of 
the tax law. On top of that, it is attempting to modernize its 
processes and computer technology, which would help achieve the 
first two goals. I believe there are signs of progress in all 
of these areas.
    The past filing season saw a record number of taxpayers 
file electronically. More taxpayers are getting the assistance 
they need through the IRS Web site. A record number of 
taxpayers, 46 percent more than last year, were able to file 
their income tax returns for free through the innovative Free 
File program. The IRS has announced major enforcement 
initiatives that have saved taxpayers billions of dollars. The 
IRS has begun to implement significant aspects of its business 
systems modernization program. These are successes.
    Despite these successes, however, it is clear the IRS faces 
significant hurdles. For example, budgetary pressures have led 
the Commissioner to consider significant cuts in service 
including the closure of Taxpayer Assistance Centers which 
provide valuable in-person assistance to taxpayers around the 
country.
    The IRS also faces challenges in implementing its 
modernization plans. Those plans have been scaled back 
significantly since they were first conceived six years ago. 
Given the expense of this project, we need to have confidence 
the Service is now on the right track.
    In light of the success of the 80 percent e-filing goal in 
motivating the IRS, it is worth considering what other goals 
Congress might establish to spur the IRS to realize higher 
rates of taxpayer satisfaction and voluntary compliance.
    We are fortunate to have with us today a distinguished 
group of public servants. We will hear testimony from IRS 
Commissioner Mark Everson, Treasury Inspector General for Tax 
Administration Russell George, Chairman of the IRS Oversight 
Board Ray Wagner, Taxpayer Advocate Nina Olson, and GAO 
Director for Tax Issues James White.
    I have a unanimous consent request. I ask unanimous consent 
that joint review participants who are not able to attend 
today's hearing be permitted to submit written statements to be 
included in the record.
    Without objection, so ordered.
    Representative Ramstad. At this time I would like to call 
on Ranking Member Olver from the Appropriations Committee for 
an opening statement.

 OPENING STATEMENT OF HON. JOHN W. OLVER, U.S. REPRESENTATIVE 
                       FROM MASSACHUSETTS

    Representative Olver. Thank you, Mr. Chairman. I am 
startled to be number two in line here, and particularly ahead 
of a distinguished Senator. But the orders of these things 
sometimes do change.
    Mr. Chairman, I do believe that this is an extremely 
important and hopefully valuable hearing. It gives all of those 
involved with oversight of IRS a chance to raise questions and 
get answers regarding specific issues to each relevant 
committee.
    Even though this is a different venue from the 
Appropriations Committee hearings that we have already had, I 
still have the same concerns regarding private debt collection 
and the budget reductions for taxpayer service.
    And my concern with the private debt collection plan is 
that the IRS is giving away the, in quote, lowest hanging 
fruit, end quote, by giving collection firms the easiest to 
collect receivables and allow collections vendors from, what I 
have heard, to keep 20 or more percent of all funds they 
collect. So that this has the potential of being pretty easy 
money for the vendors.
    My second concern is that it seems the emphasis within the 
IRS is clearly on tax enforcement--I have no problem with 
that--with taxpayer service accounts receiving a 1 percent 
decrease in the President's budget. This budget also proposed a 
$55 million cut associated with the closure of up to a quarter 
of the 400 current Taxpayer Assistance Centers, as the chairman 
has already alluded to, but it didn't provide any specific 
details, and I really would look forward to hearing some 
specific details on that proposal.
    We have lots that can be covered, and I will yield back the 
remainder of my time.
    Representative Ramstad. The distinguished Senator from 
Hawaii is recognized.

 OPENING STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM 
                             HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman, Chairman 
Ramstad from the State of Minnesota, and I am delighted to be 
here with you, delighted to be back on the House side for a few 
minutes, having served here on the Appropriations Committee for 
a number of years. I am pleased to join you today as we examine 
the Internal Revenue Service strategic plan and fiscal year 
2006 budget.
    A constant challenge for the IRS is to strike the 
appropriate balance between taxpayer services and enforcement 
activities to ensure that taxes are collected in a fair manner.
    However, as the IRS moves forward with goals and 
modernization efforts reflected in a strategic plan and budget, 
it is leaving behind the most vulnerable, low income taxpayers 
who depend on quality taxpayer services.
    The IRS has failed low income taxpayers by cutting 
essential services and facilitating the exploitation of 
families that earn the earned income tax credit through its 
support of refund anticipation loans, as we call RALs. 
Incredibly, interest rates on RALs can range from 97 percent to 
2,000 percent. Given the limited risk and the relative 
bargaining positions of the taxpayers and the RAL providers, 
these loans are predatory.
    EITC was designed to help working families meet their food, 
clothing, housing, transportation and educational needs. More 
than 4 million Americans were brought above the poverty line 
due to the EITC in 2002. Unfortunately, due to the prevalence 
of RALs, a significant amount of the EITC is lining the pockets 
of commercial tax preparers and affiliated banks. The EITC was 
diminished by an estimated $1.75 billion intended to assist low 
income families that instead went towards commercial tax 
preparers and affiliated national banks for tax assistance, 
electronic filing of returns, and high cost refund loans in 
1999.
    The excessive interest rates and fees charges on RALs are 
not justified because of the short length of time that these 
loans are outstanding and the minimal risk they present. RALs 
carry little risk because of the debt indicator, the DI 
program, which is a service provided by the IRS that informs 
the lender whether or not an applicant owes Federal taxes, 
child support, student loans or other government obligations. 
This service assists the tax preparer in ascertaining the 
applicant's ability to obtain their full refund. The IRS should 
not be facilitating these predatory loans that allow tax 
preparers to reap outrageous profits by exploiting working 
families.
    In 1995, the use of the DI was suspended because of massive 
fraud in E-filed returns with RALs. This caused RAL 
participation to decline. RAL prices were expected to go down 
as a result of the reinstatement of the DI in 1999. This has 
not occurred. The debt indicator should once again be stopped. 
The DI is helping tax preparers to make excessive profits of 
low and moderate income taxpayers who utilize the service. If 
the debt indicator is removed, then the loans become riskier 
and tax preparers will not aggressively market them among EITC 
filers. The IRS should not be aiding efforts that take the 
earned benefit away from low income families and allow 
unscrupulous preparers to take advantage of low income 
taxpayers.
    In addition, the IRS must do more to restrict RALs by 
providing alternatives for consumers to receive their refunds 
directly in a timely manner. Simple bank or credit union 
accounts allow taxpayers to receive direct deposit refunds into 
an account without the need for a refund anticipation loan. 
Instead of expanding access to mainstream financial 
institutions, the Department of the Treasury has chosen to 
rescind previously appropriated funds that had been designated 
for the purpose of banking.
    Overall, I am also disappointed over the failure to provide 
sufficient resources for taxpayer services. The proposed cuts 
for taxpayer services and outreach are, I feel, irresponsible. 
The Tax Code is complex, especially for low income taxpayers 
who are eligible for the EITC and child tax credit. These cuts 
will unfairly deny access to taxpayers in need of assistance. 
Volunteer income tax assistance, VITA, sites will not be able 
to replace all of the service centers, so more low income 
taxpayers will be driven to pay tax preparers, many who 
ruthlessly pedal high cost refund anticipation loans and other 
products with high fees.
    In light of my comments, Mr. Chairman, I am interested to 
hear today's discussion of the strategic plans and budget of 
the IRS, and I thank our witnesses for joining us today. We 
must work together to restrict predatory RALs and expand access 
to mainstream financial institutions.
    Mr. Chairman, I also want to applaud the National Taxpayer 
Advocate Nina Olson for all of her courageous work on behalf of 
taxpayers. In addition, I want to recognize the work done by 
the National Taxpayer Representative in Hawaii, Don Williams, 
and the rest of his staff to help our taxpayers.
    Thank you so much, Mr. Chairman.
    Representative Ramstad. The Chair thanks the distinguished 
Senator and welcomes him back to the House side. It is good to 
see you back here, Senator.
    At this time the Chair would recognize the distinguished 
member from the Government Reform committee, the gentlewoman 
from Michigan.

       OPENING STATEMENT OF HON. CANDICE S. MILLER, U.S. 
                  REPRESENTATIVE FROM MICHIGAN

    Representative Miller. Thank you, Mr. Chairman. I am 
absolutely delighted to be here with all my colleagues. I am 
certainly looking forward to this hearing today as well.
    This is an issue that we are going to be discussing today 
that certainly affects every taxpayer, every business in our 
Nation. It is vitally important that each and every taxpayer 
understands the Tax Code, that each and every taxpayer has the 
ability to comply with the law, and certainly that they have 
services made available by the IRS to assist them in filling 
out their tax forms.
    The tax gap continues to widen every year. We need to get 
tough on those who seek to use loopholes to abuse the system 
and pay less than their fair share of taxes. However, the tax 
gap also includes average citizens and small business owners 
who do not have the assistance of high-priced attorneys and 
accountants, and, because of this, sometimes they are unable to 
make heads or tails of a very complex system and the paperwork 
that is associated with it. And then sometimes when their taxes 
are due to be filed, they find that they have a huge 
outstanding balance that in many cases are of course very 
difficult for them to pay.
    Another issue we will be interested in exploring today, as 
has already been mentioned, of course, and this is an issue of 
concern that is the contracting out of debt collection services 
to private companies, an authority that was recently granted to 
the Internal Revenue Service. And while some might consider 
this a way to close the tax gap, most of the gap is actually 
caused by small businesses, nonfilers, and underreporters, the 
debt collectors who will be used to retrieve debt from 
individuals who file but have not yet fulfilled their tax 
obligations by paying. Some may have a problem with people 
outside of the government dealing with personal and private tax 
information for citizens and businesses. And if this is to be 
done, it certainly needs to be handled with the utmost security 
and sensitivity. My preference would be to simply have a better 
trained IRS workforce to handle this function, but we will see 
how this all unfolds.
    It is vitally important that the IRS take advantage of the 
latest technology to assist taxpayers with compliance. Having 
served in State government before I came to Congress here, 
overseeing a very out-of-date and antiquated bureaucracy, I 
certainly understand the importance of leveraging technology to 
better serve the customer, and of course in this case it is the 
American taxpayer. The IRS must update its technology and 
encourage more Americans to take advantage of E-filing and 
approve other services available to assist our taxpayers.
    Any government agency is only as good as the people who 
work for that agency. You can have the best technology in the 
entire world, but it is always about the people. I believe in 
the people that work in your association and in your agency 
there. And these employees can only perform as well as the 
training that they are given and the kind of resources and 
tools that the Congress sees fit to provide them with. The IRS 
must do a better job in helping to train its workers and 
providing them with the tools they need to succeed, and to 
teach them to understand that the taxpayers are not just people 
that pay their taxes but in fact they are customers. And we 
need to think about customer service in that agency as well as 
many other agencies in the Federal Government.
    Customer service I think is absolutely vital. The taxpayers 
must know that when they contact the IRS with questions about 
the very confusing Tax Code that they are facing, that they can 
trust the answers that they are given. Far too often you hear 
stories told about taxpayers given improper advice or answers 
to questions that end up perhaps harming the taxpayers. It is 
also very harmful to the morale and the retention of the 
employees if again they don't have the tools and the 
information that they need to be successful in their jobs.
    So I certainly see this as a partnership between the 
Federal Government and the agency that we need to work together 
there.
    These reviews, as we are having here today, I think are 
certainly crucial for the advancement of the Internal Revenue 
Service. There have been tremendous strides and tremendous 
improvements made over the years. But my view on life, I 
suppose on everything, is that the largest room is always the 
room for improvement, and we are certainly looking forward to 
working with you to continue to do that, to make the tax 
process much more friendly, user friendly, and certainly less 
complicated as well.
    And I am particularly interested to hear the testimony of 
Mr. Everson. You actually, sir, have also agreed to testify 
next week at a subcommittee that I chair on regulatory affairs, 
and we will be looking at the Paperwork Reduction Act. So we 
will see how you do here today before we get at you next week. 
But I certainly appreciate your willingness to come to that 
subcommittee as well and appreciate hearing your testimony 
today.
    Thank you.
    Representative Ramstad. The Chair thanks the distinguished 
member from the Government Reform Committee for her opening 
statement.
    I now call the first panel, the Honorable Mark W. Everson, 
Commissioner of the Internal Revenue Service. Commissioner, 
welcome to the hearing. We look forward to your testimony.

 STATEMENT OF MARK W. EVERSON, COMMISSIONER, INTERNAL REVENUE 
                            SERVICE

    Mr. Everson. Thank you, Mr. Chairman, members of the joint 
review. I am just sorry that Mr. Pomeroy isn't here. Last week 
at the ACLI Capital Challenge, that is that road race that a 
lot of people ran in, I am pleased to say that our team got two 
prizes: We got the best team spirit award and the third worst 
team name. That was for Team IRS Pay Your Taxes. But I owe him 
a congratulations, because as to the captain of his team and 
the captain of my team, he beat me by eight seconds. So please 
convey when you see him my congratulations.
    Thank you for the opportunity to testify on progress in 
implementing our strategic plan. While much remains to be done, 
I believe the IRS has made progress on a number of fronts since 
the last joint review was conducted in May, 2 years ago.
    First and most importantly, last year we issued a new 
strategic plan for the IRS covering the years 2005 through 
2009. The three goals of the plan are as follows: One, improve 
taxpayer service; two, enhance enforcement of the tax law; and 
three, modernize the IRS through its people, processes, and 
technology.
    I believe we are using the plan as Congress intended when 
it passed the Government Performance and Results Act. It is the 
foundation of our management of the agency and guides our 
decision-making.
    At this stage, just over 2 years into my 5-year term, we 
have made significant strides in each area. GAO states in its 
report issued today, first, as to service, quote: IRS's most 
notable progress has been in IRS's taxpayer service. And second 
as to enforcement, quote: IRS experienced declines in 
enforcement staffing after 1998, but has recently stopped the 
declines and begun to show increases. And, third, as to 
modernization: IRS has made significant progress in 
establishing management controls in acquiring infrastructure as 
part of the BSM program, as well as significant progress in 
addressing financial management issues.
    This is good news and I am thankful for it. There isn't 
always good news in GAO reports. However, my old boss, Governor 
Daniels of Indiana, always reminded me to watch out for the 
``buts'' that come after the comma, and there are two big buts 
here: GAO has placed both enforcement of tax laws and business 
systems modernization on its high risk list. I agree with the 
designation of these two challenges as of governmentwide 
importance.
    The IRS has improved services. We are just finishing a 
successful filing season, one where for the first time a 
majority of individuals have filed their returns 
electronically. We will continue our emphasis on service, but 
on balance at this stage the greater challenge to our Nation's 
tax administration system are, as GAO has indicated, in the 
areas of enforcement and modernization.
    Our enforcement activities are recovering, but given the 
size of the tax gap they are still at inadequate levels, and 
while we have finally started delivering new return processing 
and administrative systems, the modernization program has a lot 
of ground to cover. Modernization remains essential to our 
long-term success.
    Before taking your questions, I would like to turn briefly 
to the subject of IRS funding. In fiscal year 2002, Congress 
fully funded the President's request for the IRS. In fact, the 
enacted appropriations level was $15 million over the request. 
In 2003, there was a shortfall of $81 million, and in 2004 a 
shortfall of $252 million. In this year, fiscal year 2005, the 
IRS is operating with a budget $438 million below that 
requested.
    Sitting where I am, this is a bad trend line. Over the last 
4 years, this gap is over three-quarters of a billion dollars, 
a figure which is compounded, as you know, by higher than 
requested pay increases.
    I want to stress that fully funding the IRS at the 
President's requested level of $10.679 billion for 2006 will 
strengthen tax administration and help drive down the deficit. 
I ask your full support for this request. Thank you. I will be 
happy to take your questions.
    [The statement of Mr. Everson follows:]

  Written Testimony of Mark W. Everson, Commissioner of the Internal 
                            Revenue Service

                              introduction
    Mr. Chairman and Members of the Joint Review, thank you for the 
opportunity to testify today on the FY 2006 budget request, the status 
of our modernization program, and the 2005 tax filing season. I look 
forward to working with all of you as you exercise your oversight 
responsibilities and we ensure the fair and efficient administration of 
taxes. I welcome your insights and suggestions on how we can increase 
compliance and improve both the management and processes that guide 
systems modernization and the critical services we provide to America's 
taxpayers.
    I have been on the job for over two years, yet I have only had the 
opportunity to appear in this forum once. I was just fifteen days into 
my job at that point. We have come quite a way since then. I have 
testified about the IRS mission of service and enforcement, and about 
our need to modernize. I have spoken about how the IRS was doing a good 
job improving service, had a mixed record on modernization, and had 
work to do to restore enforcement to proper levels.
    Our working equation at the IRS is service plus enforcement equals 
compliance. The better we serve the taxpayer, and the better we enforce 
the law, the more likely the taxpayer will pay the taxes he or she 
owes. This is not an issue of service OR enforcement, but service AND 
enforcement. As you know, IRS service lagged in the 1990s. In response, 
we took important and necessary steps to upgrade service--we 
significantly improved the answering of taxpayer telephone inquiries 
and electronic filing to name just a couple areas. Unfortunately, 
improvement in service coincided with a drop in enforcement of the tax 
law. After 1996, the number of IRS revenue agents, officers, and 
criminal investigators dropped by over 25 percent.
    The President's request for the IRS for Fiscal Year (FY) 2006 is 
crafted to continue the necessary rebuilding of our enforcement 
capabilities while providing adequate funding levels for taxpayer 
service. And it maintains a stable commitment to our important IT 
modernization program. Both enforcement and modernization were 
categorized earlier this year by the GAO as high-risk areas of 
government-wide importance.
    As we work to reduce the deficit and hold the line on spending, we 
must find ways to be more efficient with tax dollars while maintaining 
the quality and level of customer service that American taxpayers 
deserve. The President's budget request for the IRS adopts just this 
approach. I am comfortable with this request and support it 
wholeheartedly. I believe that if the budget request is enacted without 
constraining language, the IRS will continue to provide very good 
service and at a lesser cost to the taxpayer.
    Today, I wish to discuss the budget request for the IRS, as well as 
what we have accomplished in my first few years here, particularly 
addressing enforcement, the area where our challenges remain the 
greatest. Let me first update you about the budget.
             continuing service and increasing enforcement
    We are quite aware of the need to operate efficiently, consolidate 
operations and drive down costs wherever we can. In today's fiscal 
environment, we recognize that resources are tight. Nevertheless, we 
are determined to do all we can to improve service and modernize the 
IRS. In the last several years, we have begun to strengthen enforcement 
and stabilize IRS enforcement staffing; now 73 percent of taxpayers 
completely agree that it is every American's duty to pay their fair 
share of taxes, up from 68 percent in 2003. A 2004 IRS Oversight Board-
commissioned NOP World study revealed 79 percent of taxpayers believe 
it is very important for the IRS to enforce compliance from high-income 
individuals and 85 percent believe it is very important for the IRS to 
enforce compliance from corporations. But in order to continue to 
bolster compliance, we must continue to use our resources wisely.
    The way taxpayers pay their taxes and access IRS information is 
changing. In recent years, the use of IRS.gov and e-Filing has 
increased rapidly, while paper filing and visits to walk-in taxpayer 
assistance centers (TACs) have declined. In fact, this year the 
majority of returns were filed electronically, marking the first time 
in history that e-Filing has outpaced paper returns.
    This shift presents an opportunity to adjust the way IRS serves 
taxpayers and to focus on the most efficient services. Taxpayers 
deserve excellent customer service, but they also deserve value for the 
tax dollars we are spending on their behalf. Changing the way the IRS 
provides customer service to meet the new ways people are dealing with 
their taxes in the 21st century allows us to meet the needs of 
taxpayers while spending their tax dollars more efficiently.
    Our budget estimates all these taxpayer service reengineering 
initiatives will yield $134 million in savings we can reinvest in other 
program areas. The reductions represent a balanced approach in program 
delivery and service to taxpayers to enable them to meet their tax 
obligations.
    We estimate savings of $75 to 95 million from additional 
efficiencies in our field assistance, accounts management and toll-free 
telephone operations. We will achieve these savings, in part, by 
reducing the number of walk-in sites. In recent years, the number of 
taxpayers walking into a Taxpayer Assistance Center (TAC) site for 
assistance has decreased from a high of nearly 10 million contacts in 
FY 2000 to about 7.7 million contacts in FY 2004. This trend reflects 
the increased availability and quality of services that do not require 
travel or waiting in line. Examples include improved access to IRS 
telephone service, the increasing availability of volunteer assistance, 
and the many services now available through IRS.gov, such as ``Free 
File'' and ``Where's My Refund.'' In addition, the ability to download 
forms online has also contributed to the decline in the number of 
customers walking into a TAC. Because of these other options, fewer 
taxpayers need to travel to an IRS office to get the services they 
need.
    There are currently about 400 TAC sites across the country which 
are serviced by approximately 2,300 TAC employees. We believe that 
adjusting the TAC sites to more closely align to this decreased walk-in 
volume will yield staffing and building cost savings of $45 to 55 
million of the $75 to 95 million in savings, and allow us the 
flexibility to improve efficiencies.
    To determine which TAC sites to close, we have developed a criteria 
model that measures the impact on taxpayers across the country. The 
criteria include: location, employee cost, facilities cost, workload, 
and demographic measurements. In anticipation of the closing of 
approximately 70 TACs, we have requested authority to offer early-outs 
and buy-outs to all eligible IRS TAC personnel. We expect to have 
further announcements in the near future.
    We will achieve additional savings because of our recent 
consolidation of our Customer Accounts Service organizations and 
revamping of our business processes. For example, due to the steady 
decline in taxpayers corresponding with us about their accounts, we 
will need fewer resources to manage these accounts. We are also 
adjusting the hours of our toll-free telephone operations from 15 to 12 
hours daily, Monday through Friday in the local times zones, beginning 
in 2005. We expect minimal impact to our level of service for taxpayers 
who call us. We have also continued to improve our telephone service 
for taxpayers who call the IRS with questions. The use of other service 
alternatives, such as volunteer return assistance at Volunteer Income 
Tax Assistance (VITA) sites and Tax Counseling for the Elderly (TCE) 
sites, has steadily increased while the number of TAC contacts has 
decreased. In FY 1999, for example, VITA sites filed almost 584,000 
returns, and TCE sites filed 446,000 returns. In the next five years, 
the numbers of returns filed through these sites increased 88 percent, 
reaching 976,000 VITA returns and 958,000 TCE returns in FY 2004.
    In addition to reducing the number of TAC sites and restructuring 
our telephone operations, we will save $20 to $31 million in outreach 
programs though reductions in printing and postage and additional 
efficiencies in our outreach organizations. For example, we will save 
money in printing and postage as taxpayers shift to e-filing, and as we 
eliminate redundant services and publications.
    We will save another $17 to $23 million by retiring Telefile, 
implementing program enhancements in the processing of employment tax 
returns, and re-engineering processes in Submission Processing. We will 
redirect taxpayers who previously used Telefile to e-file alternatives, 
such as Free File, that are available through IRS.gov so we maintain a 
high level of service.
    Though we are re-engineering how we provide service, we will 
continually strive to improve service to taxpayers. Having stated this, 
I must address the fundamental issue of enforcement. The President's 
Budget Request to Congress would increase IRS enforcement activities by 
7.8 percent.
    Average Americans pay their taxes honestly and accurately, and have 
every right to be confident that when they do so, their neighbors and 
competitors are doing the same. Let me provide an overview of the steps 
we have taken over the past year to bolster this confidence, turning 
briefly to each of our four service-wide enforcement priorities.
    Our first enforcement priority is to discourage and deter non-
compliance, with emphasis on corrosive activity by corporations, high-
income individuals, and other contributors to the tax gap.
    <bullet> In 2004, audits of high-income taxpayers jumped 40 percent 
from the year before. We audited almost 200,000 high-income individuals 
last year--double the number from 2000.
    <bullet> Overall, audits for individuals exceeded the one million 
mark last year, up from 618,000 four years earlier.
    <bullet> In 2004, the number of audits of the largest businesses--
those with assets of $10 million or more--finally increased after years 
of decline.
    The centerpiece of our enforcement strategy is combating abusive 
tax shelters, both for corporations and high-income individuals. I will 
touch upon two important initiatives of the past twelve months.
    We have continued our program of settlement offers for those who 
entered into abusive transactions in the past but would like to get 
their problems behind them. Last May, we made a settlement offer 
regarding the Son of Boss tax shelter, a particularly abusive 
transaction used by wealthy individuals to eliminate taxes on large 
gains, often in the tens of millions of dollars. In this program, for 
the first time, the IRS required a total concession by the taxpayer of 
artificial losses claimed, plus payment of a penalty. I am pleased with 
the response to the offer. So far, $3.2 billion in taxes, interest and 
penalties have been collected from the 1,165 taxpayers who are 
participating in the settlement initiative. The typical taxpayer 
payment was almost $1 million, with 18 taxpayers paying more than $20 
million each and one paying over $100 million. Processing of individual 
settlements continues.
    Based on disclosures we have received from promoter investigations 
and from investor lists obtained through summons enforcement 
litigation, we have determined that just over 1,800 people participated 
in Son of Boss. When the project concludes in the coming months, we 
expect the collected figure from this settlement initiative should top 
$3.5 billion.
    In February 2005, we announced a second important settlement 
initiative--this one involving executive stock options. This abusive 
tax transaction involved the transfer of stock options or restricted 
stock to family-controlled entities. These deals were done for the 
personal benefit of executives, sometimes at the expense of public 
shareholders. This shelter was not just a matter of tax avoidance but, 
in some instances, raises basic questions about corporate governance. 
Again, the settlement offer is a tough one: full payment of the taxes 
plus a penalty.
    A noteworthy point about the stock option settlement offer is that 
our actions in this matter were closely coordinated with the Securities 
and Exchange Commission and the Public Company Accounting Oversight 
Board.
    Our settlement initiatives and increased audits have sent a signal 
to taxpayers: the playing field is no longer as lopsided as it once 
was. It is now more likely non-compliant taxpayers will have to pay the 
entire tax, interest, and a stiff penalty. A taxpayer might have to 
wrestle with questions like ``how much am I going to have to pay the 
lawyers and expert witnesses to litigate this thing?'' Moreover, going 
to court is a public matter. Damage to one's reputation is a potential 
factor. Many wealthy individuals, otherwise seen as community leaders, 
may not want to be identified as paying less than their fair share in 
taxes.
    Another example of cooperation in the battle against abusive 
shelters is in the international arena. A year ago, I announced the 
formation of what has come to be known as the Joint International Tax 
Shelter Information Centre. Since last Labor Day, we have had an 
operational task force of personnel from Australia, Canada, the United 
Kingdom, and the U.S. working together on-site here in Washington. We 
are exchanging information about specific abusive transactions. Results 
to date are promising. Thus far, we have uncovered a number of 
transactions which, but for the Centre, we would have unraveled only 
over a number of years, if ever. It makes sense that we continue to 
work with other countries because, in this increasingly global economy, 
we are up against what is, in essence, a reinforcing commercial network 
of largely stateless accounting firms, law firms, investment banks, and 
brokerage houses.
    The government stepped up its use of civil injunctions in 2001 to 
prohibit promoters from selling illegal tax schemes on the Internet, at 
seminars or through other means. Since that time, the courts have 
issued injunctions against more than 100 abusive scheme promoters. They 
have issued injunctions against 17 abusive return preparers--all 
permanent injunctions. And an additional 49 suits have been filed by 
the Justice Department seeking injunctions--28 against scheme promoters 
and 21 against return preparers. Injunctions issued have involved 
schemes such as:
    <bullet> Using abusive trusts to shift assets out of a taxpayer's 
name while retaining control
    <bullet> Misusing ``corporation sole'' laws to establish phony 
religious organizations
    <bullet> Using frivolous ``Section 861'' arguments to evade 
employment taxes
    <bullet> Claiming personal housing and living expenses as business 
expenses
    <bullet> Filing tax returns reporting ``zero income''
    <bullet> Misusing the Disabled Access Credit
    The IRS has another 1,000 investigations ongoing for possible 
referral to the Department of Justice; and individual examinations are 
being conducted on thousands of scheme participants. Most of the 
investigations and examinations are being conducted by the IRS Small 
Business/Self-Employed (SB/SE) Division.
    Our second enforcement priority is to assure that attorneys, 
accountants, and other tax practitioners adhere to professional 
standards and follow the law.
    Our system of tax administration depends upon the integrity of 
practitioners. Altogether, there are approximately 1.2 million tax 
practitioners, including return preparers. The vast majority of these 
practitioners are conscientious and honest, but even honest tax 
professionals suffered from the sad and steep erosion of ethics in 
recent years by being subjected to untoward competitive pressures. The 
tax shelter industry had a corrupting influence on our legal and 
accounting professions.
    We have done quite a bit since March 2004 to restore faith in the 
work of tax professionals. We have strengthened regulations governing 
the standards of tax practice to discourage the manufacturing of bogus 
legal opinions on the validity of tax shelters. The IRS standards set 
forth rules governing what does and does not qualify as an independent 
opinion about a tax shelter.
    Last year, the government won a series of court cases on privilege. 
The cases confirmed that promoters who develop and market generic tax 
shelters can no longer protect the identity of their clients by hiding 
behind a false wall of privilege.
    Abusive tax shelters often flourished because penalties were too 
small. Some blue chip tax professionals actually weighed potential fees 
from promoting shelters, but not following the law, against the risk of 
IRS detection and the size of our penalties. Clearly, the penalties 
were too low. They were no more than a speed bump on a single-minded 
road to professional riches.
    But these speed bumps have become speed traps. Last fall, Congress 
enacted and the President signed into law, the American Jobs Creation 
Act. The legislation both created new penalties and increased existing 
penalties for those who make false statements or fail to properly 
disclose information on tax shelters. Under the new law, the IRS can 
now impose monetary penalties not just on tax professionals who violate 
standards, but also on their employers, firms, or other entities if 
those parties knew, or should have known, of the misconduct.
    Our third enforcement priority is to detect and deter domestic and 
off-shore based criminal tax activity and related financial criminal 
activity.
    Last year, the IRS referred more than 3,000 cases to the Justice 
Department for possible criminal prosecution, nearly a 20 percent jump 
over the previous year. We continue our active role in the President's 
Corporate Fraud Task Force. We are going after promoters of tax 
shelters--both civilly and, where warranted, criminally. This tactic is 
a departure from the past. Previously, during a criminal investigation, 
all civil activity came to a halt. The result was that in the past, our 
business units were reluctant to refer matters for criminal 
investigation lest they lose their traditional turf. But, we are now 
moving forward on parallel tracks with the Department of Justice. We 
have a number of important criminal investigations underway. The 
enforcement model is changing.
    Our fourth enforcement priority is to discourage and deter 
noncompliance within tax-exempt and government entities, and misuse of 
such entities by third parties for tax avoidance purposes.
    Consider, for example, certain credit counseling agencies. 
Increasingly, it appears that some credit counseling organizations have 
moved from their original purposes, that is, to counsel and educate 
troubled debtors, to inappropriately enrolling debtors in proprietary 
debt-management plans and credit-repair schemes for a fee. These 
activities may be disadvantageous to the debtors and are not consistent 
with the requirements for tax exemption. Further, a number of these 
organizations appear to be rewarding their insiders by negotiating 
service contracts with for-profit entities owned by related parties. 
Many newer organizations appear to have been created as a result of 
promoter activity.
    Some shelter promoters use tax-exempt organizations to create 
abusive shelters. In some cases, the organization receives a fee for 
allowing the promoter to exploit its tax-free status. A tax-exempt 
organization that participates or allows itself to be used in an 
abusive transaction may be inappropriately trading on its privileged 
tax-exempt status.
    It is heartening to see leading members of the nonprofit community 
taking steps to address abuses. I particularly want to salute the 
Independent Sector--which recently delivered a constructive report to 
the Senate Finance Committee. The report states that ``government 
should ensure effective enforcement of the law'' and calls for tougher 
rules for charities and foundations. The report calls for stronger 
action by the IRS to hold accountable charities that do not supply 
accurate and timely public information. I encourage the accounting, 
legal, and business communities to be as enthusiastic about confronting 
abuses and the erosion of professional ethics as the nonprofit 
community. An interesting point to note is that the report supports 
mandatory electronic filing of annual information returns by all 
nonprofits.
    The focus on problems with compliance we are now encountering in 
the tax-exempt sector should not overshadow the inspiring work the 
charitable community does day in and day out. The overwhelming majority 
of these organizations try hard to comply with the letter and spirit of 
the tax law. But we recognize tax abuse is increasingly present in the 
sector, and we intend to address it. We are augmenting our resources in 
the nonprofit area. By the end of September, we will have increased the 
number of our personnel who audit tax-exempt organizations by over 30 
percent from two years earlier. If we do not act expeditiously, there 
is a risk that bad actors who abuse tax benefits for charities will 
tarnish those charities that do good work. If that happens, Americans 
may be more reluctant to give and those in need will suffer.
    As we move forward with these priorities, we will leverage our 
success to achieve greater results within our FY 2006 budget request.
                           budget restructure
    To facilitate full alignment and integration of the Service's goals 
and measures with its resources, we are proposing to restructure our 
budget beginning in FY 2006. This restructuring will facilitate a more 
accurate assessment of the overall value of IRS programs, simplify the 
full costing of programs, and allow the IRS to demonstrate incremental 
increases in an initiative's effectiveness based on the level of 
funding received.
    In addition, this new budget structure will enable us to manage 
activities more effectively. The normal processing of tax returns 
generally proceeds from pre-filing activities to filing activities, and 
finally to compliance activities, should they prove necessary. Although 
these activities are interrelated, we currently distribute their 
resources among three appropriations, with unevenly distributed support 
costs. This system makes it difficult to manage, track, and report the 
full cost of a given taxpayer service or enforcement program.
    This new budget structure will enable us to prepare a true 
performance-based budget by providing the capability to integrate 
operational and support costs into one appropriation, thereby allowing 
us to cost budget activities and programs fully for the first time. The 
new structure will also facilitate the full incorporation of 
performance measures into the budget, as the measures could be tied to 
funds in one appropriation rather than a series of program activities 
dispersed across multiple appropriations. The proposed new budget 
structure will allow stakeholders to assess more accurately the overall 
value of IRS programs, and make program reviews, such as the Office of 
Management and Budget's Program Assessment Rating Tool (PART), more 
effective, thus providing greater accountability and results-oriented 
management focus.
    The proposed budget structure combines the three major 
appropriations accounts--Processing, Assistance and Management (PAM); 
Tax Law Enforcement (TLE); and Information Systems (ISY)--into one 
appropriation called Tax Administration and Operations (TAO).
    The taxpayer service and enforcement programs of the TAO 
appropriation are divided among eight critical program areas. These 
budget activities focus on Assistance, Outreach, Processing, 
Examination, Collection, Investigations, Regulatory Compliance, and 
Research. Full funding for each activity will be reflected in the 
budget, along with key performance measures. As we continue to move 
toward the development and implementation of this new structure, we 
will refine these program areas and the associated resource 
distributions to provide more accurate costing.
    Let me now provide more details on the budget request for the IRS.
  president's fy 2006 budget seeks increase in enforcement to address 
                            growing tax gap
    The President's fiscal year 2006 budget requests $10.7 billion for 
the IRS, a 4.3 percent increase over the fiscal year 2005 enacted 
level. This request represents a 1 percent decrease in Taxpayer Service 
and a 2 percent decrease in Business Systems Modernization (BSM), but a 
nearly 8 percent increase in enforcement.
    This budget includes $265 million for initiatives aimed at 
enhancing the enforcement of tax laws. This request is above the 
increases to fund the pay raise and other cost adjustments ($182 
million), for a total of $446 million for new enforcement investments 
and cost increases. It is important the Congress fully fund these cost 
increases and new enforcement investments. The President's budget 
proposal to fund them through an adjustment to the discretionary caps 
reflects the importance of this investment to the Administration.
    To ensure full funding of the new enforcement investments, the 
budget proposes to employ a budget enforcement mechanism that allows 
for an adjustment by the Budget Committees to the section 302(a) 
allocation to the Appropriations Committees found in the concurrent 
resolution on the budget. In addition, the Administration will also 
seek to establish statutory spending limits, as defined by section 251 
of the Balanced Budget and Emergency Deficit Control Act of 1985, and 
to adjust them for this purpose. To ensure full funding of the cost 
increases, either of these adjustments would only be permissible if the 
Congress funds the base level for IRS enforcement at $6.4 million and 
restricts the use of the funds to the specified purpose. The maximum 
allowable adjustment to the 302(a) allocation and/or the statutory 
spending limit would be $446 million for 2006, bringing the total 
enforcement level in the IRS to $6.9 million.
    We will use the additional funds for enforcement in several key 
ways to combat the tax gap, the difference between what taxpayers are 
supposed to pay and what they actually do pay, due to non-filing, 
underreporting, and nonpayment. Combating tax non-compliance is a top 
priority for us. Americans deserve to feel confident that when they pay 
their taxes, their neighbors and competitors are doing the same. These 
investments will yield substantial results. Even though we have 
increased the focus on specific areas of noncompliance, the tax gap 
increased slightly to between $311 billion and $353 billion in tax year 
2001. IRS enforcement activities, coupled with late payments, recover 
about $55 billion of the tax gap, leaving a net tax gap of between $257 
billion and $298 billion.
    Since 2001, the year covered by the National Research Program (NRP) 
three-year study in which we audited 46,000 individual income tax 
returns, we have taken a number of steps to bolster enforcement. We 
increased our enforcement revenues by nearly 28 percent from $33.8 
billion in 2001 to $43.1 billion in 2004. Audits of high-income 
taxpayers--those earning $100,000 or more--topped 195,000 in fiscal 
year 2004, which is more than double those conducted in 2001. Total 
audits of all taxpayers topped 1 million last year--a 37 percent jump 
from 2001.
    We are ramping up our audits on high-income taxpayers and 
corporations, focusing more attention on abusive shelters and launching 
more criminal investigations. We recently announced we collected $3.2 
billion in the settlement initiative for Son of Boss, a particularly 
abusive tax shelter.
    Our enforcement efforts are designed to increase compliance and 
reduce the tax gap.
    The preliminary results of the NRP determined a range for the tax 
gap, which will be refined into final, more detailed estimates by year-
end 2005. It is unlikely but possible that the final estimates of the 
total tax gap will fall outside the established range. We need to 
continue our efforts in these areas and increase the investment in 
these areas.
    We need to enforce the law so that when Americans pay their taxes, 
they are confident that everyone is paying his or her fair share. At 
the same time, the research underscores the President's call for 
fundamental tax reform and simplification. Complexity obscures 
understanding. Complexity in the tax code compromises both the service 
and enforcement missions of the IRS. Those who try to follow the law 
but cannot understand their tax obligations may make inadvertent errors 
or ultimately throw up their hands and say ``why bother.'' Meanwhile, 
individuals who seek to pay less than what they owe often hide behind 
the tax code's complexity in order to escape detection by the IRS and 
pay less than their fair share.
    The IRS yields more than four dollars in direct revenue from its 
enforcement efforts for every dollar invested in its total budget. In 
FY 2004, we brought in a record $43.1 billion in enforcement revenue--
an increase of $5.5 billion from the year before, or 15 percent. Beyond 
the direct revenues generated by increasing audits, collection, and 
criminal investigations, our enforcement efforts have a deterrent 
effect on those who might be tempted to skirt their tax obligations.
    The nearly 8 percent increase for enforcement activities in the 
Administration's 2006 IRS budget request will increase audits of 
corporations and high-income individuals as well as expand collection 
and criminal investigation efforts.
                        detailed budget summary
    Our FY 2006 request of $10.7 billion includes a transfer from the 
Justice Department of $53.9 million and 329 FTE for our portion of the 
Interagency Crime and Drug Enforcement (ICDE) appropriation, $277.6 
million for a 2.3 percent pay raise and non-labor inflationary costs, 
and $264.6 million for initiatives aimed at enhancing our enforcement 
efforts. This request also includes a $22 million rent reduction to 
result from consolidation of space, and the $134.1 million reduction to 
taxpayer service activities that we will responsibly leverage through 
productivity improvements and program reengineering, as previously 
discussed. We will take a balanced approach to these targeted 
reductions.
    In addition to the taxpayer service reengineering initiatives, we 
also expect to continue to realize savings, which we will reinvest to 
other key areas, through the following other reengineering initiatives:
    <bullet> Savings from Increased Individual Master File (IMF) E-
Filing (Reduction: -$7,700,000 and -190 FTE; Reinvestment: +$7,600,000 
and +12 FTE): This savings is based on processing efficiencies from the 
projected decrease in IMF paper returns and processing costs for 
electronically filed IMF returns in Submission Processing Centers. 
These savings will be reinvested to enable us to continue our 
consolidation of IMF returns processing into fewer Submissions 
Processing sites.
    <bullet> Consolidation of Case Processing Activities to Maximize 
Resources Devoted to Front-Line Operations (Reduction: -$66,654,000 and 
-649 FTE; Reinvestment: +$66,654,000 and +585 FTE): Staffing for 
conducting case processing activities that support our examination, 
collection and lien-processing programs will be consolidated from 
nearly 100 sites and centralized among four campuses (Philadelphia, 
Cincinnati, Ogden and Memphis).
    <bullet> Consolidation of Insolvency Activities to Maximize 
Resources Devoted to Front-Line Operations (Reduction: -$14,928,000 and 
-134 FTE; Reinvestment: +$14,928,000 and +156 FTE): Staff conducting 
insolvency operations to protect the government's interest in 
bankruptcy proceedings will be consolidated from numerous sites and 
centralized at the Philadelphia campus.
    <bullet> Detection and Deterrence of Corrosive Corporate Non-
Compliance (Reduction: -$6,711,000 and -52 FTE; Reinvestment: 
+$6,711,000 and +52 FTE): By using improved issue-management and risk-
assessment strategies for examining corporations, the IRS expects to 
realize productivity improvements. These savings will be reinvested to 
fund front-line enforcement activities.
    Finally, the FY 2006 request includes several program increases, 
totaling $264.6 million:
    <bullet> Attack Corrosive Non-Compliance Activity Driving the Tax 
Gap (+$149,700,000 and +920 FTE): This initiative increases coverage of 
the growing number of high-risk compliance problems and addresses the 
largest portion of the tax gap--underreporting of tax. It proposes a 
funding increase across all major domestic and international compliance 
programs to leverage new workload-selection systems and case-building 
approaches from continuing reengineering efforts.
    <bullet> Detect and Deter Corrosive Corporate Non-Compliance 
(+$51,800,000 and +236 FTE): This initiative addresses complex, high-
risk issues in abusive tax avoidance transactions, promoter activities, 
corporate fraud, and aggressive domestic and off-shore transactions, 
resulting in increased corporate and high-income return closures and 
audit coverage. This initiative also includes critical post-filing 
support provided by outside experts to expedite the resolution of 
issues at the field examination level, reducing taxpayer burden, and 
increasing the credibility of the Service's positions on the most 
complex and potentially highest compliance impact issues sent to court.
    <bullet> Increase Individual Taxpayer Compliance (+$37,900,000 and 
+417 FTE): This initiative addresses the tax gap through: the 
identification and implementation of actions needed to address non-
compliance with filing requirements; increased Automated Underreporter 
resources to address the reporting compliance tax gap; increased audit 
coverage; and expanded collection work in Taxpayer Assistance Centers.
    <bullet> Combat Abusive Transactions by Entities with Special Tax 
Status (+$14,460,000 and +77 FTE): This initiative focuses on the most 
egregious cases of non-compliance and identifies compliance risks 
sooner, reducing burden on compliant customers and enabling the 
development of new interventions to curtail the growth of abusive 
transactions.
    <bullet> Curtailing Fraudulent Refund Crimes (+$10,772,000 and +22 
FTE): This initiative is aimed at attacking the increased questionable 
refunds and return preparer fraud identified through expanded 
operations of the Fraud Detection Centers located on IRS campuses. 
Fraudulent refund schemes are one of the most serious threats to 
voluntary compliance and an IRS investigative priority.
    The FY 2006 request of $10.7 billion funds the IRS' three 
appropriations: Tax Administration and Operations (TAO) for operations, 
service and enforcement; Business Systems Modernization (BSM) for 
modernization; and, the Health Insurance Tax Credit (HITCA) for 
administering a refundable tax credit for qualified individuals. I will 
describe each in turn.
                tax administration and operations (tao)
    For FY 2006, we request funding of $10,460,051,000, an increase of 
4.6 percent over the FY 2005 appropriation of $9,998,164,640 for 
programs previously funded from the PAM, TLE, and ISY appropriations.
    The TAO appropriation provides resources for the IRS' service and 
enforcement programs. The IRS is responsible for ensuring that each 
taxpayer receives prompt and professional service. To that end, the 
IRS' assistance, outreach, and processing activities funded in the TAO 
appropriation are dedicated to providing assistance to taxpayers in all 
forms--electronic interaction, published guidance, paper 
correspondence, telephone contact, and face-to-face communication--so 
that taxpayers may fulfill their tax obligations timely and accurately. 
It also includes the resources the IRS requires to handle the 
processing and disposition of tax returns, refunds, and other filing 
materials.
    We are also responsible for the fair enforcement of the nation's 
tax laws. Each year, a small percentage of taxpayers file erroneous 
returns or, for reasons both innocent and less benign, fail to file a 
return at all. The IRS conducts enforcement activities using a variety 
of methods, including correspondence audits, matching reporting 
documents (such as Forms W-2) to information on taxpayer returns, in-
person audits, criminal investigations of those suspected of violating 
tax laws, and participation in joint governmental task forces. The IRS' 
examination, collection, investigations, regulatory compliance, and 
research activities funded in the TAO appropriation provide the 
resources required for equitable enforcement of the tax code and the 
investigation and prosecution of individuals and organizations that 
circumvent tax laws.
           health insurance tax credit administration (hitca)
    In August 2002, the President signed Public Law 107-210, the Trade 
Act of 2002, which, among other things, provides a refundable tax 
credit for the cost of health insurance for certain individuals who 
receive a trade readjustment allowance or a benefit from the Pension 
Benefit Guaranty Corporation (PBGC). The Health Insurance Tax Credit 
Administration (HITCA) Appropriation funds the costs to administer a 
refundable tax credit for health insurance to qualified individuals. 
The tax credit is equal to 65 percent of the health insurance premium 
paid by eligible persons for themselves and qualifying family members. 
For FY 2006 we request funding of $20,210,000, a decrease of 41.5 
percent below the FY 2005 appropriation of $34,562,272. Costs for the 
HITCA program have declined since implementation due to our active 
program oversight and management, as well as several cost-cutting 
initiatives we began to implement in March 2004. We developed a 
comprehensive action plan outlining cost-reduction initiatives and are 
following it to achieve these significant savings.
                  business systems modernization (bsm)
    The IRS tax administration system, which collects $2 trillion in 
revenues annually, is critically dependent on a collection of 40-year-
old, obsolete computer systems. Recognizing the long-term commitment 
needed to solve the problem of modernizing these antiquated systems, 
Congress and the Administration created a special business systems 
modernization account. They designed the BSM program to bring the IRS' 
business systems to a level equivalent with best practices in the 
private and public sectors while managing the risks inherent in a 
program that is unquestionably one of the largest, most visible, and 
most sensitive modernization programs ever undertaken.
    Our most successful year ever for the modernization program was 
2004; however, we realize one successful year does not a successful 
program make. The slow ramp-up of our modernization efforts, caused by 
many factors including a lack of adequate technical and application 
engineering, program complexity, immature management processes, 
infrastructure instability and role confusion between the IRS and our 
PRIME contractor, Computer Sciences Corporations (CSC), caused us to 
deliver projects late and over budget. When I came onboard in 2003, I 
reorganized the IRS to provide greater focus and accountability in 
modernization by creating and appointed a Deputy Commissioner for 
Operations Support. Because of this focus, we have begun to see real 
progress in delivering projects with business value.
    In 2004, we measured our success by the number of projects we 
delivered, the schedule and cost targets we hit, and the substantial 
improvements we made in program management.
    We delivered the first release of the Customer Account Data Engine 
(CADE) project in July 2004, allowing the IRS to process an initial set 
of the simplest tax returns on a new computer system for the first time 
in 40 years. We launched IRS' new Integrated Financial System (IFS), 
and declared it the IRS' financial accounting system of record. IFS 
will provide the capability for improved timeliness and accuracy of the 
financial reports and information available to IRS management and key 
stakeholders, facilitating continued clean financial audit opinions of 
the IRS. We deployed a full suite of e-Services products, providing tax 
professionals and businesses with new Web-based tools that dramatically 
improve their interface with the IRS. Additionally, we released 
Modernized e-File, whereby corporations and tax-exempt organizations 
can file their annual income tax and information returns 
electronically.
    Regarding the BSM budget, in 2004, the modernization budget was 
$387 million. Based on the challenges the modernization program was 
facing, we realized the program needed to be smaller in 2005 so we 
requested a lesser budget of $285 million. In the end, Congress 
appropriated $203 million. One of the ways we are accommodating these 
changes is by substantially lowering the costs of the core 
infrastructure as well as the architecture, integration, and management 
parts of the BSM program in 2005. These two areas are the programmatic 
elements of the program, and cost $160 million in FY 2004. We certainly 
cannot justify that level of continued investment for a program that is 
roughly $200 million. Therefore, we are dramatically reducing those 
core services to $107 million in FY 2005 and we anticipate making 
additional reduction in FY 2006. For FY 2006, we request funding of 
$199 million for all BSM activities, substantially the same funding as 
the FY 2005 appropriated level. This funding level allows us to focus 
on on-going projects to ensure they deliver the functionality we 
planned.
    In FY 2005, BSM continues to build and improve upon our success by 
delivering projects, attaining cost and schedule targets, realizing 
benefits to taxpayers, and improving BSM program management 
capabilities. BSM delivered all projects and releases planned for the 
first half of FY 2005 on time, on budget, and met or exceed scope 
expectations.
    In terms of improving program management, we identified four key 
areas that we had to address to enhance the performance of the 
modernization program:
    <bullet> Resizing our modernization efforts to better align with 
our management and skill capacity;
    <bullet> Engaging IRS business units to drive the modernization 
projects with a business focus;
    <bullet> Improving contractor performance on cost, schedule, and 
functionality; and
    <bullet> Hiring outside executives to achieve a better balance 
between large project management and tax administration experience.
    We have made significant progress in addressing each of these major 
challenges.
    First, the IRS will concentrate on a few key projects and will 
develop a track record of improved management and successful delivery 
of modernization projects.
    Second, the IRS assigned a business unit leader to each project 
with responsibility for leading the related BSM Governance Committee, 
and sharing accountability for delivering the modernization project as 
stated in their annual performance commitments.
    Third, we are making real progress in improving the accountability 
of the PRIME contractor. I meet monthly with the Chief Operating 
Officer of CSC to reinforce the accountability of the contractor to the 
IRS. Additionally, we have made major progress in restructuring BSM 
project contracts with the PRIME that shift an appropriate amount of 
financial risk to the contractor and tie costs to performance. These 
steps have resulted in improved contractor performance, as demonstrated 
in the deliverables in 2004 and the general adherence to costs and 
schedules.
    Fourth, we have made great progress in hiring experienced 
executives and seasoned managers from outside the agency who have 
expertise in running large-scale information technology programs and 
projects. A little over a year ago the mix of leadership at the top of 
the BSM program consisted of one outside expert and six internal IRS 
executives. Today, that mix is four outside experienced outside experts 
and three internal IRS executives. This mix is a much better balance of 
the project management and technology talent and tax administration 
experience needed to successfully run the BSM program.
    As I said earlier, while we were very successful in 2004, we have a 
lot of work ahead of us. It is critical that we continue this level of 
performance in 2005 and beyond.
    Our focus for FY 2005 is on maintaining substantial modernization 
work for three key tax administration systems that will provide 
additional benefits to taxpayers and IRS employees, specifically:
    <bullet> The Customer Account Data Engine (CADE) project;
    <bullet> Modernized e-File; and
    <bullet> Filing and Payment Compliance (F&PC).
CADE
    CADE replaces the IRS' antiquated system called the Master File 
which is the Service's repository of taxpayer information. With CADE 
being the core fundamental component of the modernized systems, it is 
the IRS' highest priority technology project. It will be the single 
authoritative repository for account and return data.
    We cannot over-emphasize the importance of CADE. The current Master 
Files have served the IRS for more than 40 years. However, they were 
developed in a different era and rely on an obsolete programming 
language and a flat-file system that still requires batch updates. 
These systems are very expensive to maintain; development of new 
applications costs the IRS two to three times what it would cost if 
they were already retired. Yet the IRS must update the Master Files 
every year to take into account tax law changes. As importantly, the 
vast majority of the workforce who are familiar with these old systems 
will be retiring over the next few years and we cannot hire individuals 
with these obsolete skills. Until the Master Files are replaced, the 
IRS can not offer service approaching what a typical financial services 
firm offers today (such as full account views for employees and real-
time account updates and settlement).
    The returns we are processing in CADE are the most basic of 1040EZ 
forms and have a narrow range of taxpayer information, but it marks the 
first time since the 1960s that the IRS has processed individual tax 
returns in a new way. The success of CADE proves that we can deliver 
technology that will process tax returns on a 24-hour cycle, breaking 
the 40-year old standard of processing on a weekly cycle. As of April 
27, 2005, CADE had processed over 1.3 million returns and generated 
over $402 million in refunds to taxpayers. This achievement is 
significant. With the FY 2006 funding request, we plan to undertake 
improvements that will allow us to process 33 million returns by the FY 
2007 filing season.
    The CADE system is scheduled to be phased in over several years, 
processing increasingly more complex tax returns. When fully 
operational, CADE will be a modern database that will house tax 
information for more than 200 million individual and business tax 
returns. It will provide a variety of benefits to taxpayers, such as 
faster refunds (by over 50 percent) along with daily postings of 
transactions and updating accounts, which (with other technology 
elements) will significantly improve customer service and enforcement. 
With CADE, we will have the flexibility necessary to respond quickly to 
our complex tax law and tax reform changes.
    One of the most significant changes that we introduced in 2004 was 
the segmentation of CADE releases into two annual deliveries--one in 
July and one in January. The July delivery will involve higher risk, 
more complex functionality, and the January delivery will include 
filing season changes combined with additional changes as capacity 
permits. For the July release, returns will be available from the 
previous six months which will enable us to test the higher risk, 
complex changes with high volumes, and then go live with reduced 
volumes, which will mitigate the operational risks. Based on our 
current planning, we anticipate having all individual returns processed 
by CADE by the year 2012.
Modernized e-File (MeF)
    In FY 2004, the IRS successfully introduced e-filing to large 
corporations and tax-exempt organizations. These taxpayers now file 
their annual income tax and information returns electronically without 
an intermediary, significantly reducing time to file Forms 1120 and 
990. MeF electronically captures 100% of the tax return information 
submitted by a taxpayer/practitioner, including third-party documents 
such as appraiser statements and state documents required at time of 
submission. This change is significant progress since with paper 
returns, the IRS can only transcribe a fraction of Form 1120 and Form 
990 return data. MeF also improves communication with tax practitioners 
through near real-time return receipt acknowledgements, streamlined 
error detection, and standardization of business rules and requirements 
across form types. MeF is an efficient and effective way of providing 
data requested by tax practitioners and is required for maintaining tax 
audit effectiveness.
    In January 2005, MeF Release 3.1 deployed Form 7004 (filing 
extension for corporations), Form 990PF (information return for private 
foundations), and tax law changes for filing season 2004. This allowed 
the IRS to establish regulations requiring large corporations and tax-
exempt organizations to electronically file their income tax or annual 
information returns beginning in 2005. To date, MeF is processing 1120 
and 990 returns at higher than expected volumes while still achieving 
performance goals--a significant reduction in burden and time for 
corporate and tax-exempt taxpayers.
    MeF releases funded in FY 2005 will provide an interface with state 
tax information retrieval systems. Adding capabilities for major 
corporations and tax exempt organizations to file Federal and State 
returns jointly with single point electronic transmission and 
acknowledgements will reduce taxpayer burden and simplify filing 
processes. MeF will also offer a Web Services interface. By FY 2007, 
the IRS expects more than 20,000 large corporate taxpayers and up to 
10,000 tax-exempt entities will be covered by the electronic filing 
requirement. The use of electronic filing technology will also help 
improve service and enforcement missions.
    Despite MeF's success, the benefits of electronic filing are not 
yet available to all taxpayers. Small businesses, self-employed 
taxpayers and some governmental entities cannot yet interface with the 
IRS in a manner consistent with their operational environments. During 
the next few years, it is our plan to extend the MeF architecture for 
1065s (Partnership Income), 1041 (Estates and Trusts), 940 (Employer's 
Unemployment Tax Return), and 941 (Employer's Quarterly Federal Tax 
Return), with an ultimate goal of conversion of the legacy 1040 e-file 
program. Adding 1065 form processing will enable the small business 
community, estimated at 2.68 million in 2005, to realize the same 
benefits experienced by large corporations and tax exempt 
organizations. The volume of small business community response is 
expected to exceed that seen from large corporations.
Filing and Payment Compliance/Private Collection Agencies
    In 2004, Congress passed and the President signed into law, the 
American Jobs Creation Act, a provision of which allows the IRS to use 
Private Collection Agencies (PCAs). The legislation authorized the IRS 
to augment our collection efforts by allowing us to use PCAs to pursue 
what has been deemed as uncollectible tax liabilities; these agencies 
will not have enforcement authority and will only contact delinquent 
taxpayers to arrange voluntary, full-payment installment agreements. We 
will use the Filing and Payment Compliance (F&PC) system to analyze tax 
collection cases and divide the complex cases requiring direct IRS 
involvement from the simple ``balance due'' cases that can be handled 
by PCAs.
    The current volume of delinquent taxpayers exceeds the IRS' 
capacity and results in a serious backlog of collection cases that 
cannot be adequately addressed without additional resources. This 
backlog of collection cases creates both a lost revenue opportunity and 
undermines the fairness of the tax system. Today's IRS collection 
operations rely on 20-year-old technology and 30-year-old processes no 
longer compatible with the realities of today's taxpayer environment. 
The GAO noted significant declines between 1996 and 2001 for staff 
time, productivity and the amount of unpaid taxes identified, collected 
and resolved. The GAO noted the number of pending tax delinquent 
investigations rose 430 percent since 1997, while the number of 
confirmed tax delinquent accounts ``in queue'' (awaiting staff 
attention), rose 54 percent.
    F&PC will enable taxpayers and practitioners to conduct IRS 
business over the Internet, for issues which previously required direct 
IRS employee interaction (telephone or paper correspondence), thus 
providing better access to government services on a 24/7 basis. F&PC 
will provide support for detecting, scoring, and working non-filer and 
delinquency cases through advanced state-of-the-art case selection 
methods. This capability will improve prioritization of delinquent case 
inventories, improve case selection, and optimize collection and 
resolution rates.
    F&PC Release 1.1 will analyze tax collection cases and separate 
complex cases requiring direct IRS involvement from those that can be 
handled by PCAs. The passage of the enabling legislation allowed BSM to 
restart F&PC activities in FY 2005. F&PC will use FY 2004 funding 
during FY 2005 to complete architecture engineering analysis, and 
development of a limited functionality release to allow initial 
competitive outsourcing of collection activities, with a planned 
operational debut of January 2006.
    Future F&PC releases will increase enforcement by developing 
targeted treatment streams for delinquent tax cases at various stages 
in the collection process, which reduces the volume of cases requiring 
more cost intensive attention in back-end collection processes. 
Subsequent releases will further enhance capabilities such as an 
electronic inventory management, case selection and segmentation, 
electronic data interchange with PCAs, enhanced reporting, monitoring 
and control capabilities.
    F&PC meets the President's Management Agenda (PMA) under the 
government-wide initiative for expanded e-Government and aligns with 
the ``Government to Citizen'' profile by posting information that 
allows citizens to access delinquent tax accounts, and offering 
instructions on how to resolve unpaid tax balances.
                        irs program performance
    The IRS expects to achieve the following levels of performance 
after attaining full performance of the requested FY 2006 initiatives:
    <bullet> Increase in field examinations for high-income individuals 
with complex returns; significant increase in collection processed; and 
closing of over 40 percent more delinquent balance-due accounts in FY 
2008 than in FY 2004.
    <bullet> Nearly double the audit coverage for individuals with 
income between $250,000 and $1 million, from 1.5 percent in FY 2004 to 
2.8 percent in FY 2008.
    <bullet> Auditing 15 percent more individuals earning above $1 
million, from 3.4 percent projected for FY 2004 to 3.9 percent in FY 
2008.
    <bullet> Significantly more collection cases processed, closing 50 
percent more delinquent accounts in FY 2008 than FY 2004.
    <bullet> Double the audit coverage for mid-size corporations, from 
7.6 percent in FY 2004 to 16 percent in FY 2008.
    <bullet> Increased efforts to deter abusive tax shelters among 
corporations.
    Let me now talk to you about our current levels of service. By 
service, I mean helping people understand their tax obligations and 
making it easier for them to participate in the tax system.
    The IRS has greatly improved service to our nation's taxpayers over 
the last several years. We are delivering services to taxpayers and we 
have improved the efficiency and effectiveness for our tax 
administration system.
                         customer satisfaction
    The American Customer Satisfaction Index (ACSI), which began in 
1994, is a measure of customer satisfaction that covers seven economic 
sectors, 40 industries, more than 200 private sector companies, and 
many governmental agencies. Scores are reported on a 0 to 100 scale 
based on survey data from consumer households across the nation. The 
ACSI is produced by the National Quality Research Center at the 
University of Michigan Business School, the Claes Fornell International 
(CFI) Group, and the Federal Consulting Group (FCG). Claes Fornell, 
Chairman of the CFI Group, recently praised our progress. He said,
    ``The Internal Revenue Service (IRS) continues to improve its 
services. The IRS is obviously in a special category when it comes to 
the satisfaction of the people it deals with, and cannot be compared 
with the private sector or even with most public sector services. The 
collection of taxes is not an activity that taxpayers look forward to 
or expect a great deal of satisfaction from. But even in the face of 
this handicap, the IRS continues to improve on taxpayer satisfaction. 
Since 1999, IRS' overall ACSI score has surged by 26%. While the rate 
of the improvement has slowed recently, it is clear that a good deal of 
this increase is attributable to electronic filing. Filers find it 
convenient, accurate, and refunds are delivered quickly. The 
satisfaction score for electronic filing stands at a remarkable 78, 
compared with paper filing at 52. The more tax filers the IRS manages 
to move from paper to electronic filing, the more customer satisfaction 
can be expected to increase.''
                   return receipts/electronic filing
    Electronic filing continues to grow. Last year, individuals filed 
over 61 million electronic returns. This year, over half of all 
individual returns were be e-filed. Individuals who file paper tax 
returns are now in the minority. We take every opportunity we can to 
broadcast the benefits of electronic filing, including a reduction in 
processing errors and cost savings for taxpayers and the IRS. E-filing 
is fast, convenient, and gets your refund to you in half the time of 
paper returns.
    As of May 6, 2005, we have received more than 122.1 million total 
individual returns. 66.1 million returns (54.1 percent) are 
electronically filed and 55.9 million (45.8 percent) are paper.
    <bullet> The number of online returns is 16.7 million, a 17.2 
percent increase from last year.
    <bullet> Through April 28, 2005, 5 million Free File returns have 
been accepted, an increase of 46.6 percent from last year.
    <bullet> We have issued 88.6 million refunds, with an average 
refund of $2,113 paid.
                                irs.gov
    Use of our website, IRS.gov, has exceeded 134.6 million homepage 
visits, up 66.3 percent from 2004. Not surprisingly, during the filing 
season, it is one of the busiest websites in the world. We average more 
than one million visits a day. Many of those visits are to the ``Free 
File'' page, which allows taxpayers visiting the website to chose among 
several free, online filing options. As of May 7, nearly 18.9 million 
taxpayers used the ``Where's my Refund'' feature on the web page, an 
increase of 52 percent from the same time last filing season. These 
visits decrease the need to visit a Taxpayer Assistance Center (TAC), 
or to call our operators, which allows them to focus on more complex 
calls. During the past year, we have also rolled out important new 
online services to tax professionals to help them better serve their 
clients. Tax practitioners and other third parties, such as banks and 
brokerage firms that file 1099s, may now access the following 
functionalities online: electronic account resolution, transcript 
delivery, secure email, disclosure authorization, and bulk Taxpayer 
Identification Number (TIN) matching. In fact, as of May 9, 2005, for 
the fiscal year tax practitioners submitted 3,370 cases for Electronic 
Account Resolution, 62,737 requests for transcripts, 28 million Bulk 
TIN matching requests, and over 15,000 powers of attorney or disclosure 
authorizations.
                           telephone service
    Our efforts to improve call routing, as well as staffing and 
training of phone assistors have allowed us to dramatically improve 
service. In filing season 2005, we are maintaining the level of service 
that our customers have come to expect from us.
    As recently as fiscal year 2002, the level of service for those 
taxpayers who want to speak to an assistor was 68 percent. Our 
improvement efforts raised the level to 80 percent in 2003 and to an 
all-time high of 87 percent in 2004.
    In FY 2004, the number of taxpayers receiving busy signals 
decreased to 220,000, a 66 percent reduction from the previous year. 
And, that is a reduction of 99.5 percent from the 2.6 million busy 
signals generated as recently as FY 2002.
    Our telephone service--that is, answering questions from 
taxpayers--continues to improve. We measure telephone quality two ways, 
1) customer account accuracy and 2) tax law accuracy. For the filing 
season, our customer account accuracy is 91.6 percent, up from 89.3 
percent; our tax law accuracy has improved from 77.7 percent in 2004 to 
88 percent in 2005.
                         legislative proposals
    The President's FY 2006 request includes several proposals that 
will assist me in managing the agency more efficiently and effectively. 
These proposals, if enacted, will allow us to focus more resources on 
high-income, high-risk areas, automate several routine transactions, 
use electronic data to reduce costly manual transactions, consolidate 
resources related to judicial and counsel review, and broaden 
administrative authorities and accesses to support further electronic 
administration and tax reform. We are seeking to:
    <bullet> Make Section 1203 of the IRS Restructuring and Reform Act 
of 1998 more effective and fair;
    <bullet> Curb the use of frivolous submissions and filings made to 
impede or delay tax administration;
    <bullet> Allow for the termination of installment agreements for 
failure to file returns and for failure to make tax deposits;
    <bullet> Consolidate judicial review of collection due process 
cases in the United States Tax Court;
    <bullet> Eliminate the monetary threshold for counsel review of 
offers in compromise;
    <bullet> Allow the Financial Management Service to retain 
transaction fees otherwise paid from IRS appropriations from levied 
amounts to recover delinquent taxes;
    <bullet> Extend the due date for electronically filed returns to 
provide additional incentive for taxpayers to e-file and expand the 
authority to require electronic filing by businesses and exempt 
organizations; and,
    <bullet> Allow IRS to access information in the National Directory 
of New Hires for tax administration purposes.
                               conclusion
    The IRS is committed to continuing to improve service and respect 
taxpayer rights while enforcing the law.
    Mr. Chairman and Members of the Joint Review, the great majority of 
Americans honestly and accurately pay their taxes. Average Americans 
deserve to feel confident that, when they pay their taxes, their 
neighbors and competitors are doing the same.
    The President's budget request will help us enforce the tax law 
more fairly and efficiently. I am most grateful for your support of 
increased enforcement, and I look forward to working with you on this 
important budget request.
    Thank you very much. I am happy to take your questions.

    Representative Ramstad. Thank you, Commissioner, for your 
testimony and for doing a tough job well.
    Let me ask you, Commissioner, my friend from Massachusetts 
has referred to the limited number of cases that will be 
delegated to private collection agents as low hanging fruit 
that will be easy to collect. It is my understanding that 
private collection agencies have better access to technology 
that will help them locate taxpayers; and, further, the more 
complex tax cases where the amount of tax owed is disputed will 
be reserved for IRS employees. It seems to me to make sense to 
delegate the less complex cases to the private sector and 
delegate the tougher cases to IRS employees because they have 
the expertise and the enforcement power.
    Do you agree with that?
    Mr. Everson. Yes, sir, I do. I want to note, however, I 
totally agree with Mr. Olver. I mean, if we had limitless 
funding, of course it would make more sense to have the IRS 
employees do this work. But as I just indicated, talking about 
the funding, the budgets that we actually get, don't afford us 
that luxury. So we do have to choose. This is a program that 
will supplement the IRS efforts, enable us to do just as you 
say, work on the more complex, higher end cases, and I think 
that this is an expansion of our reach.
    It is already being done, as I indicated in testimony 
before, in over 40 States around the country. And it is 
comparable in many ways to the kind of leverage we are trying 
to get in other areas, where right now we have agreements to 
look at abuse of tax shelters with something like 46 States and 
the District of Columbia. They are doing some work and we are 
doing other work, and it does help us. So I actually have to 
agree with both of you, frankly, which is always good practice.
    Representative Ramstad. Let me ask another question with 
respect to private collection agencies. Could you just briefly 
explain the safeguards that are in place to prevent the misuse 
of taxpayer information or violation of taxpayer rights, as you 
implement last year's legislation?
    Mr. Everson. Yes, sir, of course. That is one of the 
reasons why the program isn't up and running right now. We are 
taking the time to develop the systems appropriately so that we 
are only providing the data that these folks will absolutely 
have to have. We want to make sure that the systems interact 
correctly, that if you are getting in touch with someone and 
they have already made a payment, for example, that that is 
reflected in the data that the contracting agencies will have. 
We are proceeding to do that work now, and that is why we won't 
actually start the collection activities themselves until 
probably around January of this coming year.
    I want to emphasize, as I have in other testimony, that all 
the standards that will be followed by the contractors will be 
those same standards that IRS employees would have as to the 
kind of questions they could ask. There is also, as you know, 
the third Debt Collections Practices Act that governs these 
activities as well.
    So there will be a lot of controls over this, a lot of 
monitoring, and there will be great focus on security. IT 
security was a point that was mentioned. We want to make sure 
that we are attending to that, too.
    Representative Ramstad. My final question concerns Taxpayer 
Assistance Centers. Your hand was really forced by the budget 
to close a number of them throughout the country. What are you 
planning to do to compensate--that is, to make sure tax 
administration will not suffer--due to the loss of this face-
to-face interaction through the closures?
    Mr. Everson. We will develop plans for each and every one 
of the sites that we expect to close. Right now, we are heading 
towards a model or a listing of about 68 sites. I expect that 
we will probably issue that within the next week to 2 weeks. We 
will do a site-by-site analysis and work on things like the 
nearby existing sites, remaining sites, depending on where the 
location is. Also, working on the VITA sites that were 
mentioned. As you probably know, there is something like 14,000 
volunteer sites around the country. I recognize this is not a 
one-to-one trade-off in any way, but we will develop a targeted 
plan in each and every location that we close to do the best we 
can.
    As you indicate, what is really happening here, Mr. 
Chairman, is we are doing some belt tightening. This is 
consistent with what GAO has said, that I would like to, if I 
could, draw this to your attention in terms of what they have 
concluded. It says:
    We recognize that the options listed below involve trade-
offs. In each case, some taxpayers would lose the service they 
use. However, the savings could be used to help maintain the 
quality of other services. We also want to give the IRS credit 
for identifying savings, including some on this list. The 
options include the following:
    Closing walk-in sites. As discussed previously, taxpayer 
demand for walk-in services has continued to decrease and staff 
answer a more limited number of tax law questions in person 
than staff answer via telephone. And a series of other points 
here.
    As you say, what we are trying to do is be responsible in a 
period of budget austerity. This is an area where we think we 
will save about $48 million. We have to save 150 overall, 
frankly, to get within the President's request.
    The final point I will make on this, as Mr. Olver and 
others have heard me testify to, my real concern is not this; 
it is that if the Congress does what it did the last few years 
and uses the President's service request as a ceiling and then 
cuts it further, we will get to far harder cuts in services 
than this implies.
    Representative Ramstad. Thank you, Commissioner. At this 
time I would recognize the distinguished member from the 
appropriations committee, Mr. Olver.
    Representative Olver. Thank you, Mr. Chairman. Commissioner 
Everson, I have read your written testimony. It is not so easy 
for me to assimilate your new summary of that testimony in 
order. You mentioned in your written testimony that the tax gap 
in the last year that your publishing data, your advertising 
data on that is for the year 2001, and you say that the tax gap 
is somewhere between 311 and $353 billion. And that in fact 
through late payments and enforcement activities, coupled with 
those payments, that you recovered 55 billion. So that there 
may be somewhere between 257 and 298 net tax gap.
    You have indicated that for this year, in your written 
testimony, that your priorities for enforcement--and I take it 
the priorities for enforcement mean going at that net tax gap. 
The priorities for enforcement would be to discourage and deter 
noncompliance with emphasis on corrosive activity by 
corporations, high income individuals, and other contributors 
to the tax gap.
    Then your second priority is to ensure that tax 
professionals are adhering to professional standards and follow 
the law.
    The third priority is to detect and deter domestic and 
offshore based criminal tax activity.
    And, fourth, to discourage and deter noncompliance within 
tax exempt and government entities.
    Now, is all of that net tax gap contained among those four 
priorities, or are those just components of the tax gap?
    Mr. Everson. Those are the four objectives that support the 
enforcement goal of the strategic plan. They were constructed 
to cover what we felt were the most essential elements of 
returning or recovering enforcement. And some of those play in 
a tax gap more than others.
    Let us talk about the last one as an example, maintaining 
the integrity of charities. As you know, the tax exempt sector 
is a very large portion of our economy, but we aren't 
generating tax there. Therefore, it is not in the gap 
calculation.
    Representative Olver. All right. That is fine. Thank you. I 
have to get some questions in here.
    All of the tax gap issues there require extensive work, as 
the chairman has suggested, on the part of professional tax 
personnel of the Department and so on, the enforcement audit 
process and so forth. I assume that these audits must be done, 
you will have to do those in order to identify where the 
underreporting of income is, and whether it can be found 
through document matching or whether it is small or large 
corporations or abusive devices or all of that. That has to be 
done through the audit process.
    Mr. Everson. Sir, we have just completed the first phase of 
the national research program. This has generated the results 
that you spoke about, the tax gap range that was articulated. 
It was based on 46,000 detailed audits, from which we have 
reached conclusions on the ranges. We are refining that work 
now. That work will enable us to refine those ranges and update 
our audit tools. Ultimately, we will use the results to inform 
our budget decisions down the road.
    Representative Olver. Okay. Let me just ask you, where is 
it that you intend to use the private collectors?
    Mr. Everson. Let us go to the tax gap map. If you look at 
the components of the tax gap, about 80 percent of it is in 
underreporting, about 10 percent is in nonfiling, and 10 
percent that is this box out at the right, a little over $30 
billion, is in underpayment. That is when I owe a balance, we 
have agreed that I owe the balance, but I haven't paid all of 
it.
    Representative Olver. 30 billion?
    Mr. Everson. Yes, sir. So that is each year. We estimate 
right now, on the balance sheet of the U.S. Government----
    Representative Olver. This is underpayment?
    Mr. Everson. Underpayment. Yes, sir.
    Representative Olver. So this is where it is already agreed 
what is owed?
    Mr. Everson. Exactly.
    Representative Olver. And it just hasn't been paid. And 
this is where you will use the----
    Mr. Everson. That is where the private collection agencies 
come in. That is exactly right. They are not doing audit work 
or anything like that. No, sir.
    Representative Olver. Okay. Now, doesn't that correspond 
essentially to a group of items that were included in your 
predecessor's Mr. Rossotti's report to the review board, to the 
IRS review board? Because that comes to virtually exactly $30 
billion of field and phone accounts receivable, plus the cases 
of--other sorts of cases where they have been looked at and you 
didn't have enough staff to look at all of them.
    Mr. Everson. I would have to go back and look at Charles' 
report.
    Representative Olver. The point I am trying to make is that 
in a category of $10 billion of field and phone accounts 
receivable, $10 billion that is understood to be owed and 
agreed to be owed, Mr. Rossotti suggested that hiring with 
about $300 million to collect those, that you could collect 
that $10 billion, which is $30 per dollar expended. How much is 
it that you plan--because I have heard and I use the number 
about 20 percent. How much is it that you are going to give to 
the collectors for what they collect?
    Mr. Everson. I can't answer that question yet. I think that 
this will be a function of the competitive process in terms of 
the bids that will be received.
    Representative Olver. You have no estimate?
    Mr. Everson. Well, we said we could allow it to go up to 25 
percent, as you know. I don't think it will get that high, but 
I don't want to speculate until we get further down the road.
    Representative Olver. I just want to point out to you and 
to everyone else that that comes to--if it were 20 percent, 
which is what it costs for the collection process, that that is 
a 5 to 1 margin. I cannot imagine why anyone would want to use 
that kind of a margin versus expenditure of $300 million to 
collect the $9 billion.
    Representative Ramstad. The gentleman's time has more than 
expired. The Chair would just ask that we try to stick within a 
minute or so of the 5-minute rule.
    The Chair now recognizes the distinguished Senator from 
Hawaii.
    Senator Akaka. Thank you. Thank you very much, Mr. 
Chairman. The ranking member of the Senate Committee on Finance 
is unable to be here, Mr. Chairman. I ask unanimous consent 
that the statement by Max Baucus be inserted in the record.
    Representative Ramstad. Without objection, so ordered.
    [The statement of Senator Baucus follows:]

                    Statement of Senator Max Baucus

    In 1998, Congress and the Administration determined that it was 
time for the IRS to stop spinning its wheels and start advancing with 
the rest of the world--in technology, taxpayer service, and 
enforcement. Although the IRS made significant progress in taxpayer 
service, enforcement and technology have had fewer successes. 
Unfortunately, seven years later, the IRS continues to have few 
successes in technology; strives for increased enforcement but with 
concern that quality is being sacrificed; and diminishes taxpayer 
service under the guise of lower demand and tighter budgets. I am 
concerned that the IRS wheels did in fact stop spinning, but they are 
now going backwards.
    Congress required the IRS ``to revise its mission statement to 
provide greater emphasis on serving the public and meeting the needs of 
taxpayers'' in the IRS Restructuring and Reform Act of 1998. The 1998 
changes reflect unanimity that it was time to stop the pendulum from 
swinging between taxpayer service and enforcement. Further, the 
National Taxpayer Advocate emphasizes that investments in both 
enforcement and taxpayer service contribute to compliance.
    While I agree that we need targeted, appropriate enforcement, 
taxpayer service cannot be the sacrificial lamb. If the IRS diminishes 
the access and accuracy of taxpayer service--including the essential 
need for face-to-face taxpayer service--then we fail to help taxpayers 
comply with the law on the front end. Ensuring up front quality is 
simply more efficient than back end enforcement.
    One of the lambs scheduled for slaughter is the IRS Taxpayer 
Assistance Center program. In Montana, taxpayers already have to drive 
200 miles to a Taxpayer Assistance Center. Because of cuts in hours of 
operation and new restrictions on the type and level of assistance that 
taxpayer service personnel may provide, when Montanans get to an IRS 
assistance center, it is often closed. It seems to me that justifying 
the closing of Taxpayer Assistance Centers based on a decrease in usage 
is simply the next step in a planned self-fulfilling prophecy. I fear 
that the proposed cuts in telephone service are also unwarranted cuts 
in taxpayer service. I urge Commissioner Everson to re-think the 
direction he is headed with respect to taxpayer service cuts.
    The IRS's third strategic goal is to modernize the IRS through its 
people, processes, and technology. Simply put, the IRS cannot operate 
efficiently and effectively with outdated technology. Unfortunately, 
critically important taxpayer service and enforcement needs are going 
unmet because of a failure of the IRS to modernize. In 1998, the 
general view was that the IRS could not build the needed technology in-
house. Seven years later, the IRS has not been able to build the needed 
technology using the private sector. Billions have been spent to 
modernize the IRS. Yet, the IRS is overbudget and behind schedule when 
it comes to the goal of advancing with the rest of the world in 
technology.
    Worse yet, one of the few technology successes the IRS has had is 
now on the chopping block as well. In 2004, over four million 
individuals and one million employers filed income and employment tax 
returns by telephone via the IRS's Tele-file program. Once again, we 
are told that usage has declined and tight budgets result in 
elimination of this program. However, perhaps the problem actually lies 
with ineffective promotion of the program, limitations on the types of 
taxpayers who may use the system, and inefficient maintenance of excess 
circuit capacity and overhead.
    Finally, the IRS's struggle for a level of funding that is 
commensurate with its workload has existed for years. I appreciate 
Commissioner Everson's efforts to change the manner in which we think 
about IRS funding. Specifically, he argues that every dollar invested 
in the IRS results in a return of four dollars to the Federal 
government. I believe we should treat the IRS as the unique agency that 
it is during the appropriation process. However, I believe any change 
should impact the entire agency, not just enforcement.
    In 1998, Members of Congress shared a vision for a restructured 
IRS. We shared a vision where taxpayers could ask questions and get 
quick and accurate responses, where paperwork was reduced and more 
taxpayers filed electronically, where taxpayer data was readily 
available on computer screens so accounts could be adjusted promptly, 
where honest taxpayers were treated with respect, and where tax cheats 
were brought to justice. In other words, we shared a vision of a modern 
professional organization that provides quality taxpayer service while 
still collecting its accounts receivable. We should not lose sight of 
that vision.

    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Everson, why does the IRS continue to facilitate the 
exploitation of taxpayers by providing the debt indicator 
service and facilitate the refund anticipation loan industry as 
it exploits low income taxpayers?
    Mr. Everson. Senator, I listened very carefully to your 
statement, and I agree with many of the facts that you stated 
in it. But I do not agree with the characterization that the 
IRS supports RALs. I am on record as saying I don't think they 
are a good thing. We have stated that with the increase in 
electronic filing, and this year the electronic filing has 
exceeded 50 percent, one of the primary benefits you get 
through that is it cuts in half the time of getting your 
refund. The other thing that we have done is in the Free File 
Alliance--that is a consortium of companies that provide 
services--this year the usage of that has increased by almost 
50 percent, so that over 5 million taxpayers have filed for 
free, without going through the preparers that you speak of in 
order to process their returns. This was designed for middle 
and low income people.
    Now, it is a complicated problem. I met with your colleague 
Senator Coleman just last week on this subject. He has 
expressed concern about it. We are going to take a look at 
this. There is a delicate balance, though, with the Free File 
Alliance doing a service, which is good for just the taxpayers 
you are speaking about. Some of them do provide these services 
and generate fees that way, you are exactly correct. I am not 
in favor of that, but there are a lot of competitive pressures 
here.
    All I will say to you, sir, is we are going to take a good 
look at this. A lot of it is not regulated by us. As you know, 
it would be subject to State or other banking law.
    Senator Akaka. Yes. And I would say we look forward to your 
taking steps to reduce the use of refund anticipation loans.
    Mr. Everson, the President's budget proposes to cut more 
than $134 million and 1,205 positions from customer service, 
and I am sure that is correct, with Taxpayer Assistance Centers 
targeted for drastic reductions. These cuts will decrease 
customer service to taxpayers who rely on their local centers 
to help them with their tax inquiries. This means that 
minorities and low income taxpayers who rely on centers to help 
with language barriers, the earned income tax credit, and 
general tax preparation, who seek cuts in tax services they 
rely on. You have talked a little about this. But what criteria 
will you use to determine which centers will be closed? Are the 
targeted centers predominantly in rural or metropolitan areas? 
Once the walk-in centers are closed, how will taxpayers receive 
the customer services they currently receive through the walk-
in centers?
    Mr. Everson. Yes, Senator, I am happy to explore that. We 
developed a model that includes five broad categories. And 
within those categories there is a total of 32 different 
criteria. The general categories are geography, employee cost, 
facility cost, workload, and demographics. And they consider 
factors such as those that you are mentioning: The number of 
EITC returns that were being prepared in those centers, 
inquiries as to the number of forms, items like distance to the 
nearest adjoining TAC or the distance to the next VITA site.
    So we try to weigh all these factors. We had input from a 
variety of stakeholders and the input that we received 
indicated initially you want to weigh cost heavily. And what 
the result of that would have been was that you would have 
closed a smaller amount of TACs, but they would have been in 
the big cities, predominantly in the Northeast where you had a 
lot of old structure that has been there for years, if you 
will.
    We received input that we ought to look more at workload 
and demographics, the kind of issues that you are talking 
about. And we have reweighted this so that now almost half of 
the weighting in the model goes to those two figures. So we 
think it is a better solution. It comes up with 68 facilities 
that we expect to announce the closure of. We are finalizing 
that now, doing some quality checks, make sure we have got it 
all right.
    And there are three business rules that we have articulated 
in this model. One is that we want to make sure that each of 
the 35 largest metropolitan areas retains a TAC presence. 
Secondly, we don't want to close more than half of the TACs in 
any individual State, and this will seem like a coincidence but 
we are not closing anything in Alaska or Hawaii just because of 
the lack of geographic proximity and--``isolation'' would 
probably be a bad word, but just the distances, sir.
    Senator Akaka. Thank you. Mr. Chairman, my time has 
expired.
    Representative Ramstad. The Chair thanks the distinguished 
Senator for questions. It is good to see you again.
    If there is no objection, the Chair would now recognize out 
of order my distinguished colleague from Ways and Means, Mr. 
Beauprez, because, as I understand, you have to leave at 4:00 
to offer an amendment on the floor.
    The gentleman from Colorado.
    Representative Beauprez. Thank you, Mr. Chairman, and thank 
you for being with us today, Mr. Everson. A couple of quick 
questions, if I might. The number of corporate returns audited, 
as I understand it, has declined or the percentage, if you 
will, the ratio has declined rather dramatically since 1997, at 
least the numbers I looked at were roughly one out of 50 back 
then, and now more like one out of 180 or so. What is a 
reasonable ratio? And are we--I am assuming that you are going 
to tell me that that is a resources problem. I accept that if 
that is the answer. But tell me, what is a reasonable ratio and 
what must be done about it? What else are you doing at the 
Service to try to find the mistakes that are made? And then I 
want to probe that last part, the mistakes part.
    Mr. Everson. Yes, sir. First of all, we separate 
corporations by type. We have a business unit that deals with 
the large and mid-size corporations. Those are corporations 
that have assets of over $10 million. And then there are 
smaller corporations and also self-employed individuals or 
people doing business without incorporating that are in our 
small business and self-employed business unit.
    The figures you are referring to refer to the aggregate of 
the larger corporations and the small businesses that are 
organized as C corporations. If you look at the larger 
corporations, those rates went down for years and we finally 
stabilized that audit rate in 2004. The 2004 audit rate on 
those larger businesses was actually something like 15 percent, 
I believe, 15, 16 percent, and that is a recovery from 12 
percent the year before. So we are bringing that back.
    On the other hand, last year there was a continuing decline 
in the audit rate of the smallest of the businesses organized 
as C corps. This year, that will stabilize and start to come 
back up. But the rate is very low. I believe it is, as you 
indicate, under 1 percent. The things that we are doing to try 
and go after problems in the largest corporations in 
particular--because when I talk about corporations, I am 
talking about that first group, over 10 million in assets where 
we think we have real compliance problems. We are bringing back 
resources there.
    The centerpiece of the President's budget the last 2 years 
has been corporations and high-income individuals. We are 
improving our tools, we have new mandatory reporting, something 
called the M-3 that analyzes the difference between book 
earnings and tax earnings. Items pop out that you then look at 
in your audit process. That has been changed. Just now we are 
starting to get the information that is really going to be 
terribly helpful.
    We are mandating electronic filing for corporations of a 
certain size, and many of them are crying like stuck pigs now. 
But we are telling them that next year when they file they have 
got to do so electronically. That will cut a year and a half 
off of the processing.
    So we are doing a whole host of things here. The last thing 
I will say is we formed something called a Joint International 
Tax Shelter Information Center with partners from Canada, 
Australia, and Britain, where we have a couple of their agents 
working side by side with our folks in Washington looking at 
abusive shelters and transactions between U.S. businesses and 
their affiliates overseas, because we see real problems in that 
area. As you can imagine, the accounting firms and the 
investment banks went overseas years ago. We are only now 
responding, frankly.
    Representative Beauprez. There is the old cliche ``garbage 
in, garbage out.'' I worry a little bit--I worry a lot, 
frankly, that we maybe have both you at the Service and the 
taxpayer on a bit of mission impossible in trying to comply 
with this very complex Tax Code that we have given you, we here 
in Congress. How difficult is that job, and do we create a bit 
of the cat chasing the tail in that in trying to not have 
garbage go in, you are trying to give the advice and the 
service and the support to the taxpayer to file accurately in 
the first place? How difficult is that job?
    I happen to have a prop here. This is your latest 
contribution to our work. Please look somewhere other than just 
me, if you would.
    Mr. Everson. This is the American Jobs Creation Act of 
2004, which did a lot of good things for the country, and I am 
not suggesting otherwise. But let us make no mistake about it, 
it did not do a lot of good things for the IRS. It did some 
good things in terms of strengthening penalties for promoters 
who didn't comply with our standards, but the level of 
complexity in here is quite significant, especially in things 
like the manufacturing exemption or change where there will be 
a lot of attempts to make sure that things qualify as 
manufacturing that has already required some guidance from us 
and a great deal of work, as I have indicated in some of my 
correspondence with Congress. So you do not make it easier. 
And, in fact, I am looking forward to the tax reform 
discussion, because simplification will really make compliance 
better and it will help the IRS. And what I would really ask 
for is, no matter what we do, let us get some stability in this 
system once we make the changes, because the constant changes 
are really hard.
    Representative Beauprez. I thank the gentleman. That is 
valuable information. I yield back.
    Representative Ramstad. I think all of us will look forward 
to July 31, which is the date the Tax Reform Commission reports 
to Congress.
    The gentlewoman from Michigan.
    Representative Miller. Thank you, Mr. Chairman. You know, I 
was in the tax collection business actually in another 
lifetime; in one of my former jobs I was a county treasurer. 
And I was delighted to hear you say that you now have a 
majority of the people filing electronically. But everybody 
won't file electronically, or I know there is an institutional 
resistance to that depending on demographics, ages, and such. 
In fact, I can remember during tax collection time in my 
county, the older people would come in, particularly those that 
sort of remember the Depression or they listen to their 
parents, and they would peel off that money in cash. They would 
never give you a credit card. And they wanted a receipt, 
because they wanted to see a real person. So as one generation 
is willing to access information and transact business and that 
electronically, we still have a large demographic of our 
population sort of resistant to that. And I know you were 
closing down--I was listening to you talking about your 
modeling for closing down your walk-ins. But what about the 
ones that you have left, those that you still have left? Are 
you doing operational audits on how you transit people in and 
out of there as quickly as you can, I mean, perhaps express 
lines? Are you doing educational kinds of services for those 
that might come into a walk-in where you can actually educate 
them on how easy it would be and encourage them to file 
electronically? How are you expanding the amount of the 
population that would do their business with you 
electronically?
    Mr. Everson. We have taken a number of steps. We have 
expanded outreach and education programs that have been put in 
place in the last 4 or 5 years. I think that one of the real 
success stories here is with the volunteer programs which have 
grown now to where some 2 million returns were prepared this 
filing season. The GAO and others have correctly pointed out 
that we need to improve the quality of those programs. That is 
a dedicated effort right now, terribly important.
    I have visited some of these sites. I have been very 
impressed by the spirit, the willingness of volunteers, if you 
will, to pick up that slack and to help out. We have a series 
of steps we have taken here. It is a very important area of 
activity for us, and I agree entirely with your assessment. The 
statutory objective of getting to 80 percent electronic filing 
is important to pursue, but it is also important for us to 
recognize that there are populations who are difficult to 
reach. And, frankly, I don't worry as much about the elderly as 
I worry about immigrant communities and others who are new into 
the system that we want to educate to be compliant.
    As the country changes and the demographics change, that is 
of particular concern to me to make sure that we are working 
with those populations, because some of these folks come from 
cultures where respect for the rule of law wasn't as great it 
is here, and that is why they came here. We want to make sure 
that the front end is one that sends the right messages.
    Representative Miller. Thank you. If I could switch gears 
quickly and talk just for a moment with this debt collection 
with the private collection agencies and that. What about the 
people that might have real consternation about having their 
debts collected with the IRS or having that kind of--or the 
private collectors? Is there any kind of a system in place or 
an appeals process where they would not allow for a private 
collection agency to do that, where they would insist on the 
IRS actually doing that?
    Mr. Everson. We are looking at that issue now, and I 
believe we are considering whether someone would say I would 
prefer to talk to someone from the IRS, and I think that we are 
considering whether we will put that into the system.
    Representative Miller. Because I forget exactly, does the 
legislation preclude you from doing that, that you have to go 
to a private collection agency?
    Mr. Everson. No. This is an option. It gives us the 
authority to do this work, and that is what we are developing.
    Representative Miller. And one other question, and I know I 
am running out of time here. But I do remember in the 
legislation we made sure that the Federal Government would 
never be responsible if you mishandled anybody's private 
information, which was nice for us I suppose. But what recourse 
would the taxpayer have if there was mishandling of their 
private information? Is there going to be something within the 
process as you do the construct there that they would----
    Mr. Everson. Well, I don't think that those liabilities 
would be any different than any other rights that Americans 
enjoy, and we all know we live in a fairly litigious society 
where there is an ability to go after these businesses. But we 
are going to be very careful in how we scrub the applications, 
and in monitoring these companies.
    I recognize this is a controversial initiative with concern 
as to privacy and rights, and that is why we are ramping it up 
relatively slowly. We are not just getting up and running. We 
had some experience with this some 8 or 10 years ago. It did 
not go well because we didn't plan it as carefully as we needed 
to. I think we have learned that lesson, and we have got a very 
good team that is working on it. I had asked them to get it 
going this summer, and they came to me about 60 days ago and 
said you need to slow it down because of some of the very 
issues you are raising. So that is what we have done.
    Representative Miller. Thank you.
    Representative Ramstad. And last, but certainly not least, 
the gentleman from New York.
    Representative Sweeney. I thank the chairman for 
recognizing me on behalf of Chairman Knollenberg in the 
Treasury-Transportation Subcommittee. I really appreciate the 
opportunity, and am glad to see you, Commissioner.
    Let me start by just associating myself with Senator 
Akaka's questioning and commentary regarding the Taxpayer 
Assistance Centers. I know that, in the strive to modernize not 
only the Department but also the filers to the Department, the 
assistance centers serve a really vital purpose. I happen to 
represent one of those very mountainous and geographically 
spread out communities. And I heard your responses, that you 
were looking at workforce issues and demographics. And I am 
assuming demographics includes some of the geography, because 
you did mention both Alaska and Hawaii and those 
considerations, and I appreciate that. And I just would point 
out to you that it is a big concern for people in rural areas 
in particular.
    Mr. Everson. Yes, sir. In fact, I think that our concerns 
were just this: If you only looked at workload per se, you 
would end up closing a lot of rural sites because you have got 
to close lots of small rural sites to get to the cost savings. 
And we have done the best we can. I think we are going to do a 
pretty balanced run of this.
    Representative Sweeney. Well, I hesitantly say I look 
forward to seeing what the final product is. But we have had 
that conversation. Let me really shift gears to something I 
don't imagine you would have been prepared, necessarily, for.
    Mr. Everson. Those are always the fun ones.
    Representative Sweeney. This relates to the oversight 
that--out of Appropriations, we have had a lot of discussions 
about our membership. And I am concerned that, structurally--I 
also serve on the Homeland Security Subcommittee. In prior 
times, I served on Commerce-Justice-State, so I have a pretty 
good sense, and a number of members have a pretty good sense of 
the issue of--the issues attendant to money laundering and 
counterterrorism funding and financing.
    I have a belief that the culture within Federal law 
enforcement, in particular, is such that be it the FBI or even 
DOJ or Secret Service, there isn't a real cultural bent towards 
doing the kind of nitty-gritty work that you need to do over 
the number of years--that you need to do to really investigate 
the complexities of the terrorist financing entities; and I 
have tentatively come to a conclusion that your agency may be 
the only entity culturally and in terms of experience that may 
really have the capability to quickly do--``quickly'' being not 
an oxymoronic term, but really quickly be able to kind of 
indoctrinate itself to such a mission.
    I asked the question of some people around the country in 
terms of the local JTTFs in terms of the involvement the IRS, 
whether the IRS indeed had seats at the table; and was told 
that formally that is not the case in most instances and in 
most jurisdictions--and, in fact, I haven't found one that that 
is the case.
    Secondly, I have been told that part of your mission 
statement may actually be a preclusion that IRS, without the 
invitation of DOJ and/or the FBI, really has no role here.
    So my simple fundamental question is, is that true? In the 
mission statement, are you precluded? And would the Agency, 
given all this discussion about how you are being asked to 
really kind of hone down and cut down and focus and not be too 
spread out, would the Agency have an aversion to such an 
expansion of its duties?
    Mr. Everson. You cover a lot of ground there. And let me--
--
    Representative Sweeney. I know. I only have 5 minutes.
    Mr. Everson [continuing]. Take it in pieces.
    First of all, I would agree with your characterization that 
our people are the best, our criminal investigators, at 
tracking the flow of funds. I have been told that by numerous 
individuals, the most senior members of the Justice Department 
and other agencies. And it is because our people--they are 
often accountants, and that is how they got into the 1811 
series. They like doing that kind of work, whereas some of the 
other agencies are more interested in other elements of it. So 
there is a natural division of labor.
    I believe we are participating in the work. I have not been 
told of being shut out. I have been many times approached by 
Attorneys General Ashcroft, Deputy Thompson, Comey and others. 
Chris Ray runs the Criminal Division, thanking us for the work 
we do not just there, but also as an example on the President's 
corporate fraud task force, same kind of thing, where we 
provide support to Justice-led investigations.
    Now, there are other terrorism-related investigations that 
we initiate, some of them in charitable terrorist financing, 
where we do take the lead because it falls within the 
charitable arena. And then we are in front and we bring Justice 
in, but I don't think it is as stark as you are suggesting, 
sir.
    Representative Sweeney. Well I have a couple of cases that 
I have been following over the years that have fallen by the 
wayside. And one of the explanations on one case, in 
particular, that is quite disturbing is that effectively the 
FBI didn't know where to go with the case and they didn't go to 
you, and they should have. So I will follow up with you.
    Mr. Everson. I would be happy to follow up with you, sir. 
Nancy Jardini runs our Criminal Division. I will ask her to 
come see you and cover any details you would like.
    Representative Ramstad. Well, thank you, Commissioner. 
Thank you for your testimony as well as your responses to the 
questions. We look forward to seeing you.
    The Chair would now call the second panel, the Honorable J. 
Russell George, Treasury Inspector General for Tax 
Administration; the Honorable Raymond T. Wagner, Chairman, IRS 
Oversight Board; Ms. Nina E. Olson, National Taxpayer Advocate, 
Internal Revenue Service; and Mr. James R. White, Director, Tax 
Issues, U.S. Government Accountability Office.
    Representative Ramstad. Again, I would remind the witnesses 
of the 5-minute rule and look forward to your testimony.
    Please, Mr. George.

STATEMENT OF J. RUSSELL GEORGE, TREASURY INSPECTOR GENERAL FOR 
                       TAX ADMINISTRATION

    Mr. George. Thank you, Mr. Chairman. Mr. Chairman, members 
of the joint review, thank you for the opportunity to testify 
today.
    As you know, the IRS Restructuring and Reform Act of 1998, 
or RRA 98, originally called for this hearing. I believe this 
hearing serves a valid purpose in bringing many different 
congressional committees up to date on the progress the IRS has 
made in achieving the goals established in its strategic plan.
    And as an aside, Mr. Chairman, I served as the Staff 
Director of Steve Horn's subcommittee back when this 
legislation first required these hearings, and attended the 
first ones, and so for me it is a particular pleasure to be 
back.
    TIGTA conducts audits of the areas covered by the strategic 
plan and provides recommendations on how this plan can be 
achieved. My testimony will share some of the results of these 
audits. I hope it provides this panel with a more complete 
picture of the progress the IRS has made and the challenges it 
faces as it attempts to implement the strategic plan.
    One of the most important and persistent challenges facing 
the service is the modernization of its computer systems. This 
has been an issue for many years and will likely remain so for 
the foreseeable future. Before the current modernization 
program is completed, it is expected to last a total of 15 
years and contractor costs are estimated to exceed $8 billion.
    The IRS has begun to assume more responsibility for the 
outcome of the modernization program. For it to succeed, the 
IRS must effectively manage contractor performance and hold 
poorly performing contractors accountable. I am concerned about 
the ability of the IRS to do this since we have identified 
weaknesses in the IRS's ability to manage contracts and to 
implement information security measures.
    In testimony he presented last month, the Commissioner 
noted that the Service had substantially met its 2004 goals for 
the modernization program. While revised cost estimates and 
delivery dates were met, the IRS exceeded its original cost 
estimates and delivery dates, and the systems that were 
released provided less functionality than intended.
    I remain cautious about declaring success, based on results 
achieved in 2004, due to TIGTA's historical perspective of the 
modernization effort and our familiarity with the persistent 
modernization challenges facing the IRS.
    One particular concern in the modernization program is in 
the area of information security. TIGTA has found that the IRS 
has implemented modernized systems without protection from 
common security vulnerabilities. These systems cost hundreds of 
millions of dollars to develop and implement, yet inadequate 
attention has been devoted to the security of these systems. As 
a result, sensitive taxpayer information remains vulnerable to 
attack by disgruntled employees and contractors.
    Modernized systems will also assist the IRS with its 
strategic goal of improving taxpayer service. Providing quality 
customer service influences the ability and desire of taxpayers 
to comply voluntarily with the tax law.
    Since the passage of the law, the IRS has been more 
responsive to taxpayers' needs. The increased attention to 
customer service has caused taxpayer satisfaction rates to 
rise. Although the IRS is striving to reach its goal in the 
customer service area, it must avoid enhancing enforcement to 
the detriment of customer service.
    For example, the IRS recently announced plans to close 
about 68 to 70 of the approximately 400 Taxpayer Assistance 
Centers it has nationwide. These centers provide face-to-face 
services to taxpayers with questions about their accounts or 
the tax law.
    TIGTA is currently reviewing the methodology used to select 
which centers to close. At this point, I believe better data is 
needed to assess the impact that closing these centers will 
have on customer service. I am concerned that the IRS has 
insufficient data to draw conclusions on the likelihood that 
taxpayers who have used these centers in the past are willing 
or able to use other methods of seeking help.
    In addition to providing customer service to American 
taxpayers, the IRS must effectively administer the Tax Code. 
Each filing season tests the IRS's ability to coordinate tax 
law changes, program activities and resources. I am pleased to 
report that our audits thus far indicate that the 2005 tax 
filing season has gone well, and TIGTA has identified no major 
problems. However, the implementation of certain tax law 
provisions could be improved.
    For example, the IRS needs to do a better job handling the 
accounts of taxpayers who serve our country in combat zones. 
Military personnel who are serving in combat zones are entitled 
to certain tax benefits, such as the ability to file late, not 
be audited and have collection action suspended.
    TIGTA has found that when the IRS attempted to update the 
tax accounts of military personnel who have entered or exited a 
combat zone, the IRS did not identify and correct errors that 
resulted from missing information or mismatches between names 
and Social Security numbers of the personnel. As a result, our 
men and women in uniform who are currently serving in combat 
zones may not be receiving the tax benefits they deserve.
    Conversely, taxpayers who are no longer serving in combat 
zones may still be receiving special tax treatment to which 
they are not entitled. In fact, we found that over 58 percent 
of taxpayers with an active combat zone indicator on their tax 
accounts appeared to be no longer serving in a combat zone.
    The point is that the IRS needs to better identify who is 
and who is not serving in a combat zone. We have recommended 
that the Service work with the Department of Defense to fix 
this problem.
    One last issue I want to raise today is potential changes 
to the Reform Act. In my written testimony, I have requested 
that Congress consider amending the law to reflect changes in 
the tax administration environment since the law was passed. To 
promote efficiency and ensure that TIGTA's resources are 
effectively allocated, I respectfully request that Congress 
consider the issue presented in my submitted testimony.
    Thank you, Mr. Chairman and members of the joint review. I 
will be happy to answer any questions you may have at the 
appropriate time.
    Representative Ramstad. Thank you, Mr. George.
    [The statement of Mr. George follows:]

Written Testimony of J. Russell George, Treasury Inspector General for 
                           Tax Administration

    Mr. Chairman and Members of the Joint Review, thank you for the 
opportunity to participate in this discussion of the strategic plan and 
budget request for the Internal Revenue Service (IRS). The IRS 
strategic plan consists of three primary goals:
    <bullet> Improve taxpayer service;
    <bullet> Enhance enforcement of the tax law; and,
    <bullet> Modernize the IRS through its people, processes, and 
technology.
    Commissioner Everson has indicated that this strategic plan 
provides a roadmap for IRS operations over the next five years, and 
that the guiding principle for the IRS, Service + Enforcement = 
Compliance, relates his goal for striking the right balance necessary 
to achieve compliance and address the tax gap. \1\
---------------------------------------------------------------------------
    \1\ Internal Revenue Service, Pub. 3744, IRS Strategic Plan 2005-
2009 (Rev. 2004).
---------------------------------------------------------------------------
    The IRS deserves credit for its considerable accomplishments in 
fiscal year (FY) 2004. For example, the IRS processed approximately 224 
million tax returns and collected over $2 trillion in FY 2004. 
Enforcement revenue collected increased by over 15 percent to more than 
$43 billion. The IRS implemented the first release of the Customer 
Account Data Engine (CADE) modernization project, \2\ which processed 
over a million tax returns during the 2005 filing season. \3\ 
Furthermore, the completion of the initial phases of the National 
Research Project allowed the IRS to recently release an updated 
estimate of the tax gap. \4\
---------------------------------------------------------------------------
    \2\ The CADE project is the foundation for managing taxpayer 
accounts in the IRS modernization plan.
    \3\ The tax return filing season is the period from January through 
mid-April when most individual income tax returns are filed.
    \4\ The IRS has initiated the National Research Program to measure 
taxpayers' voluntary compliance, to better approximate the tax gap, and 
to develop updated formulas to select noncompliant returns for 
examination. The first phase of this program addresses reporting 
compliance for individual taxpayers, and data from this phase were used 
to produce the recently updated estimates of this portion of the tax 
gap.
---------------------------------------------------------------------------
    However, in the midst of these accomplishments, the IRS faces some 
significant challenges. The IRS' updated estimates of the tax gap, 
which is defined as the difference between what taxpayers are supposed 
to pay and what is actually and timely paid, have risen to between $312 
and $353 billion annually. These figures are alarmingly high and 
indicate a significant threat to our nation's tax system.
    Although enforcement revenue has increased, gross accounts 
receivable grew by two percent in 2004 to an historical high of $285 
billion. Cost increases and schedule delays continue to occur in 
business systems modernization, even though the number of projects 
under development has been reduced. Additionally, security 
vulnerabilities persist in existing IRS systems, and are even present 
in modernized systems developed by the IRS and the PRIME contractor. 
\5\
---------------------------------------------------------------------------
    \5\ The PRIME contractor, Computer Sciences Corporation, is the 
principal contractor responsible for modernizing IRS business systems.
---------------------------------------------------------------------------
    The proposed budget for FY 2006 provides additional resources to 
IRS enforcement in order to narrow the tax gap. However, the IRS has 
proposed cuts to customer service to offset a portion of the funding 
that is being redirected towards enforcement. I have some concerns 
about these decisions, which I discuss later in this testimony.
    One aspect of the budget that the Treasury Inspector General for 
Tax Administration (TIGTA) is currently evaluating is the IRS' 
application of user fees to taxpayers who seek special services. \6\ 
Opportunities may exist to charge a more accurate amount for these 
services, which would help offset operating costs. In addition, last 
year Congress authorized the IRS to use private collection agencies to 
collect taxes. Once the IRS implements this program, more outstanding 
taxes should be collected. TIGTA will be vigilant in overseeing the 
IRS' use of these contractors to ensure that abuses do not occur. Past 
experiences with bank lockbox thefts and insufficient contractor 
oversight have provided invaluable lessons to help prevent similar 
issues from plaguing the collection of tax debt. \7\
---------------------------------------------------------------------------
    \6\ These special services include processing installment agreement 
requests; providing Employee Plans/Exempt Organization letter rulings, 
opinion letters, determination letters, and advisory letters; providing 
IRS Counsel rulings; processing Offer-In-Compromise applications; and 
providing copies of tax returns.
    \7\ Treasury Inspector General for Tax Administration, Ref. No. 
2002-30-055, Federal Requirements Need Strengthening at Lockbox Banks 
to Better Protect Taxpayer Payments and Safeguard Taxpayer Information 
(2002); Treasury Inspector General for Tax Administration, Ref No. 
2004-20-0063, Insufficient Contractor Oversight Put Data and Equipment 
at Risk (2004).
---------------------------------------------------------------------------
    I will also address the progress the IRS has made and the 
challenges it faces in the security and modernization of IRS 
information systems, the tax filing season, customer service, and 
implementation of the various provisions of the IRS Restructuring and 
Reform Act of 1998 (RRA 98). \8\ TIGTA has performed extensive work in 
these areas, and I appreciate the opportunity to highlight our results.
---------------------------------------------------------------------------
    \8\ Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in 
scattered sections of 2 U.S.C., 5 U.S.C. app. 3, 16 U.S.C., 19 U.S.C., 
22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
---------------------------------------------------------------------------
                      information systems security
    In the area of information systems security, the IRS has developed 
security policies and procedures but has not implemented them 
effectively or consistently. As a result, sensitive information remains 
vulnerable to attack by disgruntled employees and contractors. While 
recognizing that complete security can never be achieved and that there 
are necessary trade-offs between security and operational needs, TIGTA 
continues to identify significant weaknesses in infrastructure and 
applications security.
    Although TIGTA is not aware of a successful intrusion into the IRS 
network from an external source, such as the Internet, TIGTA 
investigations have led to two significant prosecutions for computer 
intrusions. One case involved an IRS contractor who installed on a 
large database server malicious code that was designed to destroy the 
information on the system. The second case involved an IRS contractor 
that illegally accessed and compromised several large servers in an IRS 
computing center. In both cases, although no taxpayer data was 
immediately at risk, IRS contractors were responsible, which highlights 
the fact that the greatest threat to IRS systems is from internal 
sources such as disgruntled employees or contractors.
    The Government Accountability Office (GAO) recently issued a report 
documenting weaknesses in controls to prevent, limit, or detect 
unauthorized access to taxpayer and Bank Secrecy Act data from the IRS' 
internal network.\9\ Recent TIGTA reviews of access controls over 
taxpayer data in IRS' Criminal Investigation function, Appeals office, 
and Office of Chief Counsel have noted similar exposures to 
unauthorized access.\10\
---------------------------------------------------------------------------
    \9\ Government Accountability Office, Pub. No. GAO-05-482, 
Information Security: Internal Revenue Service Needs to Remedy Serious 
Weaknesses over Taxpayer and Bank Secrecy Act Data (2005).
    \10\ Treasury Inspector General for Tax Administration, Ref. No. 
2004-20-081, Key Security Controls of the Criminal Investigation 
Management Information System Have Not Been Implemented (2004); 
Treasury Inspector General for Tax Administration, Ref. No. 2005-20-
069, Security Controls for the Appeals Centralized Database System 
Could Be Improved (2005); Treasury Inspector General for Tax 
Administration, Ref. No. 2005-20-036, Security Controls for the Counsel 
Automated System Environment Management Information System Could Be 
Improved (2005).
---------------------------------------------------------------------------
    I am particularly concerned with weaknesses TIGTA has identified in 
the systems developed as part of the modernization program. We found 
that modernized systems had been implemented without protection against 
common security vulnerabilities. For example, computers were running 
unnecessary high-risk applications, systems were implemented without 
disaster recovery capability, and computer configurations did not meet 
IRS standards.\11\ These systems cost hundreds of millions of dollars 
to develop and implement, yet the security of these systems has not 
received adequate attention. The IRS will have to correct these 
security deficiencies after the systems are already running; however, 
it is much more costly and complex to retrofit systems after-the-fact 
than to install security features in the design and development of the 
systems.
---------------------------------------------------------------------------
    \11\ Treasury Inspector General for Tax Administration, Ref. No. 
2004-20-135 Security Weaknesses in the Modernization Infrastructure 
Have Not Been Adequately Addressed (2004); Treasury Inspector General 
for Tax Administration, Ref. No. 2005-20-024, The Disaster Recovery 
Program Has Improved, but It Should Be Reported as a Material Weakness 
Due to Limited Resources and Control Weaknesses (2005).
---------------------------------------------------------------------------
    For example, the IRS paid the PRIME contractor to develop a system 
that tracked the activity of users on modernized systems. What is 
troubling is that the IRS accepted this system in late 2002 despite 
knowing that the system could not be used for the purpose for which it 
was designed.\12\ Software vulnerabilities and performance issues 
rendered it basically useless for identifying unauthorized accesses to 
IRS systems. After more than two years, the IRS still has not completed 
corrective actions to address these weaknesses and ensure that 
monitoring of user activity occurs on the modernized systems currently 
operating.
---------------------------------------------------------------------------
    \12\ Treasury Inspector General for Tax Administration, Ref. No. 
2004-20-135 The Audit Trail System for Detecting Improper Activities on 
Modernized Systems Is Not Functioning (2004).
---------------------------------------------------------------------------
    Additionally, while security roles and responsibilities have been 
defined, significant security weaknesses exist throughout the IRS 
because IRS employees with key security responsibilities are not 
fulfilling their duties. For example, TIGTA has identified 
vulnerabilities on the network and in sensitive systems across the 
IRS.\13\ IRS employees have not consistently assessed and accredited 
the security controls present on their systems. The IRS has initiated 
actions to improve the training of its key security employees, and we 
will continue to monitor whether employees receive proper training in 
this complex area.
---------------------------------------------------------------------------
    \13\ These vulnerabilities are discussed in further detail in 
limited official use audit reports provided to the IRS. See Treasury 
Inspector General for Tax Administration, supra note 10.
---------------------------------------------------------------------------
    Although electronic access controls can help prevent some security 
breaches, it is also critical to ensure employees are aware of their 
individual security responsibilities to protect taxpayer data from 
unauthorized access. When TIGTA auditors posing as IRS Information 
Technology employees recently called IRS employees and managers, 35 
percent of them were willing to provide their user account names and 
change their passwords as requested.\14\ With an employee's user 
account name and password, a hacker could gain access to IRS systems, 
though the IRS' strong systemic perimeter controls lessen this risk. 
Even more significant, a disgruntled employee could use the same social 
engineering tactics and obtain another employee's username and 
password. With some knowledge of IRS systems and applications, this 
disgruntled employee could more easily gain unauthorized access to IRS 
data as well as damage information on IRS systems.
---------------------------------------------------------------------------
    \14\ Treasury Inspector General for Tax Administration, Ref. No. 
2005-20-042, While Progress Has Been Made, Managers and Employees Are 
Still Susceptible to Social Engineering Techniques (2005).
---------------------------------------------------------------------------
    Although many steps have been taken to limit risks, IRS systems and 
taxpayer information remain susceptible to threats that could impact 
the confidentiality, integrity, and availability of data and 
information systems.
                     business systems modernization
    Modernizing the IRS' computer systems has been a persistent 
challenge for many years and will likely remain a challenge for the 
foreseeable future. The latest effort to modernize the IRS' systems, 
the Business Systems Modernization (BSM) program, began in FY 1999.\15\ 
The purpose of the BSM program is to modernize the IRS' technology and 
related business processes. The BSM program is a complex effort which 
will involve integrating thousands of hardware and software components. 
All of this must be done while replacing outdated technology and 
continuing tax administration.
---------------------------------------------------------------------------
    \15\ Prior to the BSM program, the IRS initiated the Tax Systems 
Modernization (TSM) program. The purpose of TSM was the same as the 
purpose of BSM: to modernize the IRS' technology and related business 
processes. The TSM program, however, encountered management and 
technical weaknesses. After spending over $3 billion on TSM, the 
program was abandoned and the BSM program was initiated.
---------------------------------------------------------------------------
    This effort will be lengthy and costly. It is estimated to last up 
to 15 years, and the IRS will incur PRIME contract costs over $8 
billion. The program is in its seventh year and has been allocated 
approximately $1.9 billion in funding for contractor activities. The 
IRS has further supported the modernization effort by funding the 
Business Systems Modernization Office (BSMO) with $213 million since FY 
1999.
Key projects have made significant progress during the past year
    Working with its contractors, the IRS has deployed projects that 
provide value to taxpayers and has built the infrastructure needed to 
support these projects. Two BSM projects have been deployed and 
delivered value to taxpayers in the past year: the Customer Account 
Data Engine (CADE) and the Modernized e-File (MeF) project. The CADE 
project is the foundation for managing taxpayer accounts in the IRS 
modernization plan.\16\ Once completed, CADE will consist of databases 
and related applications to replace the IRS' existing Master File 
processing systems.\17\ In July 2004, the IRS delivered CADE Release 
1.1 which successfully processed refund and even-balance Forms 1040EZ 
\18\ for single taxpayers with no pending tax issues. CADE Release 1.2 
incorporated the tax law changes for the 2005 filing season and started 
processing the same type of tax returns in January 2005. It has 
processed over 1 million tax returns during the 2005 filing season.
---------------------------------------------------------------------------
    \16\ In conjunction with other applications, the CADE will 
eventually allow employees to post transactions and update taxpayer 
account and return data online from their desks. Updates will be 
immediately available to any employee who accesses the data and will 
provide a complete, timely, and accurate account of taxpayer 
information. In contrast, the current Master File processing system can 
take up to two weeks to update tax accounts, and IRS employees may need 
to access several computer systems to gather all relevant information 
related to tax accounts.
    \17\ The Master File is the IRS database that stores various types 
of taxpayer account information. This database includes individual, 
business, and employee plans and exempt organizations data.
    \18\ Form 1040EZ is the income tax return used by some single and 
joint filers with no dependents. The initial release of the CADE does 
not process Forms 1040EZ for joint filers.
---------------------------------------------------------------------------
    The MeF project involves developing a modernized, web-based 
platform for electronically filing approximately 330 different IRS 
forms. The MeF deployed three releases from February 2004 to January 
2005, which allow for the electronic filing of over 100 different tax 
forms, including forms filed by corporations and exempt organizations.
    In addition, the IRS and its contractors issued the first release 
of the Integrated Financial System (IFS), which provides new 
capabilities for internal use. The IFS was developed to address 
administrative financial management weaknesses in IRS accounting 
systems. The first release of the IFS became fully operational in 
January 2005, and included accounts payable, accounts receivable, 
general ledger, budget execution, cost management, and financial 
reporting activities. A future IFS release was planned to include 
property, performance, and procurement management, but work was 
suspended in early 2005 due to budget constraints. Without this future 
release, the IRS will be unable to fully address a material weakness in 
its accounting systems.
Budget reductions have resulted in decreased development activities
    During FY 2004, the IRS scaled back development activities because 
of reduced appropriations. The available budget caused the IRS to limit 
its development activity to focus primarily on the CADE, MeF, and the 
Filing and Payment Compliance (F&PC) \19\ projects. For example, the 
schedule for the CADE project has been revised several times to 
accommodate development delays and uncertainty in program direction. 
The refocus of the CADE project impacts related modernization activity 
such as the Customer Account Management (CAM) project.\20\ The CAM 
project is intended to improve customer service by providing more 
accurate and timely account maintenance and analysis. The uncertainty 
of CADE's development, along with reductions in available funding, 
affect when CAM can be developed. Without an application such as CAM, 
CADE can only act as a system to process tax returns that require no 
account adjustments.
---------------------------------------------------------------------------
    \19\ The F&PC project was intended to provide support for 
detecting, scoring, and working nonfiler cases (filing compliance) and 
delinquency cases (payment compliance). The first release of the F&PC 
project is called the Private Debt Collection project. The IRS 
completed the planning phases for the Filing and Payment Compliance 
project in 2002, but suspended the project due to concerns with costs. 
In FY 2004, the portion of this project designed to support private 
debt collection was restarted.
    \20\ The CAM project is intended to provide improved technology and 
business processes to provide account and tax law assistance, manage 
case workflow, and support other modernization efforts by providing 
access to comprehensive, timely, and accurate taxpayer account 
information.
---------------------------------------------------------------------------
    In addition, the budget reduction prompted the IRS to suspend 
further development of the IFS project and cancel the Custodial 
Accounting Project (CAP). Canceling CAP made the initial releases 
unusable for its intended purpose of performing accounting work. The 
IRS has indicated it will leverage the work products and knowledge 
gained from CAP in other modernization initiatives. While leveraging 
may produce some residual benefits, a significant portion of the $135 
million spent on CAP will result in unrecoverable costs.\21\
---------------------------------------------------------------------------
    \21\ The IRS reported that the data models developed for CAP can be 
used on the CADE project, and the CAP analysis and requirements can be 
used as the basis for a new system.
---------------------------------------------------------------------------
Weaknesses remain in certain areas of BSM program management
    TIGTA has also identified weaknesses in the BSMO, which is 
responsible for the overall management of the BSM program. These 
weaknesses are in the following areas: requirements management, 
contract management, software testing, and security controls. To 
address issues in requirements management, the IRS established a 
Requirements Management Office in January 2005. The Office is 
responsible for developing processes and procedures to effectively 
create and manage project requirements. Weaknesses in contract 
management have resulted from the BSMO failing to consistently use 
contract provisions and negotiations that would protect the best 
interest of the Federal Government.\22\ In the area of software 
testing, the BSMO needs to clearly define testing procedures,\23\ 
improve testing practices,\24\ and ensure that software is tested prior 
to system deployment.\25\ Finally, the BSMO needs to place additional 
emphasis on security controls in the design of information systems.\26\
---------------------------------------------------------------------------
    \22\ For example, contract award justifications did not always 
provide adequate detail for not using firm fixed-price contract 
provisions. Contracting provisions that could balance risk between the 
IRS and the contractor were used inconsistently. Additionally, 
consistent application of best practices could further improve the 
contract negotiations process. Treasury Inspector General for Tax 
Administration, Draft, Audit No. 200420002, While Many Improvements 
Have Been Made, Continued Focus Is Needed to Improve Contract 
Negotiations and Fully Realize the Potential of Performance-Based 
Contracting (2005).
    \23\ Treasury Inspector General for Tax Administration, Ref. No. 
2004-20-157, The Office of Release Management Can Improve Controls for 
Modernization Program Coordination (2004).
    \24\ Treasury Inspector General for Tax Administration, Ref. No. 
2004-20-147, the Integrated Financial System Project Team Needs to 
Resolve Transition Planning and Testing Issues to Increase the Chances 
of a Successful Deployment (2004).
    \25\ Treasury Inspector General for Tax Administration, Ref. No. 
2005-20-019, System Requirements Were Not Adequately Managed During the 
Testing of the Custodial Accounting Project (2004).
    \26\ Draft audit report has not yet been issued.
---------------------------------------------------------------------------
Cost increases and schedule delays continue
    Since the start of the modernization effort, the BSM program has 
experienced cost overruns and schedule delays in its project 
development and deployment. In early 2005, the IRS reported project 
deliveries were within budget and schedule estimates for projects 
delivered since August 2004. This assessment was based on cost and 
schedule estimates that the IRS revised in May 2004.
    Our analysis of the re-baselined project deliveries confirms the 
IRS' assessment that project releases were generally within budget and 
on schedule. However, our comparison of the May 2004 and February 2005 
IRS BSM expenditure plan estimates shows significant project cost and 
schedule increases for several ongoing projects, such as MeF and F&PC.
The division of responsibilities between the IRS and the PRIME 
        contractor
    In February 2004, Commissioner Everson testified that the IRS would 
carefully assess the PRIME contractor's performance on current 
projects. The Commissioner would consider the results of the PRIME 
contractor's overall program management and integration efforts before 
awarding additional work.
    In January 2005, the IRS began assuming the role of systems 
integrator from the PRIME contractor due to reductions in funding and 
concerns about the adequacy of the PRIME contractor's performance. In 
the IRS' new operating model as the systems integrator, the IRS will 
now be responsible for program-level activities such as:
    <bullet> Systems integration;
    <bullet> Business requirements management and validation;
    <bullet> Procurement administration;
    <bullet> Engineering; and,
    <bullet> Architecture.
    Skills needed to perform these responsibilities have been an issue 
of concern. Specialized skill positions, such as systems architects and 
engineers, have been difficult to fill. The assumption of the 
integrator role by the IRS is recognized in the BSM program as part of 
its highest priority needs.
    TIGTA has found that the BSM program has begun to assign the role 
of systems integrator to parties other than the PRIME contractor. For 
example, the BSMO acted as the integrator for the MeF project, and the 
Northrop Grumman Corporation served as the integrator for CAP before it 
was cancelled. The PRIME contractor's new primary function is to 
deliver projects and to provide support services to the IRS. On new 
projects, the PRIME contractor will compete for the contracts with 
other contractors. The effective management of contractor performance 
and accountability will become even more important and difficult for 
the IRS as it now functions as the systems integrator for all 
contractors.
Previously reported challenges still exist
    During the past three fiscal years, our annual BSM program 
assessments \27\ have cited four primary challenges the IRS and its 
contractors must meet to achieve program success:
---------------------------------------------------------------------------
    \27\ The annual BSM program assessments are required by RRA 98.
---------------------------------------------------------------------------
    1) Implement planned improvements in key management processes and 
commit necessary resources to enable success;
    2) Manage the increasing complexity and risks of the BSM program;
    3) Maintain the continuity of strategic direction with experienced 
leadership; and,
    4) Ensure contractor performance and accountability are effectively 
managed.
    While the IRS has taken steps to address these areas, continued 
attention by management will be required for the IRS to succeed with 
its modernization activities. The GAO has also recognized the need for 
continued management attention and has included the modernization 
program as a high-risk area in its 2005 High-Risk Report,\28\ as it has 
since 1995.\29\
---------------------------------------------------------------------------
    \28\ Government Accountability Office, Pub. No. GAO-05-207, High-
Risk Series (2005).
    \29\ It is worth noting that GAO also identified the Tax Systems 
Modernization program, which preceded the BSM program, as a high-risk 
area.
---------------------------------------------------------------------------
    Commissioner Everson testified in April 2005 that the IRS 
substantially met its 2004 plans for the BSM program based on the 
delivery of the planned CADE, MeF, e-Services,\30\ and IFS project 
releases. Although these releases were operational on or close to 
revised cost estimates and delivery dates, they exceeded original cost 
estimates and delivery dates and did not provide all intended systems 
capabilities. We remain cautious about declaring success based on 
results achieved in 2004 due to our historical perspective of the 
modernization effort and our familiarity with the persistent 
modernization challenges facing the IRS.
---------------------------------------------------------------------------
    \30\ The e-Services project focuses on changing the way taxpayers 
transact and communicate with the IRS. This web-based project expands 
the existing third-party tools and data collection processes.
---------------------------------------------------------------------------
                            customer service
    To assist taxpayers in complying with the complex tax code, the IRS 
offers assistance through its toll-free telephone system, walk-in 
services, and written and electronic communications, including the IRS 
Web site: www.IRS.gov. The effectiveness of each of these services 
influences a taxpayer's ability and desire to comply voluntarily with 
tax laws.
    RRA 98 mandated that the IRS be more responsive to customer needs. 
Since the passage of RRA 98, the IRS' focus on customer service has led 
to many improvements. Individual taxpayer satisfaction rates with the 
IRS have increased since the law's passage, rising from 51 to 64 
percent between 1999 and 2004.\31\ The ability of taxpayers to contact 
the IRS via telephone has improved, and customer service at the 
Taxpayer Assistance Centers (TACs) has shown progress.\32\
---------------------------------------------------------------------------
    \31\ American Customer Satisfaction Index, ``ACSI Overall Federal 
Government Scores with Historic Scores of Agencies Measured 1999-
2004,'' December 14, 2004.
    \32\ Taxpayer Assistance Centers are walk-in sites where taxpayers 
can get answers to both account and tax law questions and receive 
assistance with return preparation. We audited the accuracy of tax law 
answers given to taxpayers at these Centers and determined that the 
accuracy rate had increased from 54 to 67 percent from January 2002 to 
April 2004. Treasury Inspector General for Tax Administration, Ref. No. 
2004-30-038, Access to the Toll-Free Telephone System Was Significantly 
Improved in 2003, but Additional Enhancements Are Needed (2004); 
Treasury Inspector General for Tax Administration, Ref. No. 2005-40-
021, Customer Service at the Taxpayer Assistance Centers Is Improving 
But Is Still Not Meeting Expectations (2004).
---------------------------------------------------------------------------
    The IRS internet site, www.IRS.gov, is an excellent source for 
forms, publications, and other guidance, and taxpayers visited the site 
over 139 million times last year. The site also received an award for 
being the nation's most reliable government internet site.\33\ 
Electronic filing of tax returns is continuing to grow, and the ability 
to check the status of tax refunds online has been a successful IRS 
project that is helpful to taxpayers.\34\
---------------------------------------------------------------------------
    \33\ Internal Revenue Service, IRS.gov Cited As Most Reliable 
Government Web Site, IR-2004-131, available at http://www.irs.gov/
newsroom/article/0,,id=130492,00.html (last visited May 10, 2005).
    \34\ Internal Revenue Service, Free File Tops Last Year's Total, 
IR-2005-36, available at http://www.irs.gov/newsroom/article/
0,,id=137055,00.html (last visited May 10, 2005).
---------------------------------------------------------------------------
    The following chart shows the customer service goals established by 
the IRS and the actual results in each area as measured by the IRS and 
TIGTA.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Although the IRS is striving to reach its goals in the customer 
service area, I am concerned about plans to reduce customer service in 
order to provide more funding for enforcement initiatives. The IRS 
recently announced plans to close a significant percentage of the TACs, 
which are the sites that provide face-to-face services to taxpayers. As 
part of a planned audit, we will review the methodology used by the IRS 
to determine which TACs to close. At this point, I am skeptical that 
the IRS has adequate data to assess the impact that closing these 
centers will have on customer service. I am also concerned that the IRS 
has insufficient data to draw conclusions on the likelihood that 
taxpayers, who have used these centers in the past, will be able to use 
other methods of seeking help, such as the internet or telephone. I 
strongly recommend that the IRS further research these issues before 
closing selected TACs.
    Additionally, the IRS has decided to cancel the Telefile project. 
In 2003, TIGTA recommended that the IRS explore other opportunities to 
expand--not cancel--the Telefile program.\45\ We continue to believe 
the Telefile program provides services to millions of taxpayers and is 
worth pursuing. However, the IRS has decided to discontinue the 
Telefile program after the 2005 filing season citing as reasons high 
costs, low demand, and the increased availability of e-filing options. 
If the IRS follows through with its decision to discontinue the 
Telefile program, it should at least develop a strategy to accommodate 
Telefilers who are unable to e-file.
---------------------------------------------------------------------------
    \45\ Treasury Inspector General for Tax Administration, Ref. No. 
2003-40-092, Opportunities Exist to Expand the Telefile Program (2003).
---------------------------------------------------------------------------
                             filing season
    In addition to providing customer service to American taxpayers, 
the IRS must coordinate tax law changes, programs, activities, and 
resources to effectively plan and manage each filing season. The tax 
return filing season impacts every American taxpayer and its success 
affects the entire Federal Government.
    I am pleased to report that the 2005 Filing Season has gone well, 
and TIGTA has identified no major problems. As of April 29, 2005, the 
IRS had received approximately 121.1 million individual income tax 
returns with over 66 million filed electronically, an increase of 
nearly 11 percent compared to the same period last year. Additionally, 
88 million refunds had been issued, averaging $2,127 per return. Of the 
total refunds, 50 million were issued using the direct deposit option.
    Our audit work for the 2005 filing season is currently in progress, 
but preliminary results indicate that most tax forms and publications 
were accurately updated to reflect tax law changes. TIGTA found some 
errors, however, in publications regarding the calculation of the child 
tax credit for certain military personnel.\46\
---------------------------------------------------------------------------
    \46\ Treasury Inspector General for Tax Administration, Draft, 
Audit No. 200440047, Forms, Publications, and Computer Programming 
Requests Were Adequately Addressed and Updated in Most Instances for 
the 2005 Filing Season (2005).
---------------------------------------------------------------------------
    The IRS, though, continues to struggle to ensure certain tax law 
provisions have been accurately implemented.\47\ For example, during 
the 2004 filing season, the IRS did not recover $21 million in 
overpayments of advanced child tax credits. Additionally, approximately 
$152 million in advanced child tax credits remained unclaimed by 
taxpayers. Taxpayers also continued to receive erroneous deductions for 
student loan interest and were inappropriately allowed both education 
credits and deductions for tuition and fees. As a result, over $3.3 
million in taxes was not paid. These same issues continued in the 2005 
filing season.
---------------------------------------------------------------------------
    \47\ Treasury Inspector General for Tax Administration, Ref. No. 
2005-40-016, The 2004 Filing Season Was Completed Timely and 
Accurately, but Some Tax Law Changes Have Not Been Effectively 
Implemented (2004).
---------------------------------------------------------------------------
    Another issue that the IRS has not effectively addressed is 
ensuring the appropriate handling of accounts of taxpayers with combat 
zone indicators.\48\ Over 58 percent of the taxpayers with an active 
combat zone indicator were incorrectly coded (i.e., the taxpayers were 
no longer serving in a combat zone). This allows taxpayers to receive 
special tax treatment to which they are no longer entitled, such as the 
ability to file late, not be audited, and have collection action 
suspended.
---------------------------------------------------------------------------
    \48\ Treasury Inspector General for Tax Administration, Ref. No. 
2005-40-077, Taxpayers Identified As Serving in Combat Zones Were 
Properly Afforded Tax Benefits, but Account Identification and 
Maintenance Processes Need Improvement (2005).
---------------------------------------------------------------------------
    The IRS was also not identifying and correcting errors that were 
created when attempting to update the tax accounts of military service 
members who had entered or exited a Combat Zone. These errors could 
occur for various reasons, such as missing information or mismatches 
between names or Social Security Numbers. As a result, taxpayers who 
are serving in a Combat Zone may not have indicators on their accounts 
and would be at risk of not getting the Combat Zone benefits they 
deserve. The IRS did not keep records of errors resulting from 
mismatches or missing information, which prevented TIGTA from 
determining the extent of this condition. TIGTA has reported these 
findings to the IRS and will continue to monitor whether this and other 
filing season recommendations have been implemented.
              the irs restructuring and reform act of 1998
    RRA 98 included significant structural changes in management and 
oversight of the IRS, as well as provisions to strengthen and enhance 
the rights of taxpayers. Since the enactment of RRA 98, TIGTA has 
performed a series of audits to determine the IRS' progress in 
implementing and ensuring compliance with these provisions. The law 
requires TIGTA to review 10 taxpayer rights provisions, as well as two 
other taxpayer rights provisions from prior legislation. TIGTA is 
currently assessing the IRS' compliance with these provisions for the 
seventh consecutive year. Our most recent audit results on these 
taxpayer rights provisions are as follows:
    <bullet> Notice of levy--RRA 98 requires the IRS to notify 
taxpayers at least 30 days before initiating any levy action to give 
taxpayers an opportunity to formally appeal the proposed levy. Prior 
TIGTA reports have recognized that the IRS has implemented tighter 
controls over the issuance of systemically generated levies. Our 
testing of these controls indicates that they continue to function 
effectively.
    However, revenue officers sometimes issue to taxpayers levies that 
are not systemically generated. In 5 of 40 cases reviewed, we 
determined that revenue officers seized taxpayer assets using manual 
levies without notifying taxpayers of their appeal rights. Without 
notification of their appeal rights, taxpayers may not be aware that 
they are entitled to a hearing or other due process safeguards. Not 
offering appeal rights to taxpayers prior to issuing levies is a 
potential section 1203 violation of RRA 98 and could result in the 
revenue officer being terminated for misconduct.\49\ We recommended 
that the IRS require managers to review and approve all manual levies 
prepared by revenue officers in order to ensure taxpayers are properly 
advised of their appeal rights.\50\
---------------------------------------------------------------------------
    \49\ TIGTA's Office of Investigations is evaluating these cases.
    \50\ Treasury Inspector General for Tax Administration, Ref. No. 
2004-30-094, Additional Efforts Are Needed to Ensure Taxpayer Rights 
Are Protected When Manual Levies Are Issued (2004).
---------------------------------------------------------------------------
    <bullet> Restrictions on the use of enforcement statistics to 
evaluate employees--Section 1204(a) of RRA 98 prohibits the IRS from 
using tax enforcement results to evaluate employees or to impose or 
suggest production quotas or goals. Section 1204(b) requires employees 
to be evaluated using the fair and equitable treatment of taxpayers as 
a performance standard. Section 1204(c) requires supervisors to certify 
quarterly whether tax enforcement results were used in a prohibited 
manner. TIGTA is required to evaluate annually the IRS' compliance with 
section 1204.\51\
---------------------------------------------------------------------------
    \51\ See 26 U.S.C. Sec. 7803(d)(1) (2005).
---------------------------------------------------------------------------
    Our review of performance and supervisory documentation for 75 
enforcement employees found the IRS in compliance with sections 1204(a) 
and (b). In addition, a review of a statistical sample of 43 
supervisors' certifications indicated that the IRS was in compliance 
with section 1204(c).\52\
---------------------------------------------------------------------------
    \52\ Treasury Inspector General for Tax Administration, ref. no. 
2004-40-066, fiscal year 2004 statutory audit of compliance with legal 
guidelines restricting the use of records of tax enforcement results 
(2004).
---------------------------------------------------------------------------
     <bullet> Notice of lien--The IRS attempts to collect Federal taxes 
from taxpayers by sending letters, making telephone calls, and meeting 
face-to-face with taxpayers. When initial contacts by the IRS do not 
result in the successful collection of unpaid taxes, the IRS has the 
authority to attach a claim to the taxpayer's assets for the amount of 
unpaid tax liabilities.\53\ The IRS files a Notice of Federal Tax Lien 
(NFTL), which notifies the public that a lien exists. Since January 19, 
1999, section 6320 of the Internal Revenue Code has required the IRS to 
notify taxpayers in writing within five business days of filing an 
NFTL.
---------------------------------------------------------------------------
    \53\ See 26 U.S.C. Sec. 6321 (2005).
---------------------------------------------------------------------------
     We determined the IRS did not completely comply with the law. A 
statistically valid sample of 150 NFTLs identified 7 NFTLs (4.7 
percent) for which the IRS did not mail lien notices within five 
business days. In addition, we could not determine if the IRS complied 
with the law for 35 NFTLs (23.3 percent) because it could not provide 
proof of timely mailing. Finally, in 11 of the 150 NFTLs reviewed (7.3 
percent), the IRS did not follow its own internal guidelines when 
issuing lien notices, including the guidelines for notifying taxpayer 
representatives and resending notices when they are returned as 
undeliverable.\54\
---------------------------------------------------------------------------
    \54\ Treasury Inspector General for Tax Administration, draft, 
audit no. 200430026, fiscal year 2005 statutory review of compliance 
with lien due process procedures (2005).
---------------------------------------------------------------------------
     <bullet> Seizures--To ensure taxpayers' rights are protected, RRA 
98 amended the property seizure provisions in sections 6330 through 
6344 of the Internal Revenue Code. Our review of a random sample of 50 
of 375 seizures conducted between July 1, 2003, and June 30, 2004, 
determined that the IRS did not comply with all legal and internal 
guidelines when conducting seizures. We identified 17 instances in 12 
seizures in which the IRS did not fully comply with the law. For 
example, in seven instances all required forms relating to the sales of 
seized property were not provided to taxpayers, and in two instances 
proceeds resulting from seizures were not properly applied to taxpayer 
accounts. Although the instances we identified were technical in nature 
and did not adversely affect the taxpayers involved, not following 
legal and internal guidelines could result in abuses of taxpayer 
rights.\55\
---------------------------------------------------------------------------
    \55\ Treasury Inspector General for Tax Administration, draft, 
audit no. 200430025, FY 2005 review of compliance with legal guidelines 
when conducting seizures of taxpayers' property (2005).
---------------------------------------------------------------------------
     <bullet> Illegal Tax Protestor (ITP) designations--Section 3707 of 
RRA 98 prohibits the IRS from referring to taxpayers as ITPs or any 
similar designations. The IRS has not reintroduced past ITP 
designations on the Master File, and formerly coded ITP taxpayer 
accounts have not been assigned similar Master File designations. In 
addition, the IRS does not have any current publications with ITP 
references and has initiated actions to remove ITP references from the 
various forms of the Internal Revenue Manual.\56\
---------------------------------------------------------------------------
    \56\ The Internal Revenue Manual is the single official source for 
IRS policies, directives, guidelines, procedures and delegations of 
authority in the IRS.
---------------------------------------------------------------------------
     However, in 309 isolated instances, IRS employees continued to 
make references to taxpayers as ITPs and other similar designations in 
case narratives.\57\ TIGTA raised this issue in our FY 2003 report; 
however, the IRS disagreed with our determination that compliance with 
this provision prohibits IRS employees from using such designations in 
case narratives.\58\
---------------------------------------------------------------------------
    \57\ Draft audit report has not yet been issued.
    \58\ Treasury Inspector General for Tax Administration, ref. no. 
2003-40-098, fiscal year 2003 statutory audit of compliance with legal 
guidelines prohibiting the use of illegal tax protester and similar 
designations (2003).
---------------------------------------------------------------------------
     <bullet> Assessment statute of limitations--The IRS is required to 
advise taxpayers of their rights when the IRS requests an extension of 
the statute of limitations on the assessment of additional tax and 
penalties. TIGTA found that 21 percent of the case files reviewed did 
not contain any documentation to support that taxpayers had been 
advised of their rights. In instances in which taxpayers filed a joint 
tax return, 47 percent of the case files did not contain any 
documentation that each taxpayer listed on the tax return was 
separately informed of his or her rights (i.e., dual notification). In 
addition, when a taxpayer made a declaration of representation, 40 
percent of the case files did not contain any documentation that the 
IRS provided both the taxpayers and their representatives with the 
advisement of rights. Also, current consent forms do not provide an 
explanation of taxpayer rights to limit or refuse to extend the statute 
of limitations.
    Although the IRS has revised its internal procedures over the last 
few years to help enhance controls, our reviews continue to identify 
instances in which there is no documentation that taxpayers were 
advised of their rights. Therefore, TIGTA recommended that the Deputy 
Commissioner for Services and Enforcement revise the various consent 
forms to include a statement that taxpayers have been informed of their 
rights regarding assessment statute extensions and have been provided a 
copy of Extending the Tax Assessment Period (Publication 1035).\59\
---------------------------------------------------------------------------
    \59\ Treasury Inspector General for Tax Administration, ref. no. 
2004-40-108, fiscal year 2004 statutory audit of compliance with 
notifying taxpayers of their rights when requested to extend the 
assessment statute (2004).
---------------------------------------------------------------------------
    <bullet> Denials of requests for information under the Freedom of 
Information Act (FOIA)--Under section 1102(d)(3)(A) of RRA 98, TIGTA is 
required to conduct periodic audits of IRS denials of taxpayer requests 
to disclose information on the basis of Internal Revenue Code section 
6103 and/or FOIA exemption (b)(7).\60\ In 7.1 percent (6 of 84) of the 
FOIA and Privacy Act \61\ cases sampled, the IRS improperly withheld 
information from requestors. This represents a higher percentage of 
improper withholdings than reported in FY 2004, where only 4.4 percent 
of the requests were improperly handled.\62\
---------------------------------------------------------------------------
    \60\ 5 U.S.C. Sec. 552(b)(7) (2005).
    \61\ 5 U.S.C. Sec. 552a (2005).
    \62\ Treasury Inspector General for Tax Administration, ref. no. 
2004-40-064, improvements are needed to ensure compliance with the 
freedom of information act (2004).
---------------------------------------------------------------------------
    In addition, the IRS improperly withheld tax return information 
from requestors in 3.1 percent of the Internal Revenue Code section 
6103 cases sampled. This represents a significantly lower percentage of 
improper withholdings than the 14.6 percent we reported last year. The 
percentage of untimely responses to FOIA and Privacy Act requestors 
also decreased significantly to 13.1 percent of the cases, as compared 
with percentages in previous years' audits ranging from 20 to 43 
percent.\63\
---------------------------------------------------------------------------
    \63\ Treasury Inspector General for Tax Administration, draft, 
audit no. 200410032, some improvements have been made to better comply 
with freedom of information act requirements (2004).
---------------------------------------------------------------------------
    <bullet> Collection due process--The Appeals Officers and 
Settlement Officers (hearing officers) substantially complied with the 
requirements of the law when conducting Collection Due Process 
hearings. The hearing officers verified that the IRS followed 
applicable laws or administrative procedures during the lien and levy 
process. They determined if the proposed collection actions properly 
balanced the need for efficient collection of taxes with any legitimate 
taxpayer concerns. In addition, the hearing officers followed appeals 
procedures by including information, such as the court in which 
taxpayers must file requests for judicial review, any relief given to 
taxpayers, and any subsequent actions to be taken by the IRS and the 
taxpayer.\64\
---------------------------------------------------------------------------
    \64\ Treasury Inspector General for Tax Administration, ref. no. 
2004-40-067, appeals complied with the provisions of the law for the 
collection due process (2004).
---------------------------------------------------------------------------
    <bullet> Section 1203 allegations--Section 1203 of RRA 98 provides 
the IRS Commissioner with the authority to terminate the employment of 
IRS employees for committing certain violations in connection with the 
performance of their official duties. The IRS Commissioner also has the 
sole authority to determine whether mitigating factors exist that weigh 
against termination.
    TIGTA's Office of Investigations is responsible for the initial 
investigation of most section 1203 allegations. These include 
allegations related to employee false statements under oath, 
harassment, falsification or destruction of documents, assault or 
battery of a taxpayer, or threat of examination of a taxpayer for 
personal gain.
    The IRS' process for handling section 1203 allegations ensured that 
they were referred for action and management responses were accounted 
for and addressed. The IRS properly controlled referred allegations and 
reports of investigation. In addition, the IRS and the section 1203 
Review Board adequately controlled 141 cases forwarded to the Board for 
final determination during the 15-month period ending March 31, 2004.
    While reviewing case processing, we identified 198 cases as of 
March 31, 2004, that were open for over 180 calendar days without 
resolution. The IRS Labor Relations Office performed informal monthly 
reviews of cases over 180 calendar days old, but did not document their 
follow-up activities or reasons for the delay in the case histories. We 
identified some cases where no activity was noted or explanation given 
for the delay in resolving cases that were over 180 days old. In such 
cases, management oversight is needed to ensure more timely resolution 
of section 1203 cases to eliminate unnecessary stress to employees when 
cases are needlessly delayed.\65\
---------------------------------------------------------------------------
    \65\ Treasury Inspector General for Tax Administration, ref. no. 
2004-40-176, restructuring and reform act of 1998 section 1203 
allegations were properly controlled (2004).
---------------------------------------------------------------------------
    Neither TIGTA nor the IRS could consistently or accurately evaluate 
the IRS' compliance with the following three provisions since IRS 
information systems are inadequate to track such cases:
    <bullet> Restrictions on directly contacting taxpayers and their 
authorized representatives; \66\
---------------------------------------------------------------------------
    \66\ Treasury Inspector General for Tax Administration, ref. no. 
2005-40-040, fiscal year 2005 statutory review of restrictions on 
directly contacting taxpayers (2005).
---------------------------------------------------------------------------
    <bullet> Requirements for the disclosure of collection activity 
with respect to joint returns; \67\ and,
---------------------------------------------------------------------------
    \67\ Treasury Inspector General for Tax Administration, ref. no. 
2005-40-041, fiscal year 2005 statutory review of disclosure of 
collection activity with respect to joint returns (2005).
---------------------------------------------------------------------------
    <bullet> Fair Debt Collection Practices Act (FDCPA) violations.\68\
---------------------------------------------------------------------------
    \68\ The IRS tracks potential FDCPA violations, but TIGTA cannot be 
certain that all violations are tracked. Treasury Inspector General for 
Tax administration, ref. no. 2005-10-051, there were no administrative 
or civil actions with respect to violations of fair tax collection 
practices in calendar year 2004 (2005).
---------------------------------------------------------------------------
Recommended changes to RRA 98
    As Inspector General, I have a duty to ensure that TIGTA's 
resources are effectively allocated to the highest priority, mission-
critical work. Along those lines, I would like to take this opportunity 
to note that Congress should review certain requirements established by 
RRA 98 with the possibility of updating it to reflect changes in the 
IRS environment since the law was passed. The following areas in RRA 98 
are among those I believe are appropriate for such consideration based 
on TIGTA's collective experience gathered from the last seven years of 
performing these audits and investigations.
    First, I recommend changing the annual reporting requirement for 
evaluating the IRS' compliance with various matters to a biennial 
requirement.\69\ After auditing the same areas for the last seven 
years, it has become apparent that, due to the frequency of these 
audits, there is little change in TIGTA's findings from one year to the 
next. The IRS does not have sufficient time to implement corrective 
action before the next audit begins. Biennial reporting would provide a 
more meaningful picture of the IRS' progress in meeting congressional 
expectations.
---------------------------------------------------------------------------
    \69\ TIGTA is currently required to report each year on the IRS' 
compliance with the law in the following areas: (1) notice of levy; (2) 
restrictions on the use of enforcement statistics to evaluate 
employees; (3) notice of lien; (4) seizures; (5) Illegal Tax Protestor 
designations; (6) extensions of the assessment statute of limitations; 
(7) denials of requests for information under the Freedom of 
Information Act; (8) collection due process; (9) section 1203 
allegations; (10) restrictions on directly contacting taxpayers instead 
of authorized representatives; (11) requirements for disclosing 
collection activity related to joint returns; and, (12) violations of 
the Fair Debt Collection Practices Act.
---------------------------------------------------------------------------
    Second, RRA 98 requires that TIGTA report on (1) the IRS' 
compliance with restrictions on directly contacting taxpayers and their 
authorized representatives; \70\ (2) the IRS' compliance with 
provisions regarding the disclosure of information to an individual 
filing a joint return on collection activity involving the other 
individual filing the return; \71\ and, (3) administrative or civil 
actions with respect to violations of the fair debt collection 
provisions.\72\ While I recognize the public interest that could be 
served by these requirements, TIGTA cannot conduct substantive audit 
work because IRS systems do not capture the appropriate data. In the 
third category, fair debt collection, our audit work of incomplete data 
has identified only minor and limited issues. Additionally, RRA 98 
created requirements that TIGTA report data on allegations and 
complaints that are received by TIGTA and the IRS.\73\ Although TIGTA 
has attempted to comply with these requirements, we cannot control the 
IRS' activities and data collection. These mandatory reporting 
requirements should be eliminated in favor of discretionary reviews.
---------------------------------------------------------------------------
    \70\ 26 U.S.C. Sec. 7803(d)(1)(A)(ii).
    \71\ 26 U.S.C. Sec. 7803(d)(1)(B).
    \72\ 26 U.S.C. Sec. 7803(d)(1)(G).
    \73\ 26 U.S.C. Sec. 7803(d)(2).
---------------------------------------------------------------------------
    Third, I strongly urge the Congress to consider reinstating the 
authority of TIGTA to protect IRS employees from individuals who 
threaten their safety as they work to administer the tax laws. TIGTA's 
predecessor, the IRS Inspection Service, had primary responsibility for 
providing armed escorts for IRS employees working in potentially 
dangerous situations. The Inspector General Act of 1978,\74\ as amended 
by RRA 98, provides that TIGTA ``shall be responsible for protecting 
the Internal Revenue Service against external attempts to corrupt or 
threaten employees of the Internal Revenue Service, but shall not be 
responsible for . . . the providing of physical security.'' \75\ TIGTA 
is not seeking to provide routine security of IRS buildings (i.e., 
guard services) nor is it proposing to take on program operating 
responsibilities. Instead, TIGTA would provide protection to individual 
IRS employees who encounter potentially dangerous taxpayers (PDTs) when 
executing their official duties to enable the IRS to fulfill its tax 
administration responsibilities. TIGTA's provision of armed escort 
services falls seamlessly in line with the unique mission that Congress 
gave TIGTA--to protect IRS employees against external threats.
---------------------------------------------------------------------------
    \74\ 5 U.S.C. app. 3 (2005).
    \75\ 5 U.S.C. app. 3 Sec. 8D(k)(1)(C).
---------------------------------------------------------------------------
    With the IRS Commissioner's commitment to expand IRS examination 
and collection activities, TIGTA expects an increased need for armed 
escorts of IRS personnel who work in potentially dangerous 
environments. The responsibility for conducting armed escorts currently 
lies with the IRS Criminal Investigation (CI) function. In preliminary 
discussions, IRS CI has expressed an interest in having the 
responsibility for conducting armed escorts that involve PDTs 
transferred to TIGTA. Thus, it would be efficient and effective to 
expand TIGTA's statutory protection duties to include the authority to 
provide armed escorts to IRS employees.
    Lastly, subsections 1203(b)(3) and (6) of RRA 98 should be amended 
to prevent IRS employees from using this law to file baseless or 
frivolous complaints against other IRS employees. In general, section 
1203(b) of RRA 98 delineates the causes for termination of IRS 
employees who commit one of the offenses described. From our 
experience, IRS employees are misusing section 1203(b) to assert 
baseless or retaliatory complaints against IRS managers or fellow IRS 
employees. TIGTA wants to divert the resources currently allocated to 
addressing these complaints to more important law enforcement efforts. 
Outside of section 1203(b), IRS employees with complaints against other 
IRS employees have various methods of recourse including the equal 
employment opportunity complaint process and other personnel support 
resources. This proposal does not include circumscribing the authority 
of TIGTA to investigate assault or battery allegations between IRS 
employees contained in section 1203(b)(5).
    TIGTA recommends that subsections 1203(b)(3) and (6) be amended so 
that IRS employees may no longer invoke them against other IRS 
employees. Those subsections, however, would still be available to 
taxpayers and taxpayers' representatives for complaints against IRS 
employees.
    Mr. Chairman and Members of the Joint Review, I appreciate the 
opportunity to share with you today several significant challenges that 
confront the IRS. TIGTA will continue its efforts to provide reliable 
and objective assessments of the IRS' progress in addressing the 
security and modernization of its systems, balancing enforcement and 
customer service, handling the workload of the filing season, and 
addressing the issues raised by RRA 98. Additionally, TIGTA will 
continue to investigate employee misconduct and external threats that 
jeopardize the integrity, efficiency, and effectiveness of the nation's 
tax administration system.

    Representative Ramstad. Mr. Wagner.

 STATEMENT OF RAYMOND T. WAGNER, JR., CHAIRMAN, IRS OVERSIGHT 
                             BOARD

    Mr. Wagner. Thank you, Mr. Chairman, for this opportunity 
to present the views of the Oversight Board on the Service's 
progress toward meeting the letter and the spirit of RRA 98. I 
also want to thank and commend you and the members of the joint 
review for holding this hearing.
    As a prelude to my remarks, I would like to take a moment 
to invite you to envision how a tax administration system would 
work in an ideal world:
    With such a system, taxpayers fully understand their tax 
obligations. Burdens on taxpayers are low, filing is efficient 
and easy and enforcement is swift, certain and professional. 
And voluntary compliance is high. In short, taxpayers would 
find compliance easy to achieve and difficult to avoid.
    If this describes the ideal state, what is the strategy for 
achieving it?
    Seven years since the passage of RRA 98 is a logical time 
to ask the question we frequently hear when we are on a 
journey, Are we there yet? Well, the answer here is, Not yet.
    But we can get there. And one of the most important ways is 
to use a road map. A strategic plan is that road map.
    The current plan developed by the IRS and approved by the 
Oversight Board has three goals: to improve taxpayer service, 
to enhance enforcement of the tax laws, and to modernize the 
IRS through its people, processes and technology. The IRS must 
pursue those goals with rigor and discipline and must stay 
balanced between customer service and enforcement. Clearly, 
both are necessary if high levels of compliance are to be 
achieved.
    I can illustrate this by restating Commissioner Everson's 
equation of ``service plus enforcement equals compliance'' in 
other terms--``prevention plus correction equals compliance.''
    Taxpayer service is prevention, per se. Preventing taxpayer 
errors is usually cheaper and less painful than correcting 
them. Enforcement corrects problems by applying appropriate 
actions to noncompliant taxpayers. It can be painful to the 
taxpayer. Looking at the equation in these terms provides 
greater insight into the importance of service.
    The board is increasingly concerned that cutbacks in 
customer service functions and modernization resources will 
have a negative impact upon the IRS's ability to deliver 
quality services to taxpayers and improve overall taxpayer 
compliance. My written statement provides several examples of 
possible service cuts that are of concern.
    The board has no authority to make tax policy 
recommendations. Yet I would be sadly remiss not to mention the 
corrosive effect that Tax Code complexity has on enforcement 
and in closing the tax gap. The board fully supports the 
President's Federal advisory panel to simplify the Tax Code. 
Simplification of the Tax Code will be the greatest boost of 
all for both service and enforcement.
    Modernizing computer systems through the BSM program is one 
of the strategic plan's goals. The IRS's once deeply troubled 
BSM program has experienced better performance in 2004. We 
believe it is time to give that program another shot in the arm 
and to fully fund that program for the upcoming year.
    Both GAO and TIGTA have reported on the cost overruns and 
the delays the BSM program has experienced. One cost you won't 
hear about, however, is the cost to taxpayers by delaying the 
benefits of a modernized IRS.
    Let me add that individual taxpayers spend approximately 
$84 billion a year complying with the Tax Code. IRS 
modernization does more than save the IRS money. It makes 
taxpayers efficient as well. Online banking has revolutionized 
the banking industry and helps taxpayers manage savings and 
checking accounts, apply for loans and pay bills. IRS 
modernization can do the same for taxpayers. If a modernized 
IRS makes taxpayers only 5 percent more efficient, that would 
save taxpayers over $4 billion per year.
    Improving its human capital is an important part of the IRS 
strategic plan. The board believes that human capital is the 
IRS's greatest resource and strength and one of its greatest 
challenges. The IRS possesses an extremely talented and 
dedicated workforce that produces very high-quality work. 
However, the workforce cannot be taken for granted. It must be 
carefully selected, trained and given the tools it needs to 
meet the demands of tax administration. The board expressed 
concerns regarding the IRS's lack of a strategic approach to 
human capital.
    Mr. Chairman, in my opening remarks I described the ideal 
world of tax administration. If we are to make informed 
management decisions, we need to establish some meaningful, but 
achievable, measures for a realistic world. The work of 
Congress would be facilitated if there existed long-range 
measures for effective tax administration that were widely 
accepted as representing a desirable, but realistic tax 
administration system.
    The last topic I would like to address is the budget. My 
written statement describes the board's budget recommendations 
for 2006. The appropriations process has not been able to fund 
the IRS at levels that many people in tax administration, 
including the board, believe is necessary. It is time to step 
back and look at this with a strategic perspective. The board 
recommends that Congress take a hard look at the procedures it 
uses to appropriate IRS funding. My statement shows how 
investing in the IRS is money well spent.
    I see that my time has run out, so I will conclude my 
statement to say, Mr. Chairman, the board strongly believes 
that our Nation can ill afford to return to the days when the 
IRS fluctuated between customer service and enforcement. Our 
goal must to be create a tax administration system where 
compliance is easy to achieve, but difficult to avoid.
    The IRS has been on the right track and making progress 
toward that ultimate goal. We must now give them the tools, 
guidance and resources to finish the job.
    Thank you, Mr. Chairman. And I would be happy to answer any 
questions.
    Representative Ramstad. Thank you, Mr. Wagner.
    Just a reminder that all the witnesses statements will 
appear in the record in toto. Thank you again, Mr. Wagner.
    [The statement of Mr. Wagner follows:]

 Written Testimony of Raymond T. Wagner, Jr., Chairman, IRS Oversight 
                                 Board

                        introduction and summary
    Thank you, Mr. Chairman for this opportunity to present the views 
of the IRS Oversight Board on the current state of our tax 
administration system and the Internal Revenue Service's progress in 
meeting the letter and spirit of the IRS Restructuring and Reform Act 
of 1998 (RRA 98). I also want to thank and commend you and the members 
of the Joint Review for your continued leadership, expertise and 
oversight of the IRS. It is greatly appreciated.
    As a prelude to my remarks, I would like to take a minute and 
invite you to envision how a tax administration system would work in an 
ideal world. With such a system, we would find:
    <bullet> Taxpayers fully understand their tax obligations
    <bullet> Burden on taxpayers is low
    <bullet> Filing is efficient and easy
    <bullet> Enforcement is swift, certain and professional
    <bullet> Level of voluntary compliance is high
    In short, taxpayers would find compliance easy to achieve and 
difficult to avoid.
    It is now seven years since the passage of RRA 98. It is a logical 
time to ask that question we frequently hear when we are on a journey: 
Are we there yet? The answer is: not yet. But we can get there using a 
roadmap.
    The IRS Strategic Plan is that roadmap. The current Strategic Plan 
was developed by the IRS and approved by the Oversight board in 2004. 
It establishes three goals for the IRS:
    <bullet> Improve Taxpayer Service
    <bullet> Enhance Enforcement of the Tax Law
    <bullet> Modernize the IRS through its People, Processes and 
Technology
    The IRS' first Strategic Plan in the post-RRA 98 era, approved by 
the Board in 2001, set the agency's direction. And during the past 
seven years, the IRS has achieved significant gains on a number of 
important fronts, although the pace of improvement has been frustrating 
at times, especially to taxpayers. The quality of telephone service has 
greatly improved, helping taxpayers navigate and comply with an 
extremely complex tax code. The IRS now estimates that more than half 
of individual taxpayers will file their returns electronically in 2005 
and millions are using the IRS web site to download forms, get 
information on their tax law questions and track the status of their 
refunds.
    The IRS' computer modernization program met its cost and schedule 
milestones in 2004, and the first taxpayers have finally been moved off 
the old tape-based system to a modern reliable database. Although the 
agency's enforcement effort had been suffering from a declining 
resource base, the IRS was able in FY 2004 to increase its enforcement 
resources and showed an impressive gain in enforcement revenue.
    Enforcement activities increased substantially in 2004, with a 40 
percent jump in audits of high-income taxpayers, doubling the number of 
audits from four years ago. Audits of large businesses also increased. 
And in a major victory against those who participated in a particularly 
abusive tax shelter known as ``Son of Boss,'' the IRS offered a very 
favorable settlement for the government and collected about $3.2 
billion so far in back taxes, interest, and penalties from over 1,100 
taxpayers.
    What is important about this improved performance is that progress 
has been made in both the service and enforcement functions of the IRS' 
mission--something the Oversight Board has advocated since its 
inception. The results achieved clearly demonstrate that it is possible 
to reach the desired balance.
    However, the IRS still confronts a number of challenges, not the 
least of which is closing the estimated $300 billion plus tax gap. As 
Senate Finance Committee Chairman Charles Grassley said last month, 
``[T]he tax gap--like a loaf of bread--is made up of many different 
slices. We need to understand each one better and look at several ways 
to address them. But let me make it clear, we will work to address the 
tax gap--we owe nothing less to the millions of honest working families 
who find tax day the toughest day of the year. It is absolutely wrong 
that families have to tighten their belts and find new ways to keep the 
family budget balanced because others are not paying their fair 
share.''\1\
---------------------------------------------------------------------------
    \1\ Senate Finance Committee Chairman Charles Grassley, Opening 
Statement before the Senate Finance Committee, April 14, 2005.
---------------------------------------------------------------------------
    Other challenges confront the agency. First, although the initial 
results produced by the National Research Program are to be applauded, 
the IRS still needs to get a better handle on understanding 
noncompliance, particularly underreporting. Second, as I will discuss 
in greater detail in my testimony, the IRS is making significant cuts 
in customer service, such as the forthcoming closure of a number of 
Taxpayer Assistance Centers. The Board is concerned that the IRS has 
not fully estimated the potential impact of such reductions on 
taxpayers--the overwhelming majority of whom want to comply with the 
tax code but need help doing so. Third, despite the Board's 
recommendation in its previous annual report, the IRS has not yet 
addressed its near- and long-term human capital issues ranging from 
employee training to a potential wave of retirements beginning next 
year.
    The IRS Strategic Plan is the vehicle by which the IRS will meet 
these challenges. The IRS would greatly benefit from setting outcome 
measures to gauge progress in achieving its goals. They could have an 
energizing effect on the agency, improve accountability, help measure 
progress, and in turn, assist Congress and the Administration in making 
informed budget decisions.
    Lastly, to achieve the goals established in the Strategic Plan, the 
IRS needs a realistic budget that not only funds customer service, 
enforcement and Business Systems Modernization but which provides for 
the anticipated expenses the agency will incur, such as 
congressionally-mandated pay raises, inflation and rent increases.
                             ensure balance
    Many of the IRS' well-publicized problems can be traced to shifts 
between customer service and enforcement. Often compared to a swinging 
pendulum, the IRS would focus almost exclusively on one part of its 
mission to the detriment of the other.
    Achieving a balance between customer service and enforcement has 
become the IRS' greatest challenge. Indeed, the problems that led to 
the enactment of RRA 98 were due in part to a zealous over-reliance on 
enforcement dollars at the expense of taxpayer service. RRA 98 
specifically addresses this problem by stating, ``The IRS shall review 
and restate its mission to place a greater emphasis on serving the 
public and meeting taxpayers' needs.'' \2\ Only with the passage of RRA 
98 has there been the recognition that both service and enforcement 
must be provided.
---------------------------------------------------------------------------
    \2\ P.L. 105-206, Title I, Section 1002.
---------------------------------------------------------------------------
    RRA 98 called upon the IRS to provide both quality customer service 
and fair enforcement. The Board has consistently stated that to be 
truly successful, and compatible with the spirit of RRA 98, the IRS had 
to succeed in all parts of its mission. It could no longer be an 
either/or proposition. This insistence on balance is also at the core 
of the IRS strategic plan and Commissioner Everson's formula, 
``customer service plus enforcement equals compliance.'' The balanced 
approach is also shared by many others in the larger tax community.
    At the Board's 2005 annual public meeting, the American Institute 
of Certified Public Accountants observed: ``Commissioner Everson 
recognizes that any increase in enforcement funding must be balanced 
with positive responses to the taxpaying public as customers. We 
encourage this type of balanced approach and stand ready to work with 
the Service to ensure the needs of America's taxpayers are fulfilled.'' 
\3\
---------------------------------------------------------------------------
    \3\ American Institute of Certified Public Accountants, Statement 
to the Internal Revenue Service Oversight Board Public Meeting, 
February 1, 2005.
---------------------------------------------------------------------------
    These sentiments were also embraced by the Treasury Inspector 
General for Tax Administration Russell George, who said, ``Enhancing 
enforcement while improving customer service is the proper direction 
for the IRS,'' and the National Taxpayer Advocate who argued that 
``taxpayer service and enforcement activities work hand in hand to 
promote high levels of compliance.'' \4\
---------------------------------------------------------------------------
    \4\ National Taxpayer Advocate Nina M. Olson, Testimony before the 
Senate Finance Committee, April 14, 2005.
---------------------------------------------------------------------------
    More than just a strategy or an equation, the balanced approach to 
tax administration is producing positive results that the Board 
believes should be further encouraged. As previously noted, the IRS has 
made considerable strides in improving customer service since the 
passage of RRA 98 and these improvements are reflected in taxpayer 
satisfaction surveys such as the American Customer Satisfaction Index 
(ASCI). In 2004, the overall customer satisfaction score of individual 
tax filers increased by almost two percent, showing a steady increase 
since 1999.\5\
---------------------------------------------------------------------------
    \5\ American Customer Satisfaction Index, ``ACSI Overall Federal 
Government Scores with Historic Scores of Agencies Measured 1999-
2004'', December 15, 2005.
---------------------------------------------------------------------------
    However, now that the tax gap has taken center stage, there is the 
temptation to fall back on old habits, say customer service is fixed 
and direct all resources to enforcing the tax laws. It's the considered 
opinion of the Board, that this new slant would represent a major 
setback to achieving RRA 98's goals. We should stay the course set by 
the balanced approach.
    The Board's concerns in this regard are shared by Members of 
Congress, taxpayers and practitioners. At the April 14th Senate Finance 
Committee hearing on closing the tax gap, Ranking Member Baucus 
observed:
    ``But I want to offer a word of caution to the administration and 
to Commissioner Everson. The IRS cannot close the Tax Gap simply by 
increasing enforcement. Issuing more liens. Conducting more seizures. 
Levying more bank accounts.
    ``We do need targeted, appropriate enforcement. If, however, the 
IRS lets taxpayer service slide--If the IRS diminishes the access and 
accuracy of taxpayer service--including the essential need for face-to-
face taxpayer service--then we fail to help taxpayers comply with the 
law on the front end. Ensuring up front quality is more efficient than 
back end enforcement.'' \6\
---------------------------------------------------------------------------
    \6\ Senate Finance Committee Ranking Member Max Baucus, Opening 
Statement before the Senate Finance Committee, April 14, 2004.
---------------------------------------------------------------------------
    At the Board's 2005 public meeting, the National Association of 
Enrolled Agents made a statement in a similar vein:
    ``NAEA supported the creation of the [IRS Oversight Board] as a 
defense against the tendency of policymakers to swing wildly between 
two extremes: funding taxpayer service to the exclusion of funding 
compliance programs on the one hand, and funding compliance programs to 
the exclusion of funding taxpayer service on the other. At the end of 
the day, both of these objectives must be adequately funded for the 
system to work correctly.'' \7\
---------------------------------------------------------------------------
    \7\ National Association of Enrolled Agents, Statement to the 
Internal Revenue Service Oversight Board Public Meeting, February 1, 
2005.
---------------------------------------------------------------------------
    Taxpayers have also taken notice and want a balanced system too. 
Almost two out of three participating in the Board's 2004 taxpayer 
attitude survey supported additional IRS funding for enforcement (62 
percent) and taxpayer assistance (64 percent).\8\
---------------------------------------------------------------------------
    \8\ Internal Revenue Service Oversight Board, Annual Taxpayer 
Attitude Survey, April 2005.
---------------------------------------------------------------------------
    Mr. Chairman, the long-term health of our tax administration system 
must be our overarching goal. To succeed in meeting that goal the IRS 
must meet the needs of all parts of its strategic plan and critical 
mission on behalf of America's taxpayers--not just one or the other. We 
must have balance; we must have quality customer service and effective 
enforcement to achieve real compliance.
                       closing the compliance gap
    The aforementioned Senate Finance Committee hearing, ``The $350 
Billion Question: How to Solve the Tax Gap'' highlighted the growing 
seriousness of the tax gap problem and the IRS' difficulty in closing 
it. David M. Walker, Comptroller General of the United States, 
testified that in spite of the recent turnaround in staffing and some 
enforcement results, ``IRS's recent compliance estimate indicates that 
compliance levels have not improved and may be worse than it originally 
estimated.'' \9\ Indeed, the problem is so severe that ``Tax Law 
Enforcement'' has been placed on General Accounting Office (GAO)'s 
``high-risk'' list.
---------------------------------------------------------------------------
    \9\ Comptroller General of the United States David M. Walker, 
Testimony before the Senate Finance Committee, GAO-05-527T, April 14, 
2005.
---------------------------------------------------------------------------
    The IRS National Research Program (NRP) recently completely its 
assessment of individual taxpayer compliance for 2001 and came up with 
the tax gap estimate--actually a range of $312-353 billion. 
Underreporting noncompliance, e.g., understated income, improper 
deductions, overstated expenses and erroneously claimed credits, 
represents the largest component of the tax gap--between $250-292 
billion, or more than 80 percent.\10\ However, as the GAO noted, it is 
important to get behind the NRP methodology to get a true picture of 
the tax gap:
---------------------------------------------------------------------------
    \10\ IRS Fact Sheet
---------------------------------------------------------------------------
    ``[F]or some areas of the tax gap, the estimate relies on outdated 
data and methodologies, including data from the 1970s and 1980s used to 
estimate corporate income tax underreporting and some employment tax 
underreporting. IRS does not have firm plans for obtaining more 
contemporary information on compliance for these areas of the tax gap 
or again measuring individual income reporting compliance.'' \11\
---------------------------------------------------------------------------
    \11\ Walker, op. cit.
---------------------------------------------------------------------------
    Given these challenges, the Board applauds the IRS for the progress 
it has made in some specific enforcement areas, such as correspondence 
examinations and the 40 percent increase last year of audits of high-
income individuals. Working in conjunction with the Department of 
Justice, the agency has also won some important victories in high-
profile abusive tax shelter cases. Additionally, last May the IRS made 
a settlement offer regarding a particularly abusive tax shelter known 
as ``Son of Boss,'' and to date, $3.2 billion in taxes, interest and 
penalties have been collected from the more than 1,100 taxpayers who 
participated in the offer. The number of criminal prosecutions is also 
up, but still fall short of pre-1998 levels.
    In 2004, legislation was enacted allowing the IRS to use private 
collection agencies (PCAs) to augments its collection efforts. However, 
expectations should be tempered regarding the PCA initiative; only 10 
percent of the tax gap is due to underpayment. Let me also note, Mr. 
Chairman that the Oversight Board, GAO and Treasury Inspector General 
for Tax Administration (TIGTA) have recently agreed to meet quarterly 
to bring a common perspective to the oversight of the PCA program.
    However, in spite of these successes, it is clear that current IRS 
enforcement efforts are insufficient to close the tax gap in any 
meaningful way. They simply will not provide the breakthrough that is 
required; much more is needed across the board.
    The Board concurs that a multi-pronged effort must be taken to 
shrink the tax gap. In addition to providing additional enforcement 
resources, which I will discuss in the budget section of my testimony, 
other actions can and must be taken.
    The Board believes that while the NRP assessment was a good start; 
it was just that--a start. The Board shares the National Taxpayer 
Advocate's concern that much more and better research is needed. Ms. 
Olson stated that the IRS should be conducting extensive research now 
to develop a ``long-term and sustained strategy for reducing the tax 
gap. This strategy must focus on the indirect effects as well as the 
direct effects of IRS initiatives.'' \12\
---------------------------------------------------------------------------
    \12\ Olson, op. cit.
---------------------------------------------------------------------------
    The need for better data to measure the tax gap and the 
effectiveness of enforcement actions was also voiced by the Treasury 
Inspector General for Tax Administration J. Russell George. At the 
Senate Finance Committee hearing, he made a compelling case:
    ``Although better data will help the IRS identify non-compliant 
segments of the population, broader strategies and better research are 
also needed to determine what actions are most effective in addressing 
non-compliance . . . [I]n two recent audit reports, TIGTA identified 
examination programs that the IRS implemented nationwide before 
obtaining results on their possible effectiveness or before 
implementing an effective strategy to measure the results of the 
program.''
    ``The IRS must continue to obtain accurate measures of the various 
components of the tax gap and the effectiveness of actions taken to 
reduce it. The information is critical to the IRS for strategic 
direction, budgeting and staff allocation. The Department of Treasury 
also needs these measures for tax policy purposes. Additionally, the 
Congress needs this information to develop legislation that improves 
the effectiveness of the tax system.'' \13\
---------------------------------------------------------------------------
    \13\ Treasury Inspector General for Tax Administration Russell 
George, Testimony before the Senate Finance Committee, April 14, 2005.
---------------------------------------------------------------------------
    The Board is in full agreement with this assessment as we are with 
TIGTA's recommendation that delays in Business Systems Modernization 
(BSM) must be addressed. In addition to helping provide quality 
customer service to taxpayers, modernizing IRS' antiquated computer 
systems will give IRS enforcement personnel the tools they need. For 
example, the Filing and Payment Compliance project will help the 
Private Collection Agency initiative.
    Although the Board has no authority to make tax policy 
recommendations, I would be sadly remiss not to mention the corrosive 
effect that tax code complexity has on enforcement and closing the tax 
gap. The complex tax code frustrates honest taxpayers who are trying to 
comply with the law while proving opportunities for those who exploit 
its complexities to devise sophisticated and hard-to-detect illegal tax 
avoidance schemes.
    The Chief of Staff of the Joint Committee on Taxation George Yin 
made the following well-reasoned argument for simplification at the tax 
gap hearing:
    ``Much has been written about the benefits of simplification. In 
terms of ways to reduce the tax gap, I believe that simplification 
ranks as the most important. Complex laws spawn many inadvertent errors 
as well as opportunities for intentional non-compliance. Complex laws 
also contribute to taxpayer confusion and real or perceived unfairness 
in the tax system. Studies have shown that taxpayers are less likely to 
be compliant if they perceive the system to be inequitable.'' \14\
---------------------------------------------------------------------------
    \14\ Joint Committee on Taxation Chief of Staff George K. Yin, 
Testimony before the Senate Finance Committee, April 14, 2005.
---------------------------------------------------------------------------
    There are other detrimental consequences stemming from a complex 
tax code: IRS' enforcement workload has grown both in sheer numbers and 
complexity because of the code. According to a TIGTA analysis, in FY 
2004, hours spent per return on examinations were up 23 percent for 
individual tax returns and 19 percent for corporate returns over the 
previous year.\15\ Indeed, as we peel away the layers of many of the 
IRS' problems--from resources to customer service to enforcement--we 
often find tax code complexity at their core.
---------------------------------------------------------------------------
    \15\ George, op. cit.
---------------------------------------------------------------------------
    In this regard, the Board fully supports the President's federal 
advisory panel to simplify the tax code. In addition to reducing 
taxpayers' burdens, simplifying the tax code would be the greatest 
boost of all for both service and enforcement. It is an essential part 
of any broad strategy for closing the tax gap.
                       stabilize customer service
    Since the issuance of the IRS Restructuring Commission Report and 
the passage the following year of RRA 98, the IRS has achieved tangible 
gains in customer service. In 2005, the agency turned in yet another 
successful filing season.
    Taxpayers can now get through on the IRS toll-free telephone lines 
and the accuracy and quality of the responses to their tax law and 
account questions have remained steady and at reasonable levels. 
Taxpayers are also afforded a number of self-serve options over the 
telephone and the IRS' web site that help reduce the burden of filing 
and paying their taxes. There were almost twice as many visits to 
IRS.gov this filing season than last, and more than five million 
taxpayers took advantage of the innovative Free File program--a more 
than 40 percent increase from the same period last year.
    Taxpayers recognize and value the services the IRS provides to help 
them understand and comply with the complex and ever changing tax code. 
The 2004 IRS Oversight Board Tax Compliance Study found that ``the most 
heavily relied upon source of tax information and advice are IRS 
representatives (82 percent see them as very/somewhat valuable), and 
IRS printed publications such as brochures (82 percent) and the IRS web 
site (77 percent). The only non-IRS provided information source that is 
nearly as highly rated is a paid tax professional (81 percent). 
Further, more than 90% of those surveyed said that IRS customer service 
is either very or somewhat important to them.\16\
---------------------------------------------------------------------------
    \16\ Internal Revenue Service Oversight Board, Annual Taxpayer 
Attitude Study, April 2005.
---------------------------------------------------------------------------
    However, the Board notes that in spite of these improvements, IRS 
customer service is still not on a par with private sector financial 
services organizations. IRS customer service is still a work in 
progress, and complacency is our worst enemy. At a recent hearing of 
the House Ways and Means Subcommittee on Oversight on the 2004 filing 
season and proposed FY2006 IRS budget, Government Accountability Office 
Director, Strategic Issues James R. White noted that there were 
``slippages in telephone access such as more abandoned calls and longer 
wait times.'' \17\ Walk-in assistance has proven to be particularly 
helpful for many taxpayers who do not have access to computers and the 
Internet, or prefer one-on-one personal assistance. Yet, according to 
Treasury Inspector General for Tax Administration Russell George, 
service levels at these sites have improved, but are still not meeting 
expectations.\18\
---------------------------------------------------------------------------
    \17\ Government Accountability Office Director, Strategic Issues 
James R. White, Testimony before the House Ways and Means Subcommittee 
on Oversight, GAO-05-416T, April 7, 2005.
    \18\ Treasury Inspector General for Tax Administration J. George 
Russell, Testimony before the House Ways and Means Subcommittee on 
Oversight, GAO-05-416T, April 7, 2005.
---------------------------------------------------------------------------
    It is against this backdrop that the Board raises its concern that 
reductions in customer service and modernization resources in the 
proposed FY2006 IRS budget will have a negative impact on the IRS' 
ability to delivery quality service to taxpayers and improve overall 
taxpayer compliance. The cuts are troubling for a number of reasons.
    The IRS has already announced that it will end its TeleFile 
service, used by almost four million taxpayers. The Board is concerned 
that these taxpayers will return to paper filing. Tax return and tax 
account transcripts provided by Taxpayer Assistance Centers (TACs) must 
now be requested by phone or mail, which requires a two-week waiting 
period. These transcripts are often needed urgently by those applying 
for mortgages or other loans. This change in procedure burdens 
taxpayers and is counter to the IRS commitment to provide excellent 
customer service.
    Other possible customer service cuts include:
    <bullet> Closing a large number of Taxpayer Assistance Centers, 
which in total serve 7.5 million taxpayers each year, many of them 
elderly and lower-income taxpayers and those with limited or no English 
proficiency;
    <bullet> Reducing hours on the IRS' toll-free lines; and
    <bullet> Providing fewer paper versions of forms and publications, 
further burdening lower-income taxpayers who do not have ready access 
to the Internet.
    These proposed reductions in customer service are raising concerns 
throughout the tax community. The GAO warned at the Ways and Means 
Oversight Subcommittee hearing that ``the risk, as IRS shifts its 
priorities toward enforcement, is that some of the gains in the quality 
of taxpayer service could be surrendered.'' \19\
---------------------------------------------------------------------------
    \19\ Ibid.
---------------------------------------------------------------------------
    And while these real and potential reductions may not signal a 
return to the days of hundreds of millions busy signals and completely 
unacceptable levels of customer service, they are certainly a step in 
the wrong direction. And as we increasingly learn, quality customer 
service is not an end in itself but an essential part of that balance 
of customer service and enforcement that leads to compliance.
    Ways and Means Oversight Subcommittee Chairman Ramstad correctly 
observed that ``retaining the good will of American taxpayers by 
providing professional service and detailed guidance on how to comply 
with the law are critical to sustaining voluntary compliance.'' \20\ 
The GAO Comptroller General David M. Walker testified at the Senate 
Finance Committee hearing that ``providing quality service to taxpayers 
is an important part of any overall strategy to improve compliance and 
thereby reduce the tax gap.'' \21\ And TIGTA expressed similar views at 
the Senate hearing:
---------------------------------------------------------------------------
    \20\ Chairman Jim Ramstad, Opening Statement before the House Ways 
and Means Subcommittee on Oversight, April 7, 2005.
    \21\ Walker, op. cit.
---------------------------------------------------------------------------
    ``The IRS must exercise great care not to emphasize enforcement at 
the expense of taxpayer rights and customer service. I believe that 
steps to reduce the current level of customer service should be taken 
only with the utmost thought and consideration of their impact, and 
only with all the necessary data to support these actions. Customer 
service goals must be met and even improved upon, or people will lose 
confidence in the IRS' ability to meet part of its mission of providing 
America's taxpayers quality service by helping them understand and meet 
their tax responsibilities.'' \22\
---------------------------------------------------------------------------
    \22\ George, op. cit.
---------------------------------------------------------------------------
    Indeed, as previously noted, the IRS has not provided the 
information we need to measure the short-term impact of these 
reductions on taxpayers. In the absence of such research, the Board 
urges that no precipitous actions be taken that could threaten the hard 
won improvements in customer service and further expand the tax gap. 
Moreover, until meaningful and substantive tax simplification is 
enacted into law, taxpayers will need all the help they can get to 
understand the tax code.
                        commit to modernization
    Modernizing its computer systems through the Business Systems 
Modernization (BSM) program is one of the IRS Strategic Plan's goals. 
The IRS' once deeply troubled BSM program has experienced better 
performance in 2004. Due to improved management focus, BSM delivered on 
schedule in 2004 important technology products that will generate 
greater efficiencies throughout the agency and create real benefits in 
both customer service and enforcement.
    For example, the first taxpayers have been moved to a modernized 
reliable data base (Customer Account Data Engine) and corporate 
taxpayers are now able to conduct many of their transactions with the 
IRS electronically (Modernized e-File).
    Future BSM deliverables are also critical to improved customer 
service. As the ACSI scores illustrate, there is still a gap between 
customer satisfaction levels for banks and the IRS. Banks offer daily 
updating of accounts, electronic access by customers to account 
records, and a full range of electronic transactions--options which the 
IRS cannot yet provide. With the help of modern technology, the IRS 
must close this gap if it is to be perceived by taxpayers as having 
services on a par with financial institutions.
    But clearly, the IRS has made real progress in managing BSM. Given 
such progress in 2004, if the IRS can continue to demonstrate 
improvement in 2005, then in 2006 it would seem most desirable and 
logical to increase BSM's funding. BSM funding levels have been 
severely reduced in the last several years. Indeed, BSM funding was 
$388 million in FY2004, $203 million in FY2005, and is now requested at 
$199 million in FY2006.
    The Board strongly believes that cutting back on modernization will 
force the program to take longer and cost more than necessary. Of 
greatest concern is the age of IRS' existing computer systems which 
will eventually become impossible to maintain. As time passes, a 
catastrophic disruption in our nation's tax system becomes more likely.
    Therefore, the Board recommends that the BSM program move forward 
at an accelerated pace. Not only will this allow the IRS to operate 
more efficiently and effectively, it will strengthen the agency's 
efforts to enforce the tax law and improve customer service.
    Both GAO and TIGTA have reported on the cost overruns and delays 
the BSM program has experienced. One cost you won't hear about, 
however, is the cost to the taxpayers of delaying the benefits of a 
modernized IRS.
    Let me offer one concrete example. According to the 
ConsumerAffairs.com web site, in the 2003 tax filing season, an 
estimated 12.1 million taxpayers nationwide obtained Refund 
Anticipation Loans (RALs). Further, the economic burden of RALs falls 
particularly hard on families who can least afford the cost. A report 
by the National Consumer Law Center (NCLC) and the Consumer Federation 
of America (CFA) found that roughly 57 percent of the families who 
purchased RALs in 2003--6.92 million of the 12.1 million--received the 
federal Earned Income Tax Credit (EITC). The EITC provides financial 
assistance to the working poor. Those 6.92 million EITC recipients 
spent a total of $1.74 billion on RAL-related fees, including check-
cashing fees, according to the NCLC and CFA.
    The Customer Account Data Base (CADE), the largest of the BSM 
projects, offers as a benefit the ability of the IRS to issue an 
electronic refund to taxpayers who electronically file in about three 
to five days, which I expect will take a major bite out of the RAL 
business. There will be no need for a RAL if the IRS can issue a refund 
in three days. Even if such a capability reduces the number of RALs by 
only 60 percent, that will still save EITC taxpayers over $1 billion a 
year. So, every year the IRS delays its ability to issue a three-day 
refund to electronic filers costs taxpayers over a billion dollars a 
year.
    Let me offer another taxpayer-focused perspective. Professor Joel 
Slemrod of the University of Michigan testified to the President's 
Panel on Tax Reform that individual taxpayers spend approximately $85 
billion a year complying with the tax code. If a modernized IRS makes 
taxpayers only five percent more efficient, that would still save 
taxpayers over $4 billion a year. That's why it pays to complete BSM as 
quickly as the IRS can manage the program.
                       human capital and training
    Improving its human capital is in the second half of goal three of 
the Strategic Plan. The Board believes that human capital is the IRS' 
greatest resource and strength, and one of its greatest challenges. The 
IRS possesses an extremely talented and dedicated workforce that 
produces very high-quality work in spite of the technological and 
resource limitations previously described. However, such a workforce 
cannot be taken for granted. It must be carefully selected, trained and 
given the skills and tools it needs to meet the demands of tax 
administration in the 21st century. Human capital cannot be an 
afterthought; it must be integrated into any IRS strategic plan.
    As we stated in our 2004 annual report, the Board has serious 
concerns regarding the IRS' lack of a strategic approach to human 
capital. In 2003, the Board recommended that the IRS focus on its 
people resources--specifically on the way that it hires, trains and 
retains employees. We called upon the IRS to develop an agency-wide 
human capital strategic plan that focuses on five key areas:
    1. Replace lost critical talent--The IRS has a ``graying'' 
workforce with 25 percent eligible to retire by 2006. Many of these 
individuals possess critical skills, such as maintaining legacy IT 
systems, and institutional knowledge that could easily be lost.
    2. Build skills for complex work--Tax administration will become 
more complex in the future as demonstrated by the challenges in 
combating abusive tax avoidance transactions that are increasingly more 
sophisticated and harder to detect. Enhanced IT skills will become more 
important in this new environment, such as the use of technology as the 
preferred means of doing business.
    3. Manage change--Even though the IRS customer-focused organization 
is firmly in place, change will continue throughout the agency. The IRS 
is no longer a static organization; new technology and process redesign 
will bring further challenges and greater change, and with it, an 
increased demand for leaders and managers with change management skills 
and experience.
    4. Enhance performance--Given budgetary constraints, the IRS must 
enhance its performance each year to meet greater work demand and 
improved customer service and enforcement goals. Management skills take 
on greater importance in such a high performance, goal-driven 
environment.
    5. Engage the entire workforce--Workforce engagement remains a 
challenge. Surveys indicate that upper management levels of the IRS are 
engaged in its mission and strategic goals; but the same cannot be said 
for front-line managers and rank-and-file employees.
    So far, the IRS has yet to develop an agency-wide human capital 
plan that deals with these five concerns, although some are addressed 
in part in the agency-wide strategic plan.
    Nevertheless, there have been some gains. The Board was pleased to 
see improvements in the IRS' third annual employee satisfaction survey, 
conducted by The Gallup Organization, in which approximately 75 percent 
of the workforce participated.
    According to Gallup, the IRS made ``steady progress increasing 
employee engagement'' from 2001 to 2003. It reported that the 
percentage of employees who saw themselves as being engaged rose from 
21 percent to 31 percent from 2001 to 2003. The ranking of the IRS 
increased from the 34th to the 50th percentile of comparable 
organizations.
    However, these improvements are dwarfed by the remaining 
challenges. Sixty-nine percent of IRS employees are still not engaged 
and the Gallup survey also showed that less than a majority of 
employees (43 percent) can strongly agree that they know what is 
expected of them at work. Greater and more focused attention is needed 
on workforce issues.
Training at the IRS
    At last year's IRS Nationwide Tax Forums and the Board's 2005 
annual open meeting, the Board also heard from stakeholders and dozens 
of agency employees who saw workforce issues as the greatest challenge 
for the agency over the next five years. The lack of adequate training 
was a dominant issue.
    Stakeholders described an expanding training gap at the IRS, where 
employees often lack the expertise and skills to handle difficult, 
complex or problem cases. IRS employees also reported that they were 
inadequately or unevenly trained. Stakeholders added that in the 
operating divisions where employees have helped plan and design 
training programs, employees report higher job satisfaction and 
empowerment.
    The Oversight Board has studied IRS' division training programs and 
determined that there is no clear vision for training across the 
agency, and no real linkage between strategic training planning at the 
national and operating division level, nor is there an agency-wide 
``champion'' for training. Admittedly, reduced budgets have had a 
negative impact on training, such as inconsistent treatment per 
employee across the four operating divisions and the inability to 
provide leadership training and effective management succession across 
the agency. However, TIGTA also recently reported that the IRS' Human 
Resources Investment Fund is so poorly managed that 60 percent of its 
funds were spent on administrative costs while turning away employees 
for lack of money.\23\
---------------------------------------------------------------------------
    \23\ Treasury Inspector General for Tax Administration, Audit 
Report, ``The Human Resources Investment Fund is Not a Cost-Effective 
method of Providing Tuition Assistance, March 2005.
---------------------------------------------------------------------------
    Inadequate training budgets will not allow the IRS to proceed with 
plans for hiring, training, and retaining qualified individuals to 
address the enforcement and customer service needs of the agency. 
Adequate funding for training is critical and will allow the IRS to 
develop and retain a well-trained, well-equipped workforce supported by 
enhanced technologies. The workforce of the future must be prepared to 
deal with not only the approaching gap created by the retirements of 
senior, experienced employees, but also to deal with the increasingly 
complex and abusive tax avoidance schemes that are contributing to the 
growing tax gap.
    The ability of the IRS to realize its long-term vision and goals 
depends upon effective, efficient, well-trained and motivated 
employees. It also depends upon the IRS' ability to implement effective 
measures to assess the impact of training, and to plan and design new 
methods of training that address emerging critical compliance needs.
    Two years after the IRS Oversight Board raised concerns on human 
capital issues, the same problems persist; the IRS has not adequately 
addressed them. The agency has not yet dealt with the reality of an 
aging workforce and has failed to provide clear guidance, direction and 
training for its employees.
    The Board recommends that the IRS develop a strategic human capital 
plan that addresses these issues. Faced with pending retirements, the 
IRS must have a plan in place to refresh its workforce, preserve 
invaluable knowledge, and institute succession planning throughout the 
agency. The IRS must also have a plan to recruit and retain qualified 
personnel, especially future executives from the private sector who can 
bring to bear best practices and new ideas to the challenges and 
opportunities that the 21st Century brings. And lastly, the IRS must 
better train and equip its workforce with necessary skills. The IRS 
will be hard pressed to close the compliance and customer service gaps 
if the training gap is not closed as well.
                        measure long-term goals
    Mr. Chairman, in my opening remarks I described an ideal world of 
tax administration. If we are to make informed management decisions on 
tax administration, we need to establish some meaningful but achievable 
goals for a realistic world. Now that the IRS has made significant 
gains in many areas, it is important that quantifiable long-term goals 
be set to guide our decision-making, especially in seeking to achieve 
the critical balance between service and enforcement.
    I believe that there is a general consensus that the IRS must begin 
to set long-term goals as a way to measure both performance and to help 
the Administration and Congress make informed decisions on resources 
and budgets.
    This imperative was clear throughout this year's congressional 
hearings on the IRS. The Comptroller General David M. Walker testified 
that the IRS ``lacks quantitative long-term goals for improving 
taxpayer compliance, which would be consistent with results oriented 
management.'' \24\ James R. White, GAO's Director, Strategic Issues, 
took another tack: ``IRS is developing, but currently lacks, long-term 
goals that can help them inform stakeholders including the Congress, 
and aid them in assessing performance and making budget decisions.'' 
\25\ As previously noted, TIGTA came to a similar conclusion about the 
value of such goals. Indeed, an agreed-upon set of long term goals 
between the IRS and Congress could not only help the allocation of 
resources but prevent the wild swings in the pendulum between customer 
service and enforcement.
---------------------------------------------------------------------------
    \24\ Walker, op. cit.
    \25\ White, op. cit.
---------------------------------------------------------------------------
    The Board appreciates the difficulty associated with developing 
measures and performance goals. Setting long-term goals requires a high 
level of consultation and consensus building. Achieving agreement among 
Congress, the executive branch, external stakeholders and the public 
will be particularly challenging. Nevertheless, some initial progress 
has been made.
    As discussed in the Board's 2004 annual report, during the FY2005 
budget formulation process, the IRS took the important step of aligning 
performance and requested resources. However, the agency must continue 
to integrate performance into its decision-making and resource 
allocation processes to achieve completely an integrated performance 
budget.
    Further, the IRS modified its budget and performance plans to 
include more customer-focused and ``end result'' measures. The agency 
also implemented the ``Embedded Quality'' program/methodology to gauge 
the accuracy of completed actions. As the IRS expands this program to 
capture even more data, it can better identify and resolve specific 
accuracy problems--thereby, improving the work product and in turn, the 
level of service to taxpayers.
    The work of Congress would be facilitated if there existed a set of 
long-range measures for effective tax administration that were widely 
accepted as representing a desirable but realistic tax administration 
system the country would like to achieve. These goals would set a 
valuable context for making decisions on the proper balance between 
service and enforcement. They would create an environment of 
accountability where everyone who is part of the system--taxpayers, the 
IRS, and decision-makers in the executive and legislative branches--are 
all aware of overall goals and their contributions to goal achievement.
    The Board believes it is imperative to identify the key attributes 
of an effective tax administration system. Such attributes can identify 
desired outcomes and create a road map for the next decade that will 
complement the IRS' strategic, budget and annual performance plans. In 
addition, it could be integrated into the government-wide Key National 
Indicators Initiative whose purpose is to help assess the overall 
position and progress of our nation, frame strategic issues and chart 
future directions.
                           a realistic budget
    The Oversight Board believes there is much to like in President 
Bush's FY2006 budget request for the IRS. First, the Oversight Board 
recognizes and appreciates that at a time when most budgets are being 
tightened, the President is asking for a greater budget increase for 
the IRS than for other non-defense and non-homeland security agencies. 
The Board is encouraged by the request for additional enforcement 
funding and is pleased that the Administration acknowledges that 
investments in IRS enforcement result in increased tax revenue.
    However, the Board recommends even more funding than the President 
has requested; our recommendation builds on the President's budget 
request. The Board calls for $11.6 billion in funding for FY2006, a 
nine percent increase over the Administration's recommendation. A 
comparison of the Board's recommendation and the President's request is 
shown in the following table: \26\
---------------------------------------------------------------------------
    \26\ Internal Revenue Service Oversight Board, FY06 Budget/Special 
Report.

                        Comparison of Administration's Request, IRS Oversight Board's Recommendation, and Enacted Appropriations
                                                                     [In $ millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                               FY2005                                                                       FY2006
--------------------------------------------------------------------------------------------------------------------------------------------------------
                 Administration                        Oversight board               Enacted               Administration            Oversight board
--------------------------------------------------------------------------------------------------------------------------------------------------------
10,674                                                             11,206                    10,233                    10,679                    11,629
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The Board believes that the IRS must begin to close the tax gap 
through greater enforcement. For that reason, we recommend an 
additional $435 million over the President's request for IRS 
enforcement efforts that could easily generate more than a billion and 
a half dollars in additional tax revenue using the Administration's 
return on investment of four-to-one. From its private sector 
perspective, the Board believes it makes perfect sense to make the 
additional investments in enforcement that will pay for themselves many 
times over.
    The Board also recommends additional funding towards stabilizing 
customer service and supporting the BSM program. As I mentioned earlier 
in my testimony, the Board is concerned that proposed reductions in 
customer service and modernization resources in the FY2006 budget 
request will have a negative impact on the IRS' ability to deliver 
quality service to taxpayers, which ultimately, will also have an 
adverse effect on taxpayer compliance.
    Clearly both service and enforcement are necessary if high levels 
of taxpayer compliance are to be achieved. Re-stating Commissioner 
Everson's equation in other terms illustrates this point: Prevention + 
Correction = Compliance.
    Taxpayer service is prevention, and designed to prevent non-
compliance by informing taxpayers of their tax obligations and offering 
assistance in filing accurate returns. Preventing taxpayer errors is 
usually cheaper and less painful than correcting them. Enforcement is 
correction, and is designed to apply appropriate treatments to non-
compliant taxpayers based on the severity and cause of their non-
compliance. Looking at the equation in these terms provides greater 
insight into the importance of service.
    Indeed, Senate Appropriations Subcommittee on Transportation, 
Treasury, the Judiciary, Housing and Urban Development, and Related 
Agencies Chairman Christopher Bond stated at an April 7th hearing that 
he hears almost daily complaints that the tax code has become 
``unmanageable and confusing, resulting in excessive cost and 
administrative burdens that far exceed reasonable tax compliance.'' 
\27\
---------------------------------------------------------------------------
    \27\ Chairman Christopher Bond, Opening Statement before Senate 
Appropriations Subcommittee on Transportation, Treasury, the Judiciary, 
Housing and Urban Development and Related Agencies, April 7, 2005.
---------------------------------------------------------------------------
    Given this environment, the Board asks, ``Shouldn't public policy 
be tilted in favor of assisting taxpayers?'' We recognize that there 
can be a tension between affordability and good public policy. However, 
we must not overlook the overall impact on taxpayers when making 
decisions on federal expenditures.
    For example, the proposed closing of selected TACs, which in total 
served 7.7 million taxpayers in FY2004, will save about $55 million in 
federal expenditures, or about $7 per taxpayer served. The savings may 
seem attractive at first but we should be conscious of the burdens that 
this reduction of service imposes on taxpayers and how it affects tax 
revenues. Therefore, we urge the members of the Joint Review to follow 
the Board's FY2006 budget recommendations for customer service funding.
    We are also aware of the severe limitations that Congress is under 
in appropriating federal monies to worthwhile needs. For example, 
Congress may agree with the Board's budget recommendations, but the 
existing budget evaluation methodology makes it difficult to act on 
these recommendations because enforcement initiatives are considered 
simply as an expense, and are not recognized for the amount of revenue 
that will be raised. For that reason, the Board is pleased to see the 
Administration's recommendation to adjust Appropriations Subcommittees 
302(a) allocations to increase enforcement funding for the IRS.
    However, this recommendation comes with restrictions that could 
limit the additional funding to enforcement functions. Because 
enforcement spending would be set at a fixed amount, the Board is 
concerned that these restrictions could result in unintended 
consequences, such as additional reductions in taxpayer services or 
modernization, should enforcement not be fully funded or unanticipated 
costs arise.
    Rather than dwell on the Board's FY2006 budget recommendations, I 
believe it is more important to recognize the long-term effect of an 
under-funded IRS, as well as the benefits of additional IRS funding. 
The appropriations process has not been able to fund the IRS at all 
levels many people in tax administration, including the Board, but also 
including many IRS stakeholders, believe is necessary. It is time to 
step back and look at the problem from a more strategic perspective.
    The Board recommends that Congress take a hard look at the 
procedures it uses to appropriate IRS funding. Last year, the IRS 
produced enforcement revenue of $43 billion, approximately four times 
the total IRS budget. This year, the Administration in its proposed 
budget recognized that there is a four-to-one direct return on 
investment from IRS enforcement. Any indirect effects on voluntary 
compliance resulting from either customer service or enforcement are in 
addition to those direct effects.
    How can the appropriations process be changed to recognize these 
realities? Let me suggest for your consideration two approaches that 
have been used in the past, one as recently as last year.
    In the late 1990s, Congress set aside approximately $144 million a 
year for five years, outside of the caps on discretionary spending, 
specifically earmarked for Earned Income Tax Credit enforcement. A 
similar approach could be taken again for a broader enforcement 
initiative.
    Last year, in the JOBS bill, Congress authorized the IRS to use 
private collection agencies and authorized the Secretary of the 
Treasury to retain part of the money collected. This was the first time 
I can recall that the revenue stream has been used to pay for IRS 
operations. If this is an acceptable approach, perhaps it could be used 
more broadly. A mere one percent of last year's enforcement revenue of 
$43 billion could pay for an appreciable IRS enforcement effort. 
Alternatively, it could provide adequate funding for the IRS BSM 
program. Controls could be imposed that would still give Congress 
oversight over how the money was to be spent, but it would relieve the 
pressure on the appropriations process that seems to be failing the 
IRS.
    Lastly, I want to raise an issue that the Oversight Board brought 
to the forefront in a special budget report it issued in March 2005. 
The IRS needs a realistic budget that recognizes and provides for the 
anticipated expenses it will incur, such as congressionally-mandated 
pay raises, inflation and rent increases. By not fully funding these 
costs, the IRS will be challenged yet again to make other cuts in 
critical programs to pay for them.
                               conclusion
    Mr. Chairman, in conclusion, the Board strongly believes that our 
nation can ill afford to return to the days when the IRS fluctuated 
between customer service and enforcement. We cannot shift resources to 
pursue those who knowingly avoid taxes while neglecting the needs of 
honest taxpayers attempting to comply with a complex tax code.
    As I previously stated, our goal must be to create a tax 
administration system where taxpayers would find compliance easy to 
achieve, but difficult to avoid. Since the passage of RRA 98, the IRS 
has been on the right track and making progress toward that ultimate 
goal. We must now give them the tools, guidance and resources to finish 
the job. Thank you and I would be happy to answer your questions.

    Representative Ramstad. Ms. Olson, please.

    STATEMENT OF NINA E. OLSON, NATIONAL TAXPAYER ADVOCATE, 
                    INTERNAL REVENUE SERVICE

    Ms. Olson. Mr. Chairman, thank you for inviting me to 
testify today.
    These are challenging times for the IRS. As its 5-year 
strategic plan acknowledges, the IRS must balance the demands 
of an ever-increasing workload with the needs of an 
increasingly diverse taxpayer population that includes a 
widening income, information, and technology gap.
    At the same time, outmoded IRS business systems negatively 
impact customer service, taxpayer rights and IRS business 
results. I provide several detailed examples of business 
systems' impact in my written testimony.
    In meeting these challenges, the IRS is seeking to increase 
its examination, collection and criminal investigation 
presence, which I applaud. But I am concerned that this growth 
in enforcement may come at the expense of our recent progress 
in the quality of our taxpayer service, both within traditional 
taxpayer assistance functions and our enforcement divisions.
    Preliminary results from the National Research Project 
indicate that the overall compliance rate in 2001 was about the 
same as that in 1988, the date of our last Taxpayer Compliance 
Measurement program. During this period, enforcement activities 
declined substantially while taxpayer service significantly 
improved. From 1999 to 2004, one leading study found that 
taxpayer satisfaction with the IRS rose from 51 percent to 64 
percent. Thus, it is entirely possible that robust taxpayer 
service plays as large a role as, if not larger, than robust 
enforcement in achieving a high level of taxpayer compliance 
over time.
    True taxpayer service involves figuring out why taxpayers 
don't comply before determining the appropriate IRS compliance 
action. To date, the IRS has not built this approach into its 
enforcement initiatives or its training of enforcement 
personnel.
    The IRS should create business performance measures that 
track the appropriateness of the enforcement response to the 
reasons for noncompliance. After all, revenue agents and 
revenue officers aren't just in the enforcement business. They 
are actually in the compliance business. A failure to 
understand the reasons why a taxpayer is noncompliant may lead 
to greater short-term enforcement results, but not to a greater 
long-term compliance.
    In meeting the needs of a diverse taxpayer population, the 
IRS's current strategic plan relies heavily on self-service and 
electronic options, and gives short shrift to the real 
information and literacy gap in the United States today. For 
example, the IRS's current approach to closing Taxpayer 
Assistance Centers is based on the assumption that taxpayers 
who need face-to-face services will easily migrate to 
electronic or other self-service products. The IRS 
overestimates taxpayers' ability or willingness to conduct 
complex financial transactions in an electronic or self-service 
format.
    For example, while some in today's society are comfortable 
with banking online, many are not. As I have stated elsewhere, 
the IRS simply does not know what services various parts of our 
population need delivered in a face-to-face environment. Thus, 
the IRS has focused single-mindedly on closing Taxpayer 
Assistance Centers, or TACs, without researching taxpayer needs 
and identifying alternative means of delivering necessary face-
to-face taxpayer service.
    I recommend that Congress require the IRS to conduct a 
comprehensive taxpayer-based needs assessment once every 5 
years to complement an ongoing National Research Program that 
measures taxpayer compliance. With this taxpayer-centric data 
in hand, the IRS would be able to make resource and technology 
application allocations that actually reflect taxpayer needs. 
Without this information, the IRS is making decisions about 
taxpayer service based on its own resource limitations.
    A periodic taxpayer-needs assessment would prove very 
helpful when the IRS has to make difficult program decisions, 
some of which involve irrevocable consequences, such as closing 
the TACs. If the IRS decides a few years down the road that it 
has made a mistake, it will be hard-pressed to obtain the 
resources required to reopen TACs.
    One final word of caution: We must all be very careful 
about the pressure we put on the IRS to produce. A panel of 
non-IRS senior executives, who were appointed by Commissioner 
Rossotti to review allegations of abuse from the RRA 98 
hearings, noted that there has historically been considerable 
pressure on the IRS to improve productivity and that the 
importance of safeguards should not be minimized or lost in the 
interest of achieving greater productivity. To avoid a repeat 
of the pre-1998 environment, each of the entities and persons 
with an IRS oversight responsibility should take great care to 
ensure that current IRS efforts to bolster enforcement do not, 
however inadvertently, diminish the hard-won improvements to 
taxpayer service and taxpayer protections that are so essential 
to maintaining overall taxpayer satisfaction and, not 
incidentally, overall taxpayer compliance.
    Thank you.
    Representative Ramstad. Thank you, Ms. Olson.
    [The statement of Ms. Olson follows:]

    Written Testimony of Nina E. Olson, National Taxpayer Advocate, 
                        Internal Revenue Service

    Mr. Chairman and Members of the Joint Review panel: Thank you for 
inviting me to testify before this joint hearing regarding the Internal 
Revenue Service (IRS) strategic plan and its 2006 budget request. My 
testimony will also discuss the importance of business systems 
modernization to improved taxpayer service and enforcement as well as 
certain taxpayer protections provided by the IRS Restructuring and 
Reform Act of 1998 (RRA 98) \1\ that the IRS has yet to implement 
adequately.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 105-206, 112 Stat. 685.
---------------------------------------------------------------------------
      the irs mission statement in today's enforcement environment
    In September 1998, the IRS issued a new mission statement that was 
designed to reflect the priorities of the newly reorganized Service and 
set a tone for all of its employees in fulfilling their duties. The 
statement was very concise:
    ``Provide America's taxpayers top quality service by helping them 
understand and meet their tax responsibilities and by applying the tax 
law with integrity and fairness to all.''
    The IRS's mission reflects some of the lessons learned from the 
period preceding and subsequent to the enactment of RRA 98, including 
the role of quality taxpayer service in maintaining and even increasing 
the level of taxpayer compliance. Moreover, while tax law enforcement 
is not explicitly discussed, the mission statement recognizes that 
enforcement derives from the IRS's obligation to apply the tax law 
``with integrity and fairness to all.''
    Today, as historically, the IRS struggles to maintain the 
appropriate balance between quality taxpayer service and enforcement. 
The IRS's current five-year strategic plan for 2005-2009 recognizes the 
need for this balance:
    ``The mission statement describes our role, as well as the public's 
expectation regarding how we should perform that role. In the United 
States, the Congress passes tax laws and requires taxpayers to comply. 
The taxpayer's role is to understand and meet his or her tax 
obligations. Our role is to help the large majority of compliant 
taxpayers with the tax law, while ensuring that the minority who are 
unwilling to comply pay their fair share. We must meet the highest 
standards of service and integrity in performing our role.'' \2\
---------------------------------------------------------------------------
    \2\ IRS Strategic Plan 2005-2009, Pub. 3744 (Rev. 6-2004), 5.
---------------------------------------------------------------------------
    Under the IRS's controlling strategic plan, then, the IRS envisions 
that service and enforcement will be ``poised to meet customer 
expectations and to respond quickly to technological and demographic 
changes.'' \3\ Thus, there should be no conflict between the IRS's dual 
mission of providing top-quality taxpayer service and enforcing the tax 
laws.
---------------------------------------------------------------------------
    \3\ Id. at 4.
---------------------------------------------------------------------------
        the decline of irs examination and collection activities
    In the late 1990s, as the IRS attempted to reverse some of the most 
significant erosions of taxpayer service, its traditional examination 
and collection activities and resources also declined. Although many 
commentators like to attribute this decline to the RRA 98 hearings and 
certain provisions enacted by Congress in that statute, I believe there 
are many causes for the decline and that ignoring other causes will 
result in many of the same behaviors that got the IRS into trouble in 
the first place.
    Why the sudden drop in enforcement activities and resources? First, 
let's look at the numbers. In FY 1995, the IRS conducted 2.1 million 
examinations,\4\ filed 799,000 notices of federal tax liens, and issued 
2,722,000 levies.\5\ By FY 2000, the IRS conducted approximately 
716,000 examinations,\6\ filed approximately 288,000 notices of federal 
tax liens, and issued approximately 220,000 levies.\7\
---------------------------------------------------------------------------
    \4\ 1995 IRS Data Book, table 11.
    \5\ Id. table 19.
    \6\ 2000 IRS Data Book, table 10.
    \7\ Id. table 16.
---------------------------------------------------------------------------
    We know that IRS examinations dropped from 2.1 million in FY 1995 
to 716,000 in FY 2000. However, by FY 2000 the IRS also issued 
approximately 5.8 million ``math error'' notices which summarily assess 
certain adjustments to the taxpayer's return.\8\ Congress expanded the 
IRS's math error authority effective for tax years 1996 and 1997, and 
as a result, math error procedures eliminated the need for millions of 
correspondence and even office exams. So the decline in examinations 
may not be as great as some observers believe, although there is no 
denying that field examinations declined from 2.1 million in FY 1995 to 
716,000 in FY 2000.
---------------------------------------------------------------------------
    \8\ IRS, Report to Congress: IRS Tax Compliance Activities (July 
2003).
---------------------------------------------------------------------------
    Now, let's examine the reasons for the drop in enforcement 
activities. The decline in collection actions is often attributed to 
the implementation of Collection Due Process (CDP) hearing procedures, 
by which some taxpayers unduly delay the collection of tax. However, 
only 1.2 percent of all IRS field and Automated Collection System liens 
and levies that trigger CDP rights result in a request for a hearing, 
and only 4 percent of those hearings result in litigation. Thus, 
something else must account for the drop in collection activity.
    Employees often cite the enactment of RRA 98 Section 1203, which 
provides for immediate termination of employment when the employee 
commits one of ``ten deadly sins.'' \9\ Others cite the inability to 
evaluate individual or small groups of IRS collection employees on 
quantitative measures. Still others blame the individual caseload of 
collection employees and their seemingly endless paperwork 
requirements.
---------------------------------------------------------------------------
    \9\ Section 1203(b) requires the IRS to terminate an employee for 
certain proven violations committed by the employee in connection with 
the performance of official duties. The violations include: (1) willful 
failure to obtain the required approval signatures on documents 
authorizing the seizure of a taxpayer's home, personal belongings, or 
business assets; (2) providing a false statement under oath material to 
a matter involving a taxpayer; (3) with respect to a taxpayer, taxpayer 
representative, or other IRS employee, the violation of any right under 
the U.S. Constitution, or any civil right established under titles VI 
or VII of the Civil Rights Act of 1964, title IX of the Educational 
Amendments of 1972, the Age Discrimination in Employment Act of 1967, 
the Age Discrimination Act of 1975, sections 501 or 504 of the 
Rehabilitation Act of 1973 and title I of the Americans with 
Disabilities Act of 1990; (4) falsifying or destroying documents to 
conceal mistakes made by any employee with respect to a matter 
involving a taxpayer or a taxpayer representative; (5) assault or 
battery on a taxpayer or other IRS employee, but only if there is a 
criminal conviction or a final judgment by a court in a civil case, 
with respect to the assault or battery; (6) violations of the Internal 
Revenue Code, Treasury Regulations, or policies of the IRS (including 
the Internal Revenue Manual) for the purpose of retaliating or 
harassing a taxpayer or other IRS employee; (7) willful misuse of 
section 6103 for the purpose of concealing data from a Congressional 
inquiry; (8) willful failure to file any tax return required under the 
Code on or before the due date (including extensions) unless such 
failure is due to reasonable cause; (9) willful understatement of 
Federal tax liability, unless such understatement is due to reasonable 
cause; and (10) threatening to audit a taxpayer for the purpose of 
extracting personal gain or benefit. Joint Committee on Taxation, 
General Explanation of Tax Legislation Enacted in 1998, at 50 and 51 
(JCS-6-98).
---------------------------------------------------------------------------
    I suspect that each of these factors plays a role, although I 
believe that Section 1203 is not, or should not be, an excuse for 
failing to take appropriate actions. After all, the IRS has the power--
and is now vigorously wielding it--to bar tax professionals from 
practicing before it, and states have always had the authority to 
revoke licenses of attorneys and accountants for rule violations, 
thereby depriving these professionals of a livelihood. Should we expect 
less ethical conduct from--and impose lesser sanctions on--IRS 
employees?
    The most persuasive explanation for the decline in examination and 
collection resources is the real decline in the IRS's annual budget 
over time while the IRS's workload continues to increase. As 
Commissioner Rossotti noted in his final report to the IRS Oversight 
Board:
    ``Despite significant improvements in the management of the IRS, 
the health of the federal tax administration system is on a serious 
long-term downtrend. This is systematically undermining one of the most 
important foundations of the American economy.
    ``. . . `Trends in Indicators of IRS Workload and Resources,' from 
1992 to 2001, weighted average returns filed, a measure of overall IRS 
workload, increased by 16 percent because of the economy's growth. 
However, during this same period, FTEs [full time equivalents] dropped 
16 percent from 115,205 in FY 1992 to 95,511 in FY 2001. Since more and 
more of the IRS' declining resources are required to perform essential 
operational functions--such as processing returns, issuing refunds and 
answering taxpayer mail--a disproportionate reduction occurred in Field 
Compliance personnel, falling 28 percent from 29,730 in FY 1992 to 
21,421 in FY 2002. . . .
    ``Looking more closely at the most recent five years . . . , we see 
that the number of income tax returns increased by 12 million, while 19 
tax bills were passed that changed 292 tax code sections and required 
515 changes to forms and instructions. On the average, IRS workload 
grows at a compounded rate of 1.8 percent per year. Therefore, just to 
handle this increased workload, the IRS would either have to add 
staff--which is what occurred fairly consistently for the 45-year 
period from 1950 through 1995--or would have to increase productivity 
by 1.8 percent per year just to stay even.'' \10\
---------------------------------------------------------------------------
    \10\ Commissioner Charles O. Rossotti, Report to the IRS Oversight 
Board: Assessment of the IRS and the Tax System, (Sept. 2002), 12-13 
(internal chart and footnote omitted).
---------------------------------------------------------------------------
    If budget limitations and increased workload are the real 
explanation for past declines in enforcement activities, then 
Commissioner Everson deserves significant credit for making a 
persuasive case for increases in the IRS budget. Without such 
increases, we may find ourselves in the same situation as we were in 
1995, with declining enforcement activities and even greater 
deterioration in taxpayer service.
    In January 1998, Commissioner Rossotti appointed three outside 
members of the Senior Executive Service to ``objectively and 
independently review and assess evidence developed concerning 
allegations of misuse of enforcement statistics and to recommend, if 
appropriate, disciplinary actions.'' \11\ Attempting to explain the 
external pressures on the IRS to meet productivity demands, the panel 
described the budget environment in the years leading up to RRA 98:
---------------------------------------------------------------------------
    \11\ Special Review Panel Report for Charles O. Rossotti, 
Commissioner, Internal Revenue Service (August 1998), (response of 
Charles O. Rossotti dated Sept. 14, 1998).
---------------------------------------------------------------------------
    ``The Administration through the budget process in 1994, called 
upon Congress and the IRS to work together on an approach to both 
measure and collect more of the delinquent taxes that were currently 
outstanding. The Administration proposed that beginning in fiscal year 
1995, 5,000 full time equivalents (FTEs) be added to assist in 
improving tax compliance and generating additional revenues. The FY 
1995 Compliance Initiatives were developed to improve compliance, 
generate additional revenue, and provide for additional staffing. 
Congress agreed to fund the initiatives by providing $2.025 billion 
over a five-year period. However, IRS received only the first 
installment of $405 million. IRS had committed to generating $331 
million for the first year and promptly hired new [Revenue Officers]. 
According to the IRS, that effort generated $803.3 million during FY 
1995. However, in 1996 Congress chose not to continue funding for the 
Compliance Initiatives. As a result, the thousands of new employees had 
to be funded out of an already reduced base budget. The downsizing 
efforts already under way because of the reduced base appropriation 
were made even more complicated.'' \12\
---------------------------------------------------------------------------
    \12\ Special Review Panel Report for Charles O. Rossotti, 
Commissioner, Internal Revenue Service (August 1998), 16 (internal 
footnotes omitted).
---------------------------------------------------------------------------
    The panel found that budget cuts, along with the Government 
Performance and Results Act of 1993 (GPRA), the Field Office 
Performance Indicator (FOPI), and ``IRS's emphasis on specific 
statistical targets'' essentially resulted in ``a competitive 
environment that was driven by statistical data'' and pressures for 
greater productivity from examination and collection personnel.\13\ If 
we are not careful, we may find ourselves operating in a similar 
environment today.
---------------------------------------------------------------------------
    \13\ Id.
---------------------------------------------------------------------------
              the role of customer service in enforcement
    Customer service--the act of listening to the customer, being 
professional and ethical in conduct, striving to impose the least 
burden possible on the customer while resolving the problem--should not 
be limited to the IRS's taxpayer service functions such as the phones 
or the Taxpayer Assistance Centers. Customer service plays an important 
role in enforcement activities and often makes the difference in 
resolving an issue. Even taxpayers who are noncompliant and are being 
forced to settle up can respond positively to professionalism. In fact, 
customer service in enforcement can save the government resources, 
because it helps reduce the IRS's use of more expensive enforcement 
measures such as seizures and sales. Thus, one of our quality measures 
should track how Examination and Collection employees treat taxpayers. 
We currently listen in on the toll-free and other phone assistance 
lines to monitor both professionalism and accuracy of responses. The 
IRS should consider expanding the monitoring of Revenue Agents and 
Revenue Officers along these lines.
    There are many reasons why taxpayers are noncompliant with their 
tax obligations. The IRS acknowledges this fact in its 2005-2009 
Strategic Plan:
    ``Noncompliance may not be deliberate and can stem from a wide 
range of causes, including the lack of knowledge, confusion, poor 
record keeping, differing legal interpretations, unexpected emergencies 
and temporary cash flow problems. However, some noncompliance is 
willful, even to the point of criminal tax evasion.'' \14\
---------------------------------------------------------------------------
    \14\ IRS Strategic Plan 2005-2009, Pub. 3744 (Rev. 6-2004), 18.
---------------------------------------------------------------------------
    True taxpayer service involves figuring out why taxpayers don't 
comply before determining the appropriate IRS compliance action. To 
date, the IRS has not built this approach into its enforcement 
initiatives or its training of enforcement personnel. The IRS should 
create business performance measures that track the appropriateness of 
the enforcement response to the reasons for noncompliance. After all, 
Revenue Agents and Revenue Officers aren't just in the enforcement 
business--they are actually in the compliance business. A failure to 
understand the reasons why a taxpayer is noncompliant may lead to 
greater short-term enforcement results but reduced long-term 
compliance.
               maintaining and improving taxpayer service
    The IRS faces formidable challenges in meeting the needs of a 
diverse taxpayer population. The IRS's current strategic plan relies 
heavily on self-service and electronic options and gives short-shrift 
to the real information and literacy gap in the United States 
today.\15\ For example, the IRS's current approach to closing Taxpayer 
Assistance Centers (TACs) is based on the assumption that taxpayers who 
need face-to-face services will easily migrate to electronic or other 
self-service products.
---------------------------------------------------------------------------
    \15\ Id. at 14.
---------------------------------------------------------------------------
    The IRS overestimates taxpayers' ability or willingness to conduct 
complex financial transactions in an electronic or self-service format. 
While some in today's society are comfortable with banking on line, 
many are not. As I have stated elsewhere, the IRS simply does not know 
what services various parts of our population need delivered in a face-
to-face environment.\16\ Thus, the IRS has focused single-mindedly on 
closing TACs without researching taxpayer needs and identifying 
alternative means of delivering necessary face-to-face taxpayer 
service.
---------------------------------------------------------------------------
    \16\ See Statement of Nina E. Olson, National Taxpayer Advocate, 
before the United States Senate Appropriations Subcommittee on 
Transportation, Treasury, The Judiciary, Housing and Urban Development, 
and Related Agencies, April 7, 2005; Statement of Nina E. Olson, 
National Taxpayer Advocate, before the United States Senate Committee 
on Finance on The Tax Gap, April 14, 2005.
---------------------------------------------------------------------------
    I recommend that Congress require IRS to conduct a comprehensive 
taxpayer-based needs assessment once every five years to complement an 
ongoing National Research Program that measures taxpayer compliance. 
With this taxpayer-centric data in hand, the IRS would be able to make 
resource and technology allocations that actually reflect taxpayer 
needs. Without this information, the IRS is making decisions about 
taxpayer service based on its own resource needs and general 
demographic data. A periodic Taxpayer Needs Assessment would prove very 
helpful when the IRS has to make difficult program decisions, some of 
which involve irrevocable consequences such as closing the TACs. The 
IRS will be hard pressed to obtain the resources to reopen TACs if it 
decides a few years down the line that it made a mistake.
      decreases in taxpayer service drive decreases in compliance
    Preliminary results from the National Research Project (NRP) 
indicate that the overall compliance rate in 2001 was about the same as 
that in 1988, the date of the last Taxpayer Compliance Measurement 
Program (TCMP). As discussed above, enforcement activities during this 
period dropped substantially. Taxpayer service, on the other hand, 
improved significantly. Thus, it is entirely possible that improved 
taxpayer service played a major role in maintaining the level of 
compliance over time.
    We may only need a small increase in enforcement activity to 
capture a significant improvement in compliance. That is, if word 
spreads on the street that the IRS is back in some capacity, we may see 
a disproportionate increase in the indirect effect of enforcement--what 
I call the ``ripple effect'' and economists call the ``multiplier 
effect.'' It is also possible that a large enforcement build-up, if 
coupled with a decline in taxpayer service, may result in an overall 
reduction in compliance.
                 modernization of irs business systems
    Outmoded IRS business systems negatively impact customer service, 
taxpayer rights and IRS business results. By the IRS's own assessment:
    ``The current database architecture inhibits the IRS from 
delivering the customer service expected by the public and experienced 
in the private sector. Issues such as poor customer service to 
taxpayers, taxpayer non-compliance, poor productivity, and job 
satisfaction by the IRS workforce have received national attention in 
recent years.'' \17\
---------------------------------------------------------------------------
    \17\ IRS Business Systems Modernization Analysis.
---------------------------------------------------------------------------
    As the IRS acknowledges, there are many problems with IRS data 
systems, and to address them all would be beyond the scope of this 
testimony. Three examples of the technology challenges facing the IRS 
will demonstrate how antiquated systems can impact customer service, 
taxpayer rights, and business results. These examples also demonstrate 
that the IRS is responding to these challenges but needs continued 
resources and support to ensure that these technology investments reap 
their potential benefits.
     the role of business systems modernization in customer service
    Part of the IRS's information technology problem is that its 
``master file'' systems are based on 1960s style business architecture. 
For example, the age and complexity of the Individual Master File (IMF) 
system causes delays and inaccuracies in providing service to 
taxpayers. There is lag time in the current IMF system because files 
are updated on a weekly basis. Consequently, taxpayers often cannot 
obtain current account information when they contact the IRS.
    Because current data is not available to IRS employees, taxpayers 
are often given incorrect information on their account status, through 
both direct contact and notices. In an era when technology allows 
customers access to real-time information in almost every industry, 
taxpayers expect and deserve some level of sophistication from the IRS.
    The cornerstone of the IRS's response to this problem is the new 
system known as Customer Accounts Data Engine (CADE). CADE is an on-
line modernized data infrastructure that is being brought on-line in 
stages and will run in conjunction with the Individual Master File 
(IMF) until it ultimately replaces it. Some of the expected benefits of 
CADE are:
    <bullet> Refunds will be issued faster because of daily versus 
weekly processing;
    <bullet> Taxpayers and employees will benefit because they will be 
working with more current information; and
    <bullet> The system administers policy and legislative changes 
easily.
    The IRS can only bring CADE on-line in stages. For example, in July 
2004, CADE was used to process an initial set of 1040EZ returns. For 
2005, CADE is expected to process approximately 1.9 million 1040EZ 
returns. Each year thereafter, CADE will handle greater volume and more 
complexity until it can take the place of the existing system for 
processing individual returns. The benefits of CADE cannot be realized, 
however, unless the IRS is able to fund and properly monitor its 
continued development.
  lack of progress in business systems modernization impacts taxpayer 
                                 rights
    Because of the slow progress with CADE, the IRS maintained or 
developed other systems to provide IRS personnel with access to tax 
account and tax return information, such as the Integrated Data 
Retrieval System (IDRS). These stand-alone systems are not integrated 
for cross-functional use. The IDRS is also hampered by systemic 
limitations that prevent the IRS from keeping pace with changes to the 
tax law.
    The failure of the IDRS systems to fully process the changes to the 
tax laws that affected taxpayers' collection statute expiration dates 
(CSEDs) demonstrates how systems limitations can impact taxpayer 
rights. The IRS has 10 years from the assessment date of a tax to 
collect that tax.\18\ Certain actions can suspend the running of the 
CSED such as a taxpayer's submission of an offer in compromise \19\ or 
an installment agreement.\20\ RRA 98 made several important changes to 
the calculation of CSEDs, including the following:
---------------------------------------------------------------------------
    \18\ IRC Sec. 6502(a)(1). See National Taxpayer Advocate 2004 
Annual Report to Congress 180 (discussing the CSED problem in detail).
    \19\ IRC Sec. Sec. 6331(i)(5) and 6331(k)(1).
    \20\ IRC Sec. 6331(k)(2).
---------------------------------------------------------------------------
    <bullet> The IRS can no longer seek extensions of the collection 
statute of limitations period unless the extension is sought in 
conjunction with an installment agreement or in conjunction with a 
release of levy; \21\
---------------------------------------------------------------------------
    \21\ Pub. L. No. 105-206, 112 Stat. 685.
---------------------------------------------------------------------------
    <bullet> In the case of an offer in compromise submitted by a 
taxpayer, the period for which IRS could suspend the running of the 
CSED was changed from the time that the offer is being considered plus 
one year to the time that the offer is being considered plus 30 days; 
and
    <bullet> In cases where the extensions were entered into before 
December 31, 1999, the extensions would terminate on the later of the 
running of the original CSED or December 31, 2002, except that in the 
case of installment agreements the extensions terminate on the 90th day 
after the expiration of the extension.\22\
---------------------------------------------------------------------------
    \22\ Pub. L. No. 105-206, Sec. 3461(c)(2), 112 Stat. 685.
---------------------------------------------------------------------------
    These changes to the laws applicable to the calculation of CSEDs 
require IRS systems to perform the necessary CSED calculations to 
ensure that the IRS is not collecting from taxpayers after the date 
beyond which it is permitted by law to do so. The IRS master file 
systems are unable to fully process all of these changes in the law. 
The Taxpayer Advocate Service (TAS) detected increasing numbers of 
cases where IRS systems failed to properly calculate the CSED for 
taxpayers. TAS is working with the IRS to identify and correct 
thousands of inaccurate CSEDs on existing taxpayer accounts. However, 
these systemic problems will continue to occur if the IRS does not 
update its systems with functionalities that can make the necessary 
CSED calculations.
    CSED problems also arise because the current IDRS and master file 
systems cannot accommodate more than one CSED per tax module. Multiple 
CSEDs can occur, for example, when the taxpayer files a balance-due tax 
return, which generates a CSED for that amount, and the IRS 
subsequently audits the taxpayer, resulting in a second CSED for a 
newly assessed amount. IRS systems will only show the most recent CSED, 
allowing for the possibility that unlawful collection action could be 
taken against the taxpayer after the first CSED expires.\23\
---------------------------------------------------------------------------
    \23\ See National Taxpayer Advocate 2004 Annual Report to Congress 
185 (citing actual example of taxpayer's account which should reflect 2 
CSEDs but only showed the later CSED).
---------------------------------------------------------------------------
    Other CSED problems arise because IRS systems cannot separate the 
joint account of spouses when only one spouse files a request for 
relief from the liability (e.g., the spouse files an offer in 
compromise or requests an installment agreement). This situation 
requires the IRS to separate the joint account into separate accounts 
so that the applicable limitations period is suspended only for the 
requesting spouse. Inherent limitations in the IRS systems make it 
cumbersome to separate out the accounts of the spouses and can lead to 
improper collection actions.\24\
---------------------------------------------------------------------------
    \24\ See National Taxpayer Advocate 2003 Annual Report to Congress 
170.
---------------------------------------------------------------------------
        irs business results and business systems modernization
    The IRS's collection strategy provides one example of the potential 
for business systems modernization to improve business results while at 
the same time increasing tax compliance. Commentators inside and 
outside the IRS have long criticized the IRS approach to tax collection 
as a ``one size fits all'' approach that applies the same collection 
strategy to all taxpayers regardless of the reasons for the taxpayer's 
noncompliance.\25\ Timeliness in contacting debtors is crucial to all 
debt collection efforts.\26\ Yet, the IRS collection system keeps all 
taxpayers in a 6-month notice stream before taking any steps to make 
person-to-person contact, and it treats all taxpayers the same, levying 
on taxpayers who may comply after a phone call and ignoring chronically 
noncompliant taxpayers whose assets should be levied upon.
---------------------------------------------------------------------------
    \25\ General Accounting Office, Tax Administration--New Delinquent 
Tax Collection Methods for IRS, 1 (May 1993); see National Taxpayer 
Advocate 2004 Annual Report to Congress 226 (discussing the history of 
the IRS's collection strategy and offering suggestions for 
implementation of a modern compliance-based collection strategy); 
Leslie Book, The Poor and Tax Compliance: One Size Does Not Fit All, 51 
Kan. L. Rev. 1145 (2003).
    \26\ On average, the passage of time results in diminishing 
collection returns for the IRS, such that after 6 months the IRS loses 
47 cents on the dollar, after 24 months it loses 87 cents on the 
dollar, and after 3 years the debt is nearly uncollectible. IRS 
Automated Collection System Operating Model Team, Collectibility Curve 
(August 5, 2002).
---------------------------------------------------------------------------
    With the development of the Filing & Payment Compliance (F&PC) 
initiative, the IRS is making progress toward establishing a modern 
compliance-based collection strategy. The F&PC initiative is a multi-
pronged collection strategy that would make changes to work processes, 
organization, and technology to increase payment compliance. The 
cornerstone of the technology piece of F&PC is the use of ``decision 
analytics,'' which utilize data about the taxpayer to better assess the 
risk of the account.\27\ While the IRS employs decision analytics 
currently, the applications are limited in part because data is limited 
to internal IRS information about the taxpayer. F&PC plans to procure 
software that will use both external data (such as credit ratings) and 
internal data on taxpayer characteristics to assess risk. Most 
importantly, the new commercially developed software will then be used 
to select the optimal treatment for any given taxpayer based on that 
taxpayer's characteristics. This process should improve business 
results by enabling the IRS to assign the optimal collection treatment 
in a timely fashion. At the same time, this process should improve 
taxpayer payment compliance and protect taxpayer rights by applying the 
right collection touch to each taxpayer.
---------------------------------------------------------------------------
    \27\ The IRS is already using decision analytics to a limited 
extent. See Treasury Inspector General for Tax Administration, Ref. No. 
2004-30-165, The New Risk-Based Collection Initiative Has the Potential 
to Increase Revenue and Improve Future Collection Design Enhancement 
(September 2004). The F&PC initiative contemplates a more comprehensive 
and sophisticated use of risk assessment software.
---------------------------------------------------------------------------
    The above examples demonstrate that technology has a profound 
impact on customer service, taxpayer rights, and business results. In 
each of these examples, the IRS has plans to address the problem with 
enhanced technological capabilities. However, the complex nature of 
these problems does not allow for a one-time technological fix. The IRS 
will be able to steadily improve its customer service, the protection 
of taxpayer rights, and its business results only if it sustains a 
long-term commitment to modernize IRS business systems and receives 
adequate funding and Congressional oversight.
                     disturbing trends since rra 98
                        independence of appeals
    RRA 98 requires the IRS to ``ensure an independent appeals function 
within the [IRS].'' \28\ This requirement recognizes that independence 
is the critical ingredient of a healthy and successful IRS Appeals 
function. The Appeals Office itself has historically recognized that it 
must be independent of IRS enforcement in both fact and appearance.\29\ 
In fact, independence is central to Appeals' mission to ``resolve tax 
controversies, without litigation, on a basis which is fair and 
impartial to both the government and the taxpayer in a manner that will 
enhance voluntary compliance and confidence in integrity and efficiency 
of the [IRS].'' \30\ Without independence, taxpayers will view Appeals 
as an ``arm of the Examination function or an adversary seeking to 
strengthen the government's case.'' \31\ As a result of concern about 
Appeals' independence, the IRS has altered the Appeals reporting 
structure several times over the last 50 years.\32\
---------------------------------------------------------------------------
    \28\ Pub. L. No. 105-206 Sec. 1001(a)(4).
    \29\ IRS Document 7225, ``History of Appeals,'' 7-8 (Nov. 1987).
    \30\ IRM 8.1.1(2) (Feb. 1, 2003).
    \31\ IRS Document 7225, ``History of Appeals,'' 7-8 (Nov. 1987).
    \32\ A 1987 IRS document summarized Appeals' history: ``A 1952 
reorganization established the structure of the Appeals organization 
along the lines we see today [i.e., 1987]. Prior to the 1952 
reorganization, the Appeals function (Technical Staff) reported 
directly to the Commissioner through the Head of the Technical Staff. 
The reorganization brought about the establishment of a system of 
regional administration of districts under Regional Commissioners of 
Internal Revenue. However, to maintain the independent status of 
Appeals and preserve the principle of separating the Audit and Appeals 
operations, the Appeals function was carved out and placed under the 
office of the Assistant Regional Commissioner (Appellate), who had 
final settlement authority. . . . In 1982, the Chief Counsel was 
delegated line supervisory authority over Appeals by the Commissioner. 
The transfer of Appeals to Chief Counsel facilitates the flow of 
information and assistance between appeals officers and counsel 
attorneys.'' See IRS Document 7225, ``History of Appeals'' (Nov. 1987).
    In 1995, the IRS moved the reporting structure of the Office of 
Appeals from Chief Counsel back to the Commissioner and Regional 
Commissioners. See IRS Appeals to be Under Commissioner in Chief 
Counsel Reorganization, 95 TNT 117-4, June 16, 1995; Linda B. Burke, 
TEI Says IRS Appeals Function Should Report to Deputy Commissioner, Not 
Chief Counsel, 95-TNT 108-89, June 5, 1995. (``The current structure of 
Appeals, reflecting the 1982 decision to shift Appeals to the Chief 
Counsel's ``side of the house,'' has contributed to a perceived 
diminution in Appeals'' independence. Given Counsel's role as the 
adviser to Examination personnel, it is hardly surprising that 
taxpayers are less than sanguine about Appeals' reporting to Counsel. 
Indeed, anecdotal evidence suggests that Counsel has generally become 
more involved in the management and oversight of Appeals' workload and 
that this involvement has affected Appeals' attitude toward 
settlement.'')
    In 1998, Congress enacted legislation to ``ensure an independent 
appeals function within the [IRS]''. Pub. L. No. 105-206 
Sec. 1001(a)(4). For examples of Congressional concerns with Appeals 
independence, see 144 Cong. Rec. S4182 (1998) (``One of the main 
concerns we've listened to throughout our oversight initiative--a theme 
that repeated itself over and over again--was that the taxpayers who 
get caught in the IRS hall of mirrors have no place to turn that is 
truly independent and structured to represent their concerns. With this 
legislation, we require the agency to establish an independent Office 
of Appeals--one that may not be influenced by tax collection employees 
and auditors'') and 144 Cong. Rec. S7639 (1998) (``the bill mandates 
that the Commissioner's restructuring of the IRS include an independent 
appeals function. This appeals unit is intended to provide a place for 
taxpayers to turn when they disagree with the determination of front-
line employees. A truly independent appeals unit will assure that 
someone takes a fresh look at taxpayers' cases, rather than merely 
rubber-stamping the earlier determination'').
---------------------------------------------------------------------------
    As I discussed in my 2004 Annual Report to Congress, several recent 
developments in Appeals raise concerns about its independence from the 
IRS enforcement function--in both perception and reality: \33\
---------------------------------------------------------------------------
    \33\ See National Taxpayer Advocate 2004 Annual Report to Congress 
264-89.
---------------------------------------------------------------------------
    <bullet> Appeals is centralizing most of its inventory (including 
Tax Court docketed ``S'' cases \34\) at IRS campuses--limiting taxpayer 
access to face-to-face Appeals conferences and reassigning cases to 
campus employees that have traditionally worked in enforcement; \35\
---------------------------------------------------------------------------
    \34\ S cases stem from compliance issues totaling less than $50,000 
under IRC Sec. 7463.
    \35\ The Taxpayer Advocate Service is currently developing this 
issue as a possible Most Serious Taxpayer Problem for the National 
Taxpayer Advocate's 2005 Annual Report to Congress.
---------------------------------------------------------------------------
    <bullet> Appeals participation in certain IRS settlement 
initiatives and various exceptions to the prohibition against ex parte 
communications by Appeals erodes the protection afforded taxpayers by 
that prohibition;
    <bullet> Appeals actively participates with IRS enforcement in 
developing IRS enforcement settlement initiatives; and
    <bullet> The IRS currently categorizes more than 90 percent of 
Appeals budget as enforcement activity.\36\
---------------------------------------------------------------------------
    \36\ FY 2005 Congressional Submission.
---------------------------------------------------------------------------
    I also have concerns about the current state of Appeals' mediation 
programs.\37\ Congress directed the IRS in RRA 98 to establish certain 
mediation procedures.\38\ The legislative history states that mediation 
fosters more timely resolution of taxpayer problems and should be 
extended to all taxpayers.\39\ However, the IRS' mediation programs, 
Fast Track Mediation (FTM) and post-Appeals mediation are rarely 
used.\40\ Rather than improve its mediation programs to meet taxpayer 
concerns and educate taxpayers about the benefits of mediation, Appeals 
has announced that it is reallocating its FTM program resources to its 
popular Fast Track Settlement program.\41\
---------------------------------------------------------------------------
    \37\ See National Taxpayer Advocate 2004 Annual Report to Congress 
290-310.
    \38\ See IRC Sec. 7123(b)(1) (directing the Secretary to 
``prescribe procedures under which a taxpayer or the Internal Revenue 
Service Office of Appeals may request non-binding mediation on any 
issue unresolved at the conclusion of--(A) appeals procedures; or (B) 
unsuccessful attempts to enter into a closing agreement under section 
7121 or a compromise under 7122.'').
    \39\ See S. Rep. 105-174 (April 22, 1998) (``The Committee also 
believes that mediation . . . would foster more timely resolution of 
taxpayers' problems with the IRS. In addition, the Committee believes 
that the ADR process is valuable to the IRS and taxpayers and should be 
extended to all taxpayers.'').
    \40\ See National Taxpayer Advocate 2004 Annual Report to Congress 
294.
    \41\ See Fast-Track Settlement Now Available to Small Business, 
2005 TNT 82-2 (April 29, 2005).
---------------------------------------------------------------------------
                      offer-in-compromise program
    The ``offer in compromise'' (OIC) program allows for the compromise 
of tax liabilities based upon ``doubt as to liability'' or ``doubt as 
to collectibility,'' or in furtherance of ``effective tax 
administration.'' \42\ The IRS' goal for the OIC program is to achieve 
collection of what is reasonably collectible at the least cost and at 
the earliest possible time and to promote future compliance by 
providing taxpayers with a ``fresh start.'' \43\ OICs also promote 
future compliance by requiring, as a condition of the OIC agreement, 
that the taxpayer file returns and pay taxes for the following five 
years.\44\ In RRA 98, Congress expanded the bases for compromise to 
include ``effective tax administration'' based on its belief that OICs 
promote voluntary compliance.\45\ The intended effect of this expansion 
was generally to increase the IRS' flexibility in accepting OICs.\46\ 
The conference report for this legislation explained:
---------------------------------------------------------------------------
    \42\ See Treas. Reg. Sec. 301.7122-1, et. seq.; Form 656, Offer in 
Compromise (Rev. 7-2004).
    \43\ Policy Statement P-5-100, IRM 1.2.1.5.18 (Rev. 1-30-1992).
    \44\ Form 656, Offer in Compromise (Rev. 7-2004).
    \45\ H.R. Conf. Rep. 599, 105th Cong., 2d Sess., 288-289 (1998) 
(stating that ``[t]he Senate amendment provides that the IRS will adopt 
a liberal acceptance policy for offers-in-compromise to provide an 
incentive for taxpayers to continue to file tax returns and continue to 
pay their taxes. . . . The conferees believe that the ability to 
compromise tax liability . . . enhances taxpayer compliance.'').
    \46\ RRA 98, Pub. L. No. 105-206 (1998).
---------------------------------------------------------------------------
    ``The conferees believe that the IRS should be flexible in finding 
ways to work with taxpayers who are sincerely trying to meet their 
obligations and remain in the tax system. Accordingly, the conferees 
believe that the IRS should make it easier for taxpayers to enter into 
offer-in-compromise agreements, and should do more to educate the 
taxpaying public about the availability of such agreements.'' \47\
---------------------------------------------------------------------------
    \47\ H.R. Conf. Rep. 599, 105th Cong., 2d Sess. 289 (1998).
---------------------------------------------------------------------------
    Appropriate revisions to the IRS approach to evaluating offers in 
compromise, as I discussed in my 2004 Annual Report to Congress, would 
increase revenues collected and bring more taxpayers back into 
compliance.\48\ IRS's own research shows that for more than half of the 
offers from individual taxpayers that it rejected or returned, it 
eventually collected less than 80 percent of what taxpayers were 
offering, and it collected nothing in more than 20 percent of those 
cases.\49\ The same study also shows that 80 percent of the taxpayers 
whose offers were accepted remained in compliance with their tax 
obligations over the five-year period following offer acceptance, as 
required by the terms of the offer. Thus, the offer in compromise 
program converts noncompliant taxpayers into compliant ones and brings 
in enforcement revenue that the IRS would not otherwise collect.
---------------------------------------------------------------------------
    \48\ National Taxpayer Advocate 2004 Annual Report to Congress 311-
341 (describing problems in the offer-in-compromise program) and 433-
450 (proposing a legislative recommendation to mitigate some of the 
problems).
    \49\ SB/SE Payment Compliance and Office of Program Evaluation and 
Risk Analysis (OPERA), IRS Offers in Compromise Program, Analysis of 
Various Aspects of the OIC Program (September 2004).
---------------------------------------------------------------------------
    In 1998, Congress authorized the IRS to compromise tax debts based 
upon factors such as equity, public policy and hardship in cases where 
doing so would promote the effective administration of the tax laws 
(ETA offers). However, the IRS has interpreted the congressional 
authorization so narrowly that, for example, the IRS group charged with 
evaluating such offers accepted only a single ETA offer based upon 
equity or public policy in FY 2004. We believe that the IRS' reluctance 
to compromise in inequitable situations may lead taxpayers to disregard 
the law or erode their faith in the fairness of the income tax system. 
As I described in my 2004 Annual Report to Congress, I am not confident 
that the IRS will, on its own, use its ETA authority in the manner I 
believe Congress intended. I therefore recommend that Congress provide 
more specific guidance to the IRS to ensure that a new ``equitable 
consideration'' standard be applied in a broader array of cases.\50\
---------------------------------------------------------------------------
    \50\ For more detail, see National Taxpayer Advocate 2004 Annual 
Report to Congress 433-450.
---------------------------------------------------------------------------
                   taxpayer advocate service mission
    The statutory mission of the Taxpayer Advocate Service is to help 
taxpayers resolve their problems with the IRS and make administrative 
and legislative recommendations to mitigate those problems.\51\ The 
Taxpayer Advocate Service (TAS) was never intended to become a ``shadow 
IRS'' or to take on core IRS functions. Today, however, TAS is 
increasingly asked to meet taxpayer service needs that the IRS no 
longer wants to meet or is providing for inadequately.
---------------------------------------------------------------------------
    \51\ IRC Sec. 7803(c).
---------------------------------------------------------------------------
    I anticipate that TAS will be asked to provide more taxpayer 
service to fill needs that arise as a result of IRS cuts in that area. 
To illustrate, IRS Taxpayer Assistance Centers (TACs) last year stopped 
issuing transcripts to taxpayers. For the first six months of FY 2005, 
TAS cases involving requests for copies of tax returns and account 
transcripts have consequently increased by 58.4 percent as compared 
with the same period last year. TAS offices that are co-located with 
TACs subject to closure are particularly likely to see an upsurge in 
taxpayer requests as taxpayers seeking face-to-face assistance from IRS 
employees come to TAS instead. In fact, TAS cases resulting from 
referrals from TACs increased by 29.7 percent for the first six months 
of FY 2005 over the same period last year due to reduced TAC hours and 
reduced scope of services. Unless we turn away taxpayers who require 
assistance, we will increasingly be handling cases that other IRS 
functions have handled in the past. This situation constitutes a 
significant deviation from TAS's statutory mission. It is not TAS's 
role to provide core IRS services.
    Instead of learning from how TAS resolves both individual and 
systemic problems--as was the intent of the RRA 98 restructuring and 
creation of TAS--the IRS is simply allowing TAS to pick up the slack 
for the services it doesn't want to provide. Ultimately, either TAS may 
become unable to fulfill its statutory mission or it will have to pick 
and choose cases, which will harm taxpayers. Continued Congressional 
oversight and emphasis on the importance of IRS providing core taxpayer 
service will ensure that TAS resources are applied to its 
Congressionally mandated mission--to help taxpayers resolve their 
problems with the IRS and to recommend systemic solutions to mitigate 
taxpayer problems.

    Representative Ramstad. Mr. White, please.

 STATEMENT OF JAMES R. WHITE, DIRECTOR, STRATEGIC ISSUES, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. White. Thank you. Mr. Chairman and members of the 
committee. We are glad to participate in today's hearing. I 
want to cover two topics: IRS's recent progress and looking 
forward to challenges in managing resources to continue 
progress.
    First, IRS has made progress in recent years in improving 
taxpayer service and modernizing operations, but the gains have 
not been uniform. The most noticeable progress has been in 
service. Over the last several years, both access to IRS by 
telephone and the accuracy of IRS answers to telephone--to 
taxpayers' telephone questions have noticeably improved.
    IRS's Web site, a relatively new service, is heavily used 
and provides a variety of services including form and 
publication downloads, refund status checks and access to free 
return preparation and electronic filing.
    The progress has been less clear in enforcement. The net 
tax gap, the uncollected part, is now estimated to be over $257 
billion per year.
    IRS saw declines in enforcement staffing after 1998, but 
has recently stopped the declines and begun to show some 
increases. At the same time, IRS's workload measured by, for 
example, the number of high-income tax returns or the emergence 
of sophisticated tax shelters and schemes has been increasing. 
Combining the trends and staffing and workload, nearly every 
indicator of IRS's coverage of its enforcement workload has 
declined in recent years. As a result, tax law enforcement 
remains on our high-risk list.
    As for system modernization, IRS has made significant 
progress in establishing long-overdue management controls and 
bringing some new systems online. New systems include the call 
router, which has improved telephone service, and the first 
phase of the customer account data engine, which has been 
processing very simple tax returns this year.
    However, BSM remains high risk because of the scope and 
complexity of the program and the history of schedule delays 
and cost overruns.
    Also of concern are serious information security 
weaknesses. In a recently issued report, we identify 39 new 
information security control weaknesses. IRS generally agreed 
with our recommendations to fix problems.
    Looking ahead, IRS faces a number of resource management 
challenges, but also has opportunities to better manage 
resources to continue its progress. First, long-term goals 
would help Congress and others assess IRS's performance, 
evaluate budget requests and hold IRS management more 
accountable. For example, long-term goals would provide a 
framework for assessing budgetary trade-offs between service 
and enforcement and whether IRS is making satisfactory progress 
toward goals.
    Second, IRS's funding might be enhanced, albeit modestly, 
by additional user fees which now account for less than 1 
percent of IRS's budget. Additional leveraging of non-Federal 
partners might also enhance IRS's effectiveness at little 
additional cost. Currently, IRS partners with the States on 
enforcement and with volunteers on tax return preparation.
    Third, efficiency gains from several sources could provide 
a bigger bang per dollar spent on IRS. Productivity gains from 
reengineering processes or from new technology are one source. 
Another source is better targeting of resources.
    For example, IRS provides a menu of services, including 
telephone, Internet and walk-in services, as well as return 
preparation at volunteer sites. In light of recent service 
improvements, it may now be possible for IRS to consider 
reducing some items provided on the menu without reducing the 
quality of service received by taxpayers. Cuts in selected 
services might be offset by other new and improved services. 
Doing so would require prioritizing the services that IRS 
offers.
    My statement offers some criteria for setting priorities 
such as demand for services by taxpayers. Similarly, with 
better data about noncompliance, IRS might better target its 
enforcement resources on suspected noncompliance.
    Fourth, creating the system to enable IRS to develop 
accurate cost estimates could result in better resource 
allocations.
    Fifth, succeeding in implementing recommended management 
improvements would help IRS bring planned new information 
systems on line in a timely and cost-effective manner. The new 
system should improve service and enforcement and reduce costs.
    In addition, IRS is adjusting the BSM program in response 
to budget reductions resulting from concerns about cost 
overruns and delays. It is too soon to tell what effect the 
adjustment, such as shifting more management responsibility 
from the prime contractor to IRS staff, will have, but they are 
not without risk.
    Finally, making the recommended improvements to assure 
information system security is essential for maintaining the 
public's trust in our tax system.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer questions.
    Representative Ramstad. Thank you very much, Mr. White.
    [The statement of Mr. White follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Representative Ramstad. I want to thank all of the 
witnesses for your excellent testimony and for staying within 
the 5-minute rule.
    The first question I have is for you, Mr. George.
    It is upsetting, to say the least, to hear you say that 
some of our men and women serving in combat zones are not 
receiving the tax benefits to which they are entitled because 
of administrative problems at the IRS. In response to TIGTA's 
report that you mentioned, has the Service taken the necessary 
steps to address this problem?
    Mr. George. While I cannot give a definitive response to 
that, Mr. Chairman, the report was issued last month, and from 
all indications, the IRS has indicated that it is working both 
with the Department of Defense to update computer systems so 
that the two can have more accurate information, as well as IRS 
implementing a program internally to clean up the information 
in the records that it has on this issue.
    We will certainly follow up and report to this committee 
our findings in due time.
    Representative Ramstad. We would appreciate that follow-
through because certainly the last group of taxpayers that 
should not receive tax benefits would be those men and women in 
harm's way and those brave troops risking their lives in combat 
zones. So, we appreciate your attention to that.
    I have a question for Ms. Olson.
    Ms. Olson, with reference to your needs assessment 
recommendation, I certainly agree that the IRS should study 
taxpayer needs before making changes in the way services are 
delivered. That is only common sense.
    In your judgment, is legislation required, or does the IRS, 
under current law, have such authority?
    Ms. Olson. I think that the IRS has the authority to do it 
now. It is a question of their willingness to allocate 
resources to it.
    You know, when we talk about the model for the walk-in 
centers, the Taxpayer Assistance Centers, the IRS talks about 
how they use as a factor the--what services were demanded from 
the walk-in sites currently. But the IRS has been reducing and 
limiting the number of services over years, so their data is 
flawed.
    I visited my New Orleans office, and they said that there 
were taxpayers during filing season who were literally in line, 
outside the walk-in site, around the entire building. The IRS 
only counts the taxpayers who make it through the doors in the 
walk-in sites. They only do 10 returns a day during filing 
season, and that is the data that got plugged into the model.
    So I don't think the model reflects the need. And I believe 
that there was another need to measure what taxpayers want or 
need, rather than just the IRS data. IRS can do it. It is a 
question of whether they need some nudging.
    Representative Ramstad. Thank you, Ms. Olson.
    I would like to ask you, Chairman Wagner, in your testimony 
you said that in the ideal tax system, taxpayers will find 
``compliance easy to achieve and difficult to avoid,'' to quote 
your words. To move closer to that ideal, you say that Congress 
and the IRS should work together and establish measurable 
performance criteria.
    Could you just elaborate on the measurements that you would 
recommend? What are the criteria?
    Mr. Wagner. Well, I think, Mr. Chairman, that there would 
be a whole host of measures and criteria that should be 
considered. It would be something that would be developed 
jointly between stakeholders, the IRS, various interested 
parties such as the board and representatives from this group.
    Strategically, the electronic filing goal was certainly a 
very worthy goal that was set by Congress a few years ago. That 
strategic thinking needs to be continued and expanded.
    There needs to be a focus on strategic and outcome 
measurement compliance, such as voluntary compliance rates, 
administrative burden, and end results of interactions with 
taxpayers that include customer service and compliance 
activities. You know, I think that there would be a whole range 
of measures that need to be considered and collaboration with 
stakeholders and partners would yield a better array of 
measures.
    Representative Ramstad. Well, again I want to thank all of 
the witnesses.
    At this time, the Chair recognizes Mr. Olver for questions.
    Representative Olver. Thank you very much, Mr. Chairman.
    In one way or another, each of the four of you has raised 
some question about the closure of service centers. I think I 
am correct in that. And the--from my position in 
Appropriations, the two most important issues that we have to 
deal with are those closures of the service centers, and it 
seems to me, the private collections program.
    I don't know whether you have seen Mr. Everson's testimony, 
his written testimony. Almost all of page 3, except for a 
couple of lines at the top, and the first paragraph on page 4 
of that testimony go through a fairly coherent, very neat 
description of things that the changes in the use of electronic 
filings and such mean.
    I would appreciate it very much if, from your point of 
view--for my edification and for the work that I do, if you 
could address yourselves in written form to that one page of 
his description.
    And I know some of you said the information isn't yet 
available, isn't complete. What would be needed to decide 
whether what is appropriate is there? It would be great if you 
could do that.
    Now, I would like to--if we look at the data for how we 
function, it is quite remarkable, actually. Compliance is 
voluntary up to the 85 percent level. We are getting $6 out of 
$7 involuntarily, essentially; the rest is a tax gap. It is a 
$300 billion, roughly, tax gap.
    And Mr. Everson has been very eloquent about how corrosive 
that is for voluntary compliance, when people who pay what they 
owe and do so, some very willingly, some maybe just because it 
is the law, do not see their neighbors doing the same thing.
    And so the tax gap is certainly important. If we could get 
at just bringing the compliance, the voluntary compliance, up 
to 90 percent--of course, that is $100 billion; that would be 
one-third of the tax gap--it would have a major impact on both 
the fairness of the system, as perceived, in its totality, but 
also on our deficits.
    Now, I used some data earlier which probably were not fair. 
The actual voluntary input seems to be about $1.8 billion. 
Well, that is about $400 per dollar of tax enforcement money, 
the account in the IRS budget, which is $4.5 billion for tax 
enforcement. As I pointed out--and I was reading from Mr. 
Everson's testimony--he had pointed out that the enforcement 
activities, coupled with late payments, recover about 55 
billion of that tax gap and brings it down to a net tax gap.
    Well, if you take the 55 billion of those enforcement and 
late payments and apply just with that 4.5 billion of 
expenditures for tax law enforcement, you get a 12-to-1 margin.
    It seems to me that anything that is less than a 12-to-1 
margin, which would be 8 percent for debt collectors--for 
payments to debt collectors means fairly clearly that we could 
do that better by using our own well-trained employees, without 
having any problem of potential harassment, midnight calls, or 
questions about privacy, which have been raised by a number of 
people -- some of them, you who are testifying. And there 
again, that is a very, very rough kind of an estimate.
    I pulled out--and this is for you, Mr. Wagner. I pulled out 
of Mr. Rossotti's document--as he was going out the door, I 
guess--the idea that there was one account, one set--I 
exaggerated the numbers there a little bit--of field and phone 
accounts receivable where they hadn't been able, because they 
didn't have the staff, to go back and get the numbers of 
dollars that were owed, that everybody knew were owed; and that 
came to $9 billion. And Mr. Rossotti was saying that $300 
million would be able to collect that. That would be--in that 
kind of a count, in that category; there may be other 
categories, there are other categories--but that would be a 30-
to-1 value.
    If any of you would like to give me in writing some 
analysis or thoughts on that, on what I am talking about here, 
that would be very helpful to what I do in my committee.
    Thank you.
    Representative Ramstad. The gentleman's time has expired.
    We have a series, as you can hear, of five votes and I 
don't want to keep these witnesses. That will take 45 minutes 
at least, if not longer. So if we could, limit our questions to 
a couple of minutes.
    Senator, please.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Ms. Olson, as you know, I have been pushing for the 
authorization of grant program that would link free tax 
preparation services for low-income taxpayers with the 
establishment of low-cost bank and credit union accounts. This 
year it has been incorporated into a bipartisan bill, S.832, 
the Taxpayer Protection and Assistance Act, which was 
introduced by Senator Bingaman.
    What is your evaluation of this program, and what else can 
be done to reduce the use of RALs?
    Ms. Olson. Well, sir, I think that funding--linking tax 
preparation with financial literacy initiatives and creating 
low-dollar bank accounts for taxpayers in this low-income 
population and immigrant population is just absolutely 
essential, and I think that your legislation really goes a far 
way to that.
    I will note that the IRS has just recently entered into a 
letter of understanding with the Justice Department in the Weed 
and Feed program, to provide, my understanding is, $1 million 
in grants to volunteer income tax assistance programs that will 
move into communities that are identified as high-crime or 
high-drug or low-income and actually fund tax preparation in 
that area in conjunction with financial literacy. And I think 
that is a wonderful initiative.
    And your program would go further. I have been encouraging 
Treasury and the IRS to look at other means of delivering 
refunds other than through direct deposit or paper checks. The 
United Kingdom delivers their refundable credits through either 
sponsoring low-dollar savings accounts, that can be accessed 
through an ATM card, or literally delivering the refund on a 
debit card such as we give food stamp benefits today, that 
taxpayers can go to any bank, any post office, get the dollars 
downloaded onto that card after showing identification; and 
that would just simply cut out the refund anticipation loan 
market without regulating it at all.
    I really am enamored with that idea. I think we should be 
pursuing that. We do it already in other benefit programs.
    Senator Akaka. Thank you very much.
    I know we are strapped for time, Mr. Chairman. I have 
questions, but thank you.
    Representative Ramstad. Thank you, Senator, for your 
courtesy to the House Members. The gentleman from New York.
    Representative Sweeney. Very briefly, Mr. Chairman, thank 
you; and thanks to all the witnesses.
    By no means--this is not a reflection of a lack of 
appreciation. I have a lot of questions actually for each one 
of you.
    Just in response to you, Chairman Wagner, I understand 
there is concern about the appropriation numbers. As we work 
with the executive branch, trying to pay down the deficit, 
there are constraints upon us. As you saw by Mr. White's 
testimony, there are a lot of needs within the IRS that would 
instill a greater sense of confidence in us appropriators to a 
greater level of funding, and I am looking forward to your 
report because I think that is an important step in that 
process.
    So I will yield back my time with that.
    Representative Ramstad. The Chair thanks the gentleman and 
thanks all the witnesses for your testimony and your good work, 
your important work.
    With no further business before the joint review, the 
hearing is adjourned.
    [Whereupon, at 4:46 p.m., the joint review was adjourned.]

                                  <all>

</pre></body></html>
